THE FEDERAL BUREAU OF PRISON’S
  EFFORTS TO MANAGE INMATE
         HEALTH CARE

       U.S. Department of Justice
     Office of the Inspector General
              Audit Division

          Audit Report 08-08
            February 2008
           THE FEDERAL BUREAU OF PRISONS’ EFFORTS
                TO MANAGE INMATE HEALTH CARE

                            EXECUTIVE SUMMARY

      The Federal Bureau of Prisons (BOP) is responsible for confining
federal offenders in prisons that are safe, humane, cost-efficient, and
secure. As part of these duties, the BOP is responsible for delivering
medically necessary health care to inmates in accordance with applicable
standards of care.

       As of November 29, 2007, the BOP housed 166,794 inmates in 114
BOP institutions at 93 locations.1 During FY 2007, the BOP obligated about
$736 million for inmate health care. The BOP provides health care services
to inmates primarily through: (1) in-house medical providers employed by
the BOP or assigned to the BOP from the Public Health Service, and
(2) contracted medical providers who provide either comprehensive care or
individual services.

       To control the rising cost of health care, since the early 1990s the BOP
has implemented initiatives aimed at providing more efficient and effective
inmate health care. The BOP’s on-going initiatives include assigning most
inmates to institutions based on the care level required by the inmate,
installing an electronic medical records system that connects institutions,
implementing tele-health to provide health care services through video
conferencing, and implementing a bill adjudication process to avoid costly
errors when validating health care-related invoices. We include a discussion
of these cost-cutting initiatives and the effect the initiatives have had on
controlling inmate health care costs in the Findings and Recommendations
section of this report.

OIG Audit Approach

       The Department of Justice Office of the Inspector General (OIG)
initiated this audit to determine whether the BOP: (1) appropriately
contained health care costs in the provision of necessary medical, dental,
and mental health care services; (2) effectively administered its medical



       1
         Appendix V contains a list of the Bureau of Prisons (BOP) institutions. The BOP
housed an additional 33,354 inmates in privately managed, contracted, or other facilities.
For the purposes of this audit, we focused on the medical care provided to inmates housed
in BOP facilities.
services contracts; and (3) effectively monitored its medical services
providers.

       We performed audit work at BOP headquarters and at the following
BOP institutions: the United States Penitentiary (USP) Atlanta (Georgia),
USP Lee (Virginia), Federal Medical Center (FMC) Carswell (Texas), Federal
Correctional Complex (FCC) Terra Haute (Indiana), and FCC Victorville
(California). In addition, we surveyed the 88 BOP locations where we did
not perform on-site work. The details of our testing methodologies are
presented in the audit objectives, scope, and methodology contained in
Appendix I.

       This audit report contains 3 finding sections. The first finding
discusses the BOP’s efforts to contain the growth of health care costs and to
deliver necessary health care to inmates in a cost-effective manner. The
second finding discusses the BOP’s administration of medical services
contracts. The third finding discusses the BOP’s efforts to monitor its
medical services providers, both in-house and contract staff.

Results in Brief

        We found that the BOP has implemented or begun numerous cost
containment initiatives since fiscal year (FY) 2000 that appear to have
helped it contain inmate health care costs. Although the BOP generally did
not maintain analytical data to assess the impact that the individual
initiatives had on health care costs, our audit found that the BOP has kept
the growth of inmate health care costs at a reasonable level compared to
national health care cost data reported by the Departments of Health and
Human Services and Labor.

      However, we also determined that each of the BOP institutions we
tested did not always provide recommended preventive health care to
inmates. Our audit found that for almost half of the preventive health
services we tested, more than 10 percent of the sampled inmates did not
receive the medical service.

       In addition, OIG audits of BOP medical contracts have found multiple
contract-administration deficiencies, such as inadequate review and
verification of contractor billing statements. Several of the contract-
administration deficiencies appeared to be systemic. While the BOP had
taken action to address individual deficiencies at local institutions, we also
found that other BOP institutions lacked appropriate controls in the
deficiency areas identified by prior OIG contract audits.



                                      ii
       We also identified weaknesses in the BOP’s monitoring of health care
providers. Specifically, the BOP: (1) did not develop agency-wide guidance
to correct apparent systemic problems found during medical-related internal
reviews and external audits; (2) did not provide health care providers with
current authorization to practice medicine on BOP inmates through
privileges, practice agreements, or protocols; (3) had not performed
required initial and renewal peer reviews for providers; and (4) had not
implemented an effective performance measurement system related to the
provision of health care at BOP institutions.

     In our report, we make 11 recommendations regarding the BOP’s
provision of medical care for inmates. These recommendations include:
establishing procedures to assess whether individual initiatives are cost-
effective and producing the desired results; determining the necessity of
performing medical services that generally were not performed by most BOP
institutions; providing guidance and procedures to all BOP institutions for
performing certain contract administration functions related to inmate health
care; and ensuring that privileges, practice agreements, or protocols are
established for all practitioners, as applicable.

    The remaining sections of this Executive Summary describe in more
detail our audit findings.

Cost Containment

      Since FY 2000, the BOP has implemented or developed at least
20 initiatives designed to improve the delivery of health care to inmates,
improve the administration and management of health care, and reduce or
contain rising health care costs. As of December 2007, the BOP had
implemented 11 of these initiatives and was in the process of implementing
the remaining 9 initiatives.

     In the following table, we provide a description of four of the BOP’s
major initiatives. Appendix II contains a description of the 20 initiatives.




                                     iii
   Initiative             Description
   Medical Designations   This initiative involves: (1) assigning each inmate a care
   Program                level from 1 to 4, with 1 being the healthiest inmates and
                          4 being inmates with the most significant medical
                          conditions; (2) assigning each BOP institution a care level
                          designation from 1 to 4 based on the inmate care level
                          that the institution is staffed and equipped to handle;
                          (3) staffing each institution based on its designated care
                          level; and (4) moving inmates between institutions to
                          match each inmate’s care level to the care level of the
                          institution.
   Medical Staff          Under this initiative, the BOP established staffing
   Restructuring          guidelines for Care Level 1, 2, and 3 institutions. Because
                          institution staffing did not always match the care level
                          staffing guidelines, the BOP had to move medical staff
                          throughout the BOP to implement the guidelines.
                          Institutions that had staff in positions contrary to the
                          guidelines were required to either move the staff to
                          another facility or reassign the staff to another authorized
                          position in the facility.
   Tele-medicine          This initiative involves the remote delivery of health care
                          using telecommunications technologies such as video-
                          conferencing.
   Electronic Medical     This initiative involves automating the medical records for
   Records                inmates. The initial system included the capability to:
                          (1) track comprehensive history and physical examination
                          information, (2) schedule inmate medical visits when
                          required, and (3) track medical-related supplies and
                          equipment issued to inmates. The BOP subsequently
                          added a pharmacy module to the system to manage the
                          medications provided to inmates.

        We attempted to determine the effect that the BOP’s initiatives had on
inmate health care costs. However, while the initiatives had a primary or
secondary purpose of reducing or containing health care costs, the BOP
could not provide either preliminary cost-benefit analyses or any post-
implementation analyses to identify costs reduced or contained by these
initiatives. BOP officials believed that preliminary cost-benefit analyses had
been performed, but said the documentation of the analyses was no longer
available. As for post-implementation analyses, BOP officials told us that the
BOP does not collect and maintain cost-related data that would allow it to
analyze the cost-effectiveness of each of its health care initiatives. As a
result, we recommend that the BOP collect cost-related data for each
initiative and use the data collected to analyze whether the initiatives are
providing the anticipated cost benefits.

        Because the BOP did not maintain cost data for its health care
initiatives, we were also unable to assess the impact of each initiative


                                        iv
individually. Instead, we analyzed the overall effect of the BOP’s initiatives
on total medical costs. We compared the BOP’s per capita health care costs
for calendar years 2000 through 2006 to similar data reported by the
Department of Health and Human Services (HHS) and the Department of
Labor (DOL). We found that although the BOP experienced growth in excess
of the HHS national average for medical costs and the DOL Consumer Price
Index (CPI) for medical costs during some of the earlier years of our review
period, the BOP’s growth rates since 2002 have declined significantly, even
though the growth rates in the HHS national average and the DOL CPI have
not. The following graph shows the results of our comparison.

    Comparison of the Growth Rates of Health Care Costs for BOP HHS, and DOL
            Health Care Data for Calendar Years 2000 through 20062


                   9%
                   8%
              G    7%
              r    6%
              o
              w    5%
                                                                             BOP
              t    4%
              h                                                              HHS
                   3%
                   2%                                                        DOL
              R
              a    1%
              t    0%
              e
                   -1%

                   -2%
                         2000 - 2001 - 2002 -    2003 - 2004 - 2005 -
                          2001   2002    2003    2004   2005    2006
                                     Calendar Years
           Source: BOP Office of Research and Evaluation, BOP Budget Execution
            Branch, Department of Health and Human Services, and Department of Labor

      The above comparison indicates that the BOP has been effective in
containing the growth of health care costs.



       2
          The BOP’s, the Department of Health and Human Services’ (HHS) and the
Department of Labor’s (DOL) per capita health care medical costs are not fully comparable.
The BOP’s medical per capita costs include costs for services not included in HHS’s and the
DOL’s per capita medical costs and vice versa. Even though the costs are not fully
comparable between the three measures, we believe the cost measures are sufficiently
similar for comparison purposes. The HHS national average cost data was obtained from
the HHS report, National Health Expenditures Aggregate, Per Capita Amounts, Percent
Distribution, and Annual Percent Change by Source of Funds: Calendar Years 2005 – 1960
(January 2007). An updated report showing cost data for 2006 was not available.



                                             v
Preventive Health Care

       The BOP periodically develops program statements to disseminate
policy on a variety of BOP programs. Appendix VI contains a brief
description of the BOP program statements related to the provision of
medical, dental, and mental health services to inmates.

        The BOP has also established 16 clinical practice guidelines containing
diagnostic procedures for specific medical areas, such as preventative health
care, coronary artery disease, and hypertension. The Introduction section of
this audit report contains a list of the 16 medical areas covered by the
clinical practice guidelines. While the guidelines have not been incorporated
into the BOP’s program statements as policy, the BOP Medical Director told
us that BOP institutions are expected to provide the services in the
guidelines to the inmates. The Medical Director also told us that the
institutions have discretion in whether to follow the guidelines on a case-by-
case basis. However, BOP institutions must request and receive approval
from the Medical Director to not implement a specific guideline requirement.

        To determine whether the institutions were providing expected
medical services to inmates, we selected and tested specific medical services
listed in the BOP’s Preventive Health Care Clinical Practice Guideline. We
chose this particular BOP guideline because:

      •   It addressed care for all inmates, instead of only inmates with
          specific illnesses;

      •   It included diagnostic procedures for 9 of the 11 chronic conditions
          addressed in the other 15 guidelines;

      •   It contained clearly defined medical services that could be
          reasonably tested;

      •   Health promotion and disease prevention is a primary objective of
          the BOP’s efforts to contain costs; and

      •   The BOP Medical Director told us that testing of the preventive
          health care guideline would provide useful information to the BOP
          because its per capita cost of providing health care should be
          reduced by implementing a good preventive health program, and
          he expects the institutions to provide the services contained in the
          guideline.




                                     vi
      We specifically selected and tested 30 medical services contained in
the preventive health care guideline, including whether: (1) inmates
received a measles, mumps, and rubella vaccine; (2) inmates received a
hepatitis A vaccine; (3) inmates received a cholesterol check in the last 5
years; (4) female inmates received a chlamydia test; and (5) female
inmates received a bone density screening test.3

     To perform our testing of the 30 medical services, we selected a
sample of 1,110 of the 14,026 inmates assigned to 5 BOP locations as of
March 24, 2007, as shown in the table below. Appendix IV contains an
explanation of our sampling methodology.

                        Inmate Population and Inmates Sampled

                                                     Inmate
                                                    Population
                                                      as of        Inmates
                     BOP Facility                 March 24, 2007   Sampled
           USP Atlanta (Georgia)                      2,494           251
           USP Lee (Virginia)                         1,808           133
           FCC Terra Haute (Indiana)                  3,343           249
           FMC Carswell (Texas)                       1,677           127
           FCC Victorville (California)               4,704           350
             Totals                                  14,026         1,110
          Source: OIG sample from BOP inmate population data


       For each inmate sampled, we reviewed the inmate’s medical record
and determined whether the inmate received the 30 preventive services, as
applicable. The 30 services were not applicable to all inmates sampled for
reasons such as certain services applied to only female inmates, certain
services were only for inmates over a certain age, and other services applied
only if the inmate had certain risk factors. To validate our testing, we asked
a Health Services Unit official at each of the facilities tested to confirm our
results and ensure that we had not overlooked the provision of any service.

      While the BOP guideline suggests that all inmates should receive the
applicable services, we recognize that 100 percent compliance is unlikely
given the movement of inmates between prisons, staffing shortages, and
other reasons. Therefore, we noted a deficiency when 10 percent or more of
the inmates for whom the service was applicable had not received it.

       As demonstrated in the following two charts, the combined results for
all 5 locations showed that for 16 of the 30 services tested, 90 percent or
more of the inmates received the preventive service as appropriate. For the

      3
          Appendix III shows all 30 medical services we tested.


                                            vii
remaining 14 services, more than 10 percent of the sampled inmates did not
receive the medical service.4 For example, 94 percent of the inmates who
should have received a cardiovascular risk calculation had not received one
in the last 5 years, as recommended by BOP guidelines. Additionally, 87
percent of the sampled inmates needing a measles, mumps, and rubella
vaccine had not received this service.

                            Overall Results of the OIG’s Testing of
                            Medical Services Provided to Inmates5


                                      Inmates                         Yes         No
      Medical Service Tested           Tested
1. Inmate medical history
provided by inmate at intake          1,044                                99%                            1%

2. Medical assessment completed       1,044                                99%                            1%
by medical practitioner at intake
3. New inmate tested for
tuberculosis or previous test for
                                      1,043                                99%                            1%
transferred inmate confirmed,
within 48 hours of intake
4. Inmate received rapid plasma
regain test during intake screening    403                                92%                        8%
to test for syphilis
5. Female inmate tested for
                                        25              36%                            64%
chlamydia
6. Female inmate received a
measles/mumps/rubella vaccine          128                           81%                        19%

7. Inmate received a complete
                                      1,044                               95%                         4%
physical within 14 days of intake
8. Inmate received a
pneumococcal vaccine                   93                            74%                       23%

9. Inmate received an annual
                                       210                          71%                        29%
influenza vaccine
10. Inmate born after 1956 received
                                       932      13%                             87%
a measles/ mumps/rubella vaccine
11. Inmate received a tetanus
vaccine in the last 10 years          1,042               50%                           49%

12. Inmate received a hepatitis A
                                       263                    57%                        42%
vaccine

13. Inmate received a hepatitis B
                                       343                                90%                        9%
test or vaccine

14. Inmate received a hepatitis C
                                       267                                91%                        8%
test




       4
         The percentages in the chart are based on the number of inmates for whom the
service was applicable.
       5
         Some percentages in the chart total less than 100 percent because documentation
was not available to determine if the service was performed for some inmates.


                                                 viii
                                     Inmates                        Yes         No
       Medical Service Tested         Tested
15. Inmate received an HIV-1 test     381                            93%                           6%


16. Inmate received an HIV-2 test     130                                 98%                           2%

17. Inmate received a tuberculosis
test in the past year                 869                                 98%                           2%

18. Inmate received a chronic care
                                      339                                 98%                           2%
evaluation in the last 6 months
19. Inmate received a cholesterol
                                      678                     71%                            29%
check in the last 5 years

20. Inmate received a cardiovascular         6%                           94%
risk calculation in the last 5 years 402

21. Inmate received a fasting plasma
                                     324                        84%                           12%
glucose test in the last 3 years

22. Inmate received a current
                                     1,043                           96%                            4%
blood pressure check
23. Inmate received a current
                                     1,036 12%                            88%
body mass index calculation
24. Inmate received a fecal
occult blood test                     189              46%                            54%

25. Inmate received a vision
screening test                         58                             93%                          7%

26. Inmate received a hearing
                                       35               51%                            49%
screening test
27. Inmate received an
abdominal ultrasound test              6                              100%

28. Female inmate received a
papanicolaou test (PAP smear)         142                             99%                               1%

29. Female inmate received a
                                       89                             100%
current mammogram
30. Female inmate received a
bone density screening test            8               38%                           62%



Source: OIG testing of BOP medical records


       We found that the institutions either did not usually provide or were
inconsistent in providing 18 of the 30 medical services we tested. For
example, the cardiovascular risk calculation was rarely performed in the 5
institutions we tested. Moreover, as shown in the chart below, we found
that the percentage of applicable inmates not receiving a cholesterol check
within the past 5 years ranged from 68.1 percent at USP Lee to 8.3 percent
at FMC Carswell. This disparity in medical service provision indicates a need
for better BOP headquarters oversight and guidance.




                                                  ix
                                   Percent of Applicable Inmates NOT
                              Receiving a Cholesterol Check in Last 5 Years
                 Inmates
                  Tested
                  135                                      29%             USP Atlanta

                   72                                             8% FMC Carswell

                   69                    68%                               USP Lee

                  187                                            13%       FCC Terre Haute

                  215                                    36%               FCC Victorville

                        100       75           50          25          0
                                           Percent

              Source: OIG testing of BOP medical records


      We asked officials at each of the five locations for an explanation of
why some services were not provided to a significant number of inmates.
FMC Carswell medical officials declined our requests for an explanation,
stating that BOP headquarters would provide a response after we issued our
report. The following are examples of explanations given to us by officials
from the other four locations.

      •   The vaccine was not always available to give to the inmate.

      •   The officials believed that a requirement applicable to all inmates
          only applied to women.

      •   The officials used alternative methods in place of certain services.

      •   The officials considered the service unnecessary.

      •   The inmates failed to return the test cards.

      •   The officials overlooked the requirement.

      •   The officials believed the procedures were too costly.

      •   Staffing inadequacies and scheduling constraints precluded the
          officials from providing the service.

       Another factor that could have contributed to expected medical
services not being provided consistently is that four of the five institutions
had not fully implemented the Primary Care Provider Teams (PCPT) as
required by the BOP’s patient care policy. Under the PCPT model, each
inmate is assigned to a medical team of health care providers and support
staff who are responsible for managing the inmate’s health care needs. The


                                                     x
PCPT model is designed to provide inmates with better and more consistent
medical care because the inmate is examined by the same provider team
each time the inmate requires medical attention. If the same provider team
examines an inmate during each visit, the inmate should be less likely to
miss some services because the provider team would be familiar with the
services previously provided to the inmate. According to the BOP’s
Preventive Health Care Clinical Practice Guideline, the most efficient and
cost-effective way to implement the guideline is to assign appropriate
responsibilities to each PCPT member. However, we found that only the FMC
Carswell had implemented the PCPT concept. The other four institutions had
not fully implemented the PCPT concept primarily because of limited staffing.

Contract Administration

       The BOP relies on contractors to provide a substantial amount of
medical services to inmates, and the OIG periodically performs audits of the
BOP’s comprehensive medical contracts. From August 2004 through March
2007, the OIG issued nine audit reports on BOP medical contracts. Appendix
X contains a summary of these audits. Eight of the nine OIG contract audits
identified major internal control deficiencies. The deficiencies included
management control weaknesses pertaining to calculating medical service
discounts, reviewing and verifying contractor invoices and billing
statements, paying bills, and managing the overall administration of the
contracts. The audits indicated several of the weaknesses were systemic,
such as:

      •   Six of the contract audits found weaknesses in verifying and
          reviewing the accuracy of invoices for medical services provided by
          the contract providers.

      •   Five of the contract audits found weaknesses in obtaining
          supporting documentation for contractor billing statements.

      •   Four of the contract audits found errors in the Medicare or
          diagnostic-related groups discount rates.

      •   Three of the contract audits found that the contractor did not
          provide the services stated in the contract, and the contractor’s
          performance reports were either inaccurate or submitted in an
          untimely fashion.

      The audits usually found that the identified weaknesses were
attributable to the lack of written procedures and other internal controls. As
of November 2007, the BOP had implemented corrective actions for all the


                                     xi
recommendations in seven of the nine contract audits. For the other two
audits the BOP agreed to take corrective actions concerning our
recommendations, and those actions were either completed or in progress as
of November 2007. In response to six of the nine audits, the BOP
strengthened management controls by establishing written procedures for
processing and monitoring contract medical claims. However, these actions
were limited to correcting the deficiencies only at the institutions where the
deficiencies were found.

       As part of this larger audit of BOP medical services we tested whether
the BOP as a whole had strengthened controls related to the deficiencies
identified in the contract audits. We interviewed BOP officials at the five
BOP locations tested. For the remaining 88 BOP locations, we sent survey
questionnaires and asked whether the institutions had established
management control procedures for their comprehensive medical contracts,
including:

      •   reviewing contractor invoices for accuracy,

      •   ensuring contractor invoices are supported by adequate
          documentation,

      •   ensuring that invoice discounts are properly applied,

      •   ensuring that contractor performance reports are complete and
          accurate, and

      •   ensuring that contractor timesheets are verified by a BOP
          employee.

       We found that up to seven BOP institutions lacked critical controls for
certain contract administration functions, and about half the institutions with
critical controls had not documented the procedures associated with the
controls.

       Our analysis of survey responses found that 77 of the 88 BOP
institutions surveyed had comprehensive medical service contracts.
Generally, officials at each institution responded that they had established
internal control procedures for administering its contracts. However, we
found that about half the institutions had not formalized these procedures in
written policy for the controls we tested, as noted in the chart below.




                                     xii
                 Controls Established by BOP Institutions for
                  Comprehensive Medical Services Contracts

                                              Number of Institutions
                                                         Procedures     Percent of
         Contract           Procedures                   Established   Established
      Administration            not          Procedures    but not     Procedures
         Function           Established      Established   Written     not Written
 Reviewing contractor
 invoices for accuracy           1             76            39           51%
 Ensuring contractor
 invoices are supported
 by documentation                3             74            36           49%
 Ensuring invoice
 discounts are properly
 applied                         7             70            34           49%
 Ensuring contractor
 performance reports are
 complete and accurate           2             75            35           47%
 Ensuring contractor
 timesheets are verified
 by a BOP employee               2             75            43           57%
Source: BOP responses to OIG survey questionnaire

       The lack of written procedures increases the risk that appropriate
controls will not be fully and consistently implemented, especially when staff
assignments and duties change. We found during our medical service
contract audits that the lack of management controls resulted in
questionable payments to contractors, and we believe it is possible based on
these results that similar errors may have occurred for medical contracts in
other BOP facilities. It is essential that the BOP strengthen controls over
administering its contracts by providing guidance and procedures to its
institutions to help ensure that systemic deficiencies are corrected BOP-wide.

Monitoring Health Care Providers

      The BOP has established numerous mechanisms to monitor its health
care providers. Some of the mechanisms include:

      •   conducting internal program reviews to determine whether each
          institution is properly implementing BOP policies, including policies
          related to inmate health care;




                                      xiii
       •   granting clinical privileges and establishing practice agreements and
           protocols based on health care providers’ qualifications, knowledge,
           skills, and experience;6

       •   conducting peer reviews of health care providers to review the
           current knowledge and skills of the providers; and

       •   requiring each institution to accumulate and report performance
           data on a quarterly basis for specific health-related areas.

       The primary purpose of these monitoring mechanisms is to improve
the quality and efficiency of health care delivered to inmates by:
(1) identifying and correcting deficiencies in the provision of health care, and
(2) authorizing duties for health care providers commensurate with their
skills and capabilities.

      Our audit found that the BOP corrects deficiencies at the institutions at
which deficiencies are found, but generally does not develop and issue
agency-wide guidance to correct systemic deficiencies found during internal
program reviews. We also found that the BOP allowed several health care
providers to practice medicine without valid authorizations. Additionally,
providers had not had their medical practices evaluated by a peer as
required by BOP policy. Moreover, while institutions were accumulating and
reporting data on health-related performance measures, the BOP does not
develop agency-wide corrective actions when the performance is below
target levels. These issues are summarized in the following sections.

Program Reviews

       The BOP’s Program Review Division monitors health care services
provided to inmates through periodic reviews generally conducted once
every 3 years, or more frequently if significant problems are identified.
From FYs 2004 to 2006, the Program Review Division conducted 110 health
care program reviews at 88 BOP locations. We analyzed the 110 review
reports and determined that 40 of the 110 reviews found medical services
deficiencies. The Program Review Division required institutions to certify
completion of corrective actions for the deficiencies identified.

       The Program Review Division also prepared quarterly summary reports
of the program reviews. The summary reports identified the most frequent
deficiencies found during the reviews and were distributed to the Chief

       6
          Clinical privileges and practice agreements authorize the specific clinical or dental
duties that health care providers may provide to BOP inmates.


                                            xiv
Executive Officers within the BOP, including the Health Services Division
Medical Director. However, a senior Health Services Division official told us
that the BOP probably would not change its policy when program reviews
find problems in a certain area, but it might provide training to improve staff
knowledge and compliance. The official told us that the Health Services
Division relies on the BOP Regional Offices and institutions to correct
identified problems.

       We analyzed the 40 BOP reviews and found that 25 different medical
services were not provided to inmates and 14 of the 25 deficiencies were
noted at multiple institutions. For example, as shown in the table on page
32 of this report, the Program Review Division found inmates with chronic
care conditions who were not monitored as required at 16 institutions. Also,
the reviews found inmates who were not monitored for psychotropic medical
side effects at 11 institutions. We believe the BOP should use the program
summary reports prepared by the Program Review Division to develop or
clarify agency-wide guidance on systemic weaknesses and issue the
guidance to all BOP institutions.

Privileges, Practice Agreements, and Protocols

      In the provision of inmate health care, BOP institutions use the
following health care providers.

      •   Licensed independent practitioners are medical providers
          authorized by a current and valid state license to independently
          practice medicine, dentistry, optometry, or podiatry.

      •   Non-independent practitioners are graduate physician assistants
          (certified or non-certified), dental assistants, dental hygienists,
          nurse practitioners, and unlicensed medical graduates.

      •   Other practitioners are those not included in the above categories
          and include clinical nurses and emergency medical technicians.

      To improve the quality of medical care that these medical providers
provide to inmates, the BOP: (1) grants clinical privileges to licensed
independent practitioners based on the practitioner’s qualifications,
knowledge, skills, and experience; (2) establishes practice agreements
between its licensed independent practitioners and its non-independent
practitioners, such as mid-level practitioners; (3) establishes protocols that
must be followed by other health care providers; and (4) performs periodic
peer reviews of all providers who function under clinical privileges or practice
agreements.


                                     xv
       The BOP grants clinical privileges to its in-house and contracted
practitioners. Clinical privileges are the specific duties that a health care
provider is allowed to provide to BOP inmates. BOP policy states that clinical
privileges can be granted for a period of not more than 2 years, and that
newly employed physicians can be granted privileges for a period of not
more than 1 year. Practitioners are prohibited from practicing medicine
within the BOP until they have been granted privileges to do so by an
authorized BOP official.

      The individual institutions establish practice agreements between their
licensed independent practitioners and their non-independent practitioners.
Practice agreements delegate specific clinical or dental duties to
non-independent practitioners under a licensed independent practitioner’s
supervision and are valid for no more than 2 years. Non-independent
practitioners are prohibited from providing health care within the BOP until a
practice agreement has been established.

      The BOP’s other health care providers, such as clinical nurses and
emergency medical technicians, must work under protocols approved by
licensed independent practitioners. A protocol is a plan for carrying out
medical-related functions such as a patient’s treatment regimen.

      To determine whether the BOP maintained current privileges, practice
agreements, and protocols for each of its practitioners, we included relevant
questions in our survey questionnaire sent to 88 BOP institutions. Based on
the responses to our questionnaires, we identified 134 practitioners out of
1,536 (9 percent) who were allowed to provide medical services to BOP
inmates without current BOP privileges, practice agreements, or protocols.

                     BOP Medical Practitioners without Current
                    Privileges, Practice Agreements, or Protocols

                                  Practitioners       Practitioners         Percent
              Type of              Requiring            without             without
           Authorizing            Authorizing         Authorizing         Authorizing
             Document              Document            Document            Document
       Privileges                      680                 72                11%
       Practice Agreement              466                 42                 9%
       Protocol                        390                 20                 5%
        Totals                       1,536                134                 9%
     Source: Responses by BOP institution officials to OIG survey questionnaire


      Based on this data, it is apparent that BOP officials do not fully
understand the type of authorization different health care providers should
receive, or ensure that the health care providers have them.



                                            xvi
       Allowing practitioners to provide medical care to inmates without
current privileges, practice agreements, or protocols increases the risk that
the practitioners may provide medical services without having the
qualifications, knowledge, skills, and experience necessary to correctly
perform the services. In addition, the BOP could be subjected to liability
claims by inmates if improper medical services are provided by these
practitioners.

Peer Reviews

      BOP policy requires that BOP health care providers have a periodic
peer review. A peer is defined as another provider in the same discipline
(physician, dentist, mid-level practitioner, or others) who has firsthand
knowledge of the provider’s clinical performance. The peer review should
evaluate the professional care the provider has given using a sample of the
provider’s primary patient load and comment on specific aspects of the
provider’s knowledge and skills, such as actual clinical performance,
judgment, and technical skills. BOP health care providers who are privileged
or working under a practice agreement must have at least one peer review
every 2 years. Each Clinical Director, Chief Dental Officer, and Clinical
Psychiatrist must also have a peer review at least once every 2 years.

      In our survey questionnaire sent to 88 BOP institutions, we requested
the last peer review date for all providers with privileges or practice
agreements. For the 891 such providers, the responses to the questionnaire
indicated that 430 (48 percent) had not received a current peer review. We
asked BOP officials about the lack of peer reviews. The officials responsible
for more than half of the non-current peer reviews did not provide an
explanation. The officials responsible for the remaining non-current peer
reviews cited the following reasons.

      •   The officials rely on contractors to do peer reviews.

      •   The officials believed that the peer review requirement did not
          apply to mid-level practitioners, dental assistants, or dental
          hygienists.

      •   The officials relied on performance reviews instead of doing the
          required peer reviews.

      Without a current peer review, the BOP has a higher risk of providers
giving inadequate professional care to inmates, thus subjecting the BOP to
formal complaints and lawsuits. Also, if inadequate professional care goes



                                     xvii
undetected, the providers may not receive the training or supervision
needed to improve the delivery of medical care.

Performance Measures

      The BOP has also established national performance measures for
health care to include annual targets or goals for management of:
(1) hypertension, (2) cholesterol, (3) diabetes, (4) HIV, (5) tuberculosis,
(6) asthma, (7) breast cancer, (8) cervical cancer, and (9) pregnancy. The
BOP institutions voluntarily report results for these performance measures to
the BOP Health Services Division on a quarterly basis.

     In our survey questionnaire, we asked institution officials if they had
completed the performance measure calculations for the nine performance
measures for calendar year 2004 through the first quarter of calendar year
2007. The following table details the 99 responses from officials at the 88
BOP locations.7

               Performance Measure                         BOP Response
              Calculations Completed                            Not        No
                 for Calendar Year            Yes     No     Applicable Response
                       2004                   59      28        10          2
                       2005                   77      14         4          4
                       2006                   87      11         0          1
                       2007 (1st Quarter)     90       7         1          1
           Source: BOP responses to OIG survey questionnaires


       Based on the responses, the number of institutions not completing the
performance measure calculations decreased each year since 2004.
However, when asked why the calculations were not always completed, BOP
officials usually could not provide an explanation and said that the person
who was responsible for completing the calculations was no longer at the
institution. The officials who did provide an explanation usually attributed
not completing the performance measure calculations to staffing shortages.

      We also analyzed the performance measure reports from the BOP and
found that the institutions often did not meet the target levels established
for the nine target goals. For the nine health care performance measures
we tested, we found that the institutions reported performance below the
target level for more than 20 percent of the quarters reported for seven of

       7
          The total responses (99) to our survey questions was more than the 88 BOP
locations surveyed because 6 of the locations surveyed submitted separate responses for
the 17 BOP institutions at the locations. Performance measures were not applicable for
some institutions primarily because the institutions are new and were not active for the
years tested.


                                             xviii
the nine performance measures. For example, for the clinical management
of lipid level measure, 79 institutions reported results for 723 quarters
between January 1, 2004 and March 31, 2007. The results reported were
below the target level for 437 (60 percent) of the quarters reported. In
another example related to the clinical management of diabetes, the 79
institutions reported below target level performance for 285 (39 percent) of
the 729 quarters reported.

      We discussed with BOP Health Services Division officials their review of
and response to the performance reports. The officials told us that they
review the reports, perform a trend analysis, and summarize the results in
the Office of Quality Management’s Annual Report. However, the officials
also told us that institution participation in reporting the performance
measures is voluntary and they do not develop agency-wide corrective
actions when the performance is below target levels. We believe it is
essential that the BOP take corrective actions when performance is below
targets to help ensure that inmates are provided adequate medical care.

       In addition, we found that instructions are needed to help ensure
performance data are consistently accumulated and reported. The BOP did
not provide institutions with instructions on accumulating and reporting such
data. According to a BOP Health Services Division official, the institutions
are inconsistent in how they accumulate and report performance data. If
this is the case, the summary data compiled by the BOP may not be
meaningful. This BOP Health Services Division official also told us that
because of the inconsistencies in data reported, the BOP is developing a
training program to educate institution staff on how to properly accumulate
and report performance data. According to the Chief of the BOP’s Quality
Management Section, a meeting was held in December 2007 with the
institution Health Services Administrators to discuss the collecting of national
performance measure data. Another meeting is planned for January 2008 to
discuss with Regional Medical Directors any adjustments needed to the
performance measurement system.

Conclusion and Recommendations

       In general, we found that in comparison to other national health care
cost indices, the BOP was successful at containing the growth of inmate
health care costs. However, our audit concluded that the BOP could make
improvements to help ensure that: (1) inmates are provided recommended
preventative medical care, (2) contract administration deficiencies are
addressed BOP-wide, and (3) monitoring of medical service providers is
strengthened. If the deficiencies we noted in these areas are not corrected,
we believe the BOP could experience:


                                     xix
      •   higher costs for providing health care,

      •   decreases in the quality of health care,

      •   a higher number of medical-related complaints from inmates, and

      •   greater liability for lack of adequate medical care.

       To assist the BOP in improving medical care for inmates, we made 11
recommendations to the BOP. These recommendations include:
(1) establishing procedures for collecting and evaluating data for current and
future health care initiatives to assess whether individual initiatives are cost-
effective and producing the desired results; (2) reviewing the medical
services that the OIG and the BOP’s Program Review Division identified as
not always provided to inmates and determining whether the medical
services are necessary or whether the medical service requirement should
be removed from the program statements or clinical practice guidelines, as
appropriate; (3) providing additional guidance to the institutions to ensure
that medical services deemed necessary are provided to the inmates,
(4) providing additional guidance and procedures to all BOP institutions for
performing certain contract administration functions; (5) developing and
issuing agency-wide guidance to correct systemic deficiencies found during
internal program reviews; and (6) ensuring that privileges, practice
agreements, or protocols are established for all practitioners, as applicable.




                                      xx
                                  TABLE OF CONTENTS


                                                                                             Page

INTRODUCTION ............................................................................. 1
  Health Care Responsibilities............................................................ 2
  Health Care Costs ......................................................................... 3
  Controlling Health Care Costs ......................................................... 4
  The Provision of Health Care Services .............................................. 4
  Necessary Medical Care ................................................................. 5
  BOP Policy Guidance...................................................................... 8
  Prior Audits, Inspections, and Reviews ............................................. 9
  OIG Audit Objectives and Approach ............................................... 14

FINDINGS AND RECOMMENDATIONS............................................                          15

   1. HEALTH CARE DELIVERY AND COST IMPACT........................ 15
   Improving the Delivery of Health Care to Inmates ........................... 15
   Cost Impact of the BOP’s Health Care Initiatives.............................. 21
   Providing Medical Services to Inmates............................................ 24
   Conclusion ................................................................................... 34
   Recommendations......................................................................... 35

   2. BOP CONTRACT ADMINISTRATION ...................................... 37
   Conclusion ................................................................................... 42
   Recommendation .......................................................................... 42

   3. MONITORING BOP HEALTH CARE PROVIDERS .....................                                  45
   The BOP’s Program Review Results................................................               46
   The BOP’s Credential Verification, Privileges, and Practice
      Agreement Program ................................................................          47
   The BOP’s Health Care Performance Measures.................................                    51
   Conclusion .................................................................................   54
   Recommendations.......................................................................         55

STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS ....                                            57

STATEMENT ON INTERNAL CONTROLS..........................................                          59

ACRONYMS AND ABBREVIATIONS ................................................                       62
APPENDIX I – Audit Objectives, Scope, and Methodology .............                              63

APPENDIX II – BOP Initiatives since FY 2000 to Improve the
  Effectiveness and Efficiency of Inmate Health Care ..................                          67

APPENDIX III – Medical Services Selected for Testing from the
  BOP’s Preventive Health Care Clinical Practice Guideline ..........                            73

APPENDIX IV – Sample Methodology ...........................................                     77

APPENDIX V – BOP Institutions and Inmates Housed as of
  November 29, 2007..................................................................            79

APPENDIX VI – Summary of BOP Program Statements Related
  to the Provision of Medical, Dental, and Mental Health
  Services ...................................................................................   85

APPENDIX VII – Results of the OIG’s Testing of the Provision
  of Medical Care at BOP Institutions ..........................................                 89

APPENDIX VIII – The BOP’s Health Care Performance Measures ..                                    99

APPENDIX IX – Types of BOP Institutions ................................... 101

APPENDIX X – Department of Justice, Office of the Inspector
  General Audits of BOP Medical Contracts from August 2004
  through March 2007................................................................ 103

APPENDIX XI – The BOP’s Response to the Draft Audit Report .... 111

APPENDIX XII – Office of the Inspector General, Audit Division,
  Analysis and Summary of Actions Necessary to Close the
  Report..................................................................................... 117
                                                 INTRODUCTION


       The Federal Bureau of Prisons (BOP) is responsible for confining
federal offenders in prisons and community-based facilities. As of November
29, 2007, the BOP housed 166,794 inmates in 114 BOP institutions at 93
locations. In addition, the BOP housed 33,354 inmates in privately
managed, contracted, or other facilities.8

        The BOP institutions include Federal Correctional Institutions (FCI),
United States Penitentiaries (USP), Federal Prison Camps (FPC), Metropolitan
Detention Centers (MDC), Federal Medical Centers (FMC), Metropolitan
Correctional Centers (MCC), Federal Detention Centers (FDC), the United
States Medical Center for Federal Prisoners (MCFP), and the Federal Transfer
Center (FTC). When multiple institutions are co-located, the group of
institutions is referred to as a Federal Correctional Complex (FCC). Some
institutions are located within federal correctional complexes that contain
two or more institutions. Appendix IX describes the various types of BOP
facilities. Appendix V contains a list of the BOP institutions. The map below
depicts the location of BOP facilities.

                                                 BOP Facilities

                     WA
                                                                                                                                    ME
                                      MT           ND

                OR                                                MN                                                      V
                                                                                                                          T   N
                                                                                                                              H

                           ID                      SD                                                                NY                  MA
                                                                                 WI
                                                                                            MI
                                       WY                                                                                                RI
                                                                                                                                    CT

                                                                       IA                                       PA
                                                                                                                               NJ
          CA          NV                            NE
                                                                                                 OH
                                                                                                                              DE
                                                                                  IL   IN
                                 UT
                                                                                                                                   MD
                                            CO                                                        WV
                                                        KS              MO                                      VA
                                                                                                 KY


                                                                                                            NC
                                                                                       TN
                                AZ                           OK
                                           NM                               AR                             SC


                                                                                  MS   AL
                                                                                                      GA

                                                        TX                  LA



           AK
                                                                                                           FL




                                                                                                                                         PR

                                 HI

    Source: OIG mapping of BOP facilities based on data provided by the BOP

      8
         This audit focused on the medical care provided to only those inmates housed in
Bureau of Prison (BOP) facilities.


                                                             1
Health Care Responsibilities

      As part of the BOP’s responsibility to house offenders in a safe and
humane manner, it seeks to deliver medically necessary health care to its
inmates in accordance with proven standards of care. This responsibility
stems from a 1970s court case Estelle v. Gamble, in which the U.S. Supreme
Court concluded that an inmate’s right to medical care is protected by the
U.S. Constitution’s Eighth Amendment guarantee against cruel and unusual
punishment.9 The Supreme Court concluded that “deliberate indifference” –
purposefully ignoring serious medical needs of prisoners – constitutes the
inappropriate and wrongful infliction of pain that the Eighth Amendment
forbids.10

       According to BOP Program Statement P6010.02 Health Services
Administration, the BOP’s responsibility for delivering health care to inmates
is divided among the following BOP headquarters, regional offices, and local
institution officials.

       •     Director of BOP: The Director has overall authority to provide for
             the care and treatment of persons within the BOP’s custody. The
             Director has delegated this authority to the Assistant Director,
             Health Services Division (HSD).

       •     Assistant Director, HSD: The Assistant Director, HSD, is
             responsible for directing and administering all activities related to
             the physical and psychiatric care of inmates. The Assistant Director
             has delegated this authority as it pertains to clinical direction and
             administration to the BOP Medical Director.

       •     Medical Director: The Medical Director is the final health care
             authority for all clinical issues and is responsible for all health care
             delivered by BOP health care practitioners.

       •     Regional Health Services Administrators: The Regional Health
             Services Administrators in the BOP’s six regional offices are
             responsible for responding to health care problems at all institutions
             within their region. The Administrators also advise the Regional

       9
            Estelle v. Gamble, 429 U.S. 97, 97 S. Ct. 285, 50 L. Ed. 2d 251 (1976).
       10
          “Your Right to Adequate Medical Care,” in A Jailhouse Lawyer’s Manual (New
York: Columbia University, School of Law, Chapter 18, page 494, which cited the following
reference: Estelle v. Gamble, 429 U.S. 97, 104, 97 S. Ct. 285, 291, 50 L. Ed. 2d 251, 260
(1976) (citing Gregg v. Georgia, 428 U.S. 153, 173, 97 S. Ct. 2909, 2925, 49 L. Ed. 2d 859,
874 (1976)).


                                              2
         Director and Deputy Regional Director in all matters related to
         health care delivery.

     •   Institution Officials: The responsibility for the delivery of health
         care to inmates at the institution level is divided among various
         officials, staff, contractors, and others. Each institution has a
         Health Services Unit (HSU) responsible for delivering health care to
         inmates. The organization of the HSUs varies among institutions
         depending upon security levels and missions, but each HSU
         ordinarily has a Clinical Director and a Health Services
         Administrator who report to the Warden or Associate Warden. The
         Clinical Director is responsible for oversight of all clinical care
         provided at the institution. The Health Services Administrator
         implements and directs all administrative aspects of the HSU at the
         institution. Both the Clinical Director and the Health Services
         Administrator have responsibilities related to the supervision and
         direction of health services providers at the institution.

Health Care Costs

      The BOP funds inmate health care through its Inmates Care and
Programs appropriation. The BOP does not budget a specific amount for
health care services. As inmates require medical care, the BOP provides
funding for these services and obligates funds for health care as expenses
occur. From fiscal year (FY) 2000 through FY 2007, the BOP obligated about
$4.7 billion to inmate health care. The following chart shows the BOP’s
annual health care obligations during this period.

                                  BOP Health Care Costs
                                  FYs 2000 through 2007



                $800M
                                                                         $736M
                                                              $654M $686M
                $600M                           $573M $624M
                                        $515M
                        $413M
                                $453M                                              Operations
                $400M
                                                                                   Salaries
                $200M


                  $0M
                                2001            2003          2005          2007
                        2000            2002           2004          2006
                                         Fiscal Year

               Source: BOP Budget Execution Branch




                                                       3
Controlling Health Care Costs

       To control the rising cost of health care, since the early 1990s the BOP
has implemented several initiatives aimed at providing more efficient and
effective inmate health care. These initiatives include: (1) sharing health
care resources with other federal agencies such as the Veterans
Administration, (2) establishing medical reference laboratories within the
BOP for routine laboratory analysis, and (3) obtaining medical equipment
through the Defense Supply Center at General Services Administration
pricing.

       On-going BOP initiatives include: (1) assigning most inmates to
institutions based on the care level required by the inmate, (2) installing an
electronic medical records system that connects institutions,
(3) implementing tele-health to provide health care services through video
conferencing, and (4) implementing a bill adjudication process to avoid
costly errors when validating invoices. We include a discussion of these
cost-cutting initiatives and the effect the initiatives have had on controlling
inmate health care costs in the Findings and Recommendations section of
this report.

The Provision of Health Care Services

      The BOP provides health care services to inmates primarily through
in-house medical providers employed by the BOP or assigned to the BOP
from the Public Health Service (PHS) and contracted medical providers who
supply either comprehensive or individual medical services.

In-house Medical Providers

      The HSUs at each of the BOP's 114 institutions provide routine,
ambulatory medical care. These units provide care for patients with
moderate and severe illnesses, including hypertension and diabetes, as well
as care for patients with serious medical conditions, such as Human
Immunodeficiency Virus (HIV) infection and Acquired Immunodeficiency
Syndrome (AIDS). HSU outpatient clinics provide diagnostic and other
medical support services for inmates needing urgent and ambulatory care.
The HSUs are equipped with examination and treatment rooms, radiology
and laboratory areas, dental clinics, pharmacies, administrative offices, and
waiting areas. The HSUs are staffed by a combination of BOP health care
employees and PHS personnel consisting of physicians, dentists, physician
assistants, mid-level practitioners, nurse practitioners, nurses, pharmacists,
psychiatrists, laboratory technicians, x-ray technicians, and administrative



                                      4
personnel. At each institution, the Clinical Director directs the clinical care of
inmates and supervises the BOP and PHS health care staff.

      As part of its internal health care network, the BOP operates several
medical referral centers (MRC) that provide advanced care for inmates with
chronic or acute medical conditions. The MRCs provide hospital and other
specialized services to inmates, including full diagnostic and therapeutic
services and inpatient specialty consultative services. Inpatient services are
available only at MRCs. BOP medical personnel refer inmates to the MRCs or
an outside community care provider when the inmates have health problems
beyond the capability of the HSU.

Contracted Medical Providers

      When the BOP's internal resources cannot fully meet inmates' health
care needs, the BOP awards comprehensive and individual contracts to
supplement its in-house medical services. Comprehensive contracts provide
a wide range of services and providers, while individual contracts usually
provide specific specialty services.

      The comprehensive contracts and individual contracts exceeding
$100,000 are awarded by the BOP’s Field Acquisition Office in Grand Prairie,
Texas. The individual contracts not exceeding $100,000 are awarded by
each institution’s contracting personnel.

       According to data provided to the OIG by officials at the 114 BOP
institutions, as of May 2007 these institutions had 108 comprehensive
services contracts or blanket purchase agreements and 343 individual
services contracts. From the beginning of the contracts through May 2007,
BOP officials reported total expenditures of more than $249 million related to
these 451 contracts and agreements.11

Necessary Medical Care

      According to BOP Program Statement P6010.02 Health Services
Administration, the BOP is responsible for delivering health care to inmates
in accordance with proven standards of care without compromising public
safety concerns. The BOP’s Patient Care policy delineates the following five
categories of health care services provided to inmates. In this audit, we
could not associate how much of the BOP’s medical obligations related to


      11
          The length of the BOP’s medical contracts varied, but most of the contracts
included a base year and 4 option years. Accordingly, the expenditures related to the 451
active contracts and agreements covered the time each contract began through May 2007.


                                          5
each of these categories because the BOP does not segregate medical cost
data by these categories.

     •   Medically Necessary – Acute or Emergent. Services in this
         category cover medical conditions that are of an immediate, acute,
         or emergent nature, which without care may be life threatening or
         would cause rapid deterioration of the inmate’s health or significant
         irreversible loss of function. Conditions in this category warrant
         immediate treatment that is essential to sustain life or function.
         Examples of conditions considered acute or emergent include, but
         are not limited to:

            o myocardial infarction;
            o severe trauma such as head injuries;
            o hemorrhage;
            o stroke;
            o precipitous labor or complications associated with pregnancy;
              and
            o detached retina, sudden loss of vision.

     •   Medically Necessary – Non-emergent. Services in this category
         cover medical conditions that are not immediately life-threatening,
         but without care the inmate has a significant risk of:

            o serious deterioration leading to premature death;
            o significant reduction in the possibility of repair later without
              present treatment; or
            o significant pain or discomfort, which impairs the inmate’s
              participation in activities of daily living.

         Examples of conditions considered medically necessary –
         non-emergent include but are not limited to:

            o chronic conditions (diabetes, heart disease, bipolar disorder,
              schizophrenia);
            o infectious disorders in which treatment allows for a return to
              previous state of health or improved quality of life (HIV,
              tuberculosis); and
            o cancer.

     •   Medically Acceptable – Not Always Necessary. Services in this
         category cover medical conditions that are considered elective
         procedures that may improve the inmate’s quality of life. Examples
         in this category include, but are not limited to:


                                     6
               o joint replacement;
               o reconstruction of the anterior cruciate ligament of the knee;
                 and
               o treatment of non-cancerous skin conditions, such as skin tags
                 and lipomas.

            These therapeutic interventions always require review by the
            institution’s Utilization Review Committee to determine whether the
            proposed treatment should be approved.12 The factors that should
            be considered in approving the proposed treatment include, but are
            not limited to:

               o   the risks and benefits of the treatment,
               o   available resources,
               o   natural history of the condition, and
               o   the effect of the intervention on inmate functioning in
                   activities of daily living.

       •    Limited Medical Value. Services in this category cover medical
            conditions for which treatment provides little or no medical value,
            are not likely to provide substantial long-term gain, or are expressly
            for the inmate’s convenience. Procedures in this category are
            usually excluded from the scope of services provided to BOP
            inmates. Examples in this category include, but are not limited to:

               o minor conditions that are self-limiting,
               o cosmetic procedures, or
               o removal of non-cancerous skin lesions.

            Any treatment in this category that a health care provider
            recommends and the Clinical Director feels is appropriate requires
            review by the institution’s Utilization Review Committee.

       •    Extraordinary. Services in this category cover medical
            interventions that are deemed extraordinary because they affect
            the life of another individual, such as organ transplantation, or are
            considered investigational in nature.



       12
           Every BOP institution is required to have a Utilization Review Committee, chaired
by the institution’s Clinical Director, that reviews various aspects of inmate health care,
such as the need for outside medical, surgical, and dental procedures; requests for
specialist evaluations and treatments with limited medical value; and considerations for
extraordinary care.


                                            7
          Any treatment provided in this category requires the BOP Medical
          Director’s review and approval with notification to the Regional
          Director.

BOP Policy Guidance

      The BOP provides policy and guidance to BOP institutions primarily in
the form of program statements. As of October 2007, the BOP had
20 program statements related to the management and administration of
health care. Appendix VI contains a summary of these program statements.
In addition to the program statements, the BOP has established the
following 16 clinical practice guidelines describing specific medical, dental,
and mental health services that BOP management expects to be provided to
inmates.

      •   Preventive Health Care
      •   Management of Asthma
      •   Management of Coronary Artery Disease
      •   Management of Major Depressive Disorder
      •   Detoxification of Chemically Dependent Inmate
      •   Diabetes
      •   Gastroesophageal Reflux Disease Dyspepsia and Peptic Ulcer
          Disease
      •   Management of Headaches
      •   Viral Hepatitis
      •   Management of Human Immunodeficiency Virus (HIV)
      •   Hypertension
      •   Management of Lipid Disorders
      •   HIV, Hepatitis-B, Hepatitis-C, Human Bites and Sexual Assaults
      •   Management of Methicillin-Resistant Staphylococcus Aureus (MRSA)
          Infections
      •   Management of Tuberculosis (TB)
      •   Management of Varicella Zoster Virus Infections

      The Preventive Health Care guideline contains procedures that BOP
management officials expect to be provided to all inmates. The other
15 guidelines address a particular health condition and contain procedures
specific to servicing that condition. The Preventive Health Care guideline,


                                     8
which was updated in April 2007, contains the preventive health and
diagnostic procedures found in 9 of the other 15 guidelines, but it does not
contain the specific procedures related to treatment of the health conditions
covered by the other guidelines. The Preventive Health Care guidelines also
do not contain the preventive health procedures from four guidelines that
are not considered chronic care (MRSA Infections, Headaches, Varicella
Zoster Virus Infections, and Detoxification of Chemically Dependent
Inmates); and two guidelines that are considered chronic care (Asthma and
Gastroesophageal Reflux Disease Dyspepsia and Peptic Ulcer Disease).

      For this audit, we focused on the procedures in the BOP’s Preventive
Health Care guideline because:

      •   It addressed care for all inmates and not just inmates with specific
          illnesses;

      •   It contained medical services that BOP management officials
          expected to be performed at all institutions; and

      •   According to the BOP, health promotion and disease prevention is a
          primary objective of the BOP in its efforts to contain costs.

Prior Audits, Inspections, and Reviews

      Several previous audits, inspections, and reviews by the Department
of Justice (DOJ) Office of the Inspector General (OIG) and the Government
Accountability Office (GAO) have reported on the provision of health care by
the BOP. These audits, inspections, and reviews are briefly summarized
below.

Office of the Inspector General Reports

Individual Audits of BOP Contracts for Medical Services

        From August 2004 through March 2007, the OIG issued nine audit
reports on BOP contracts for medical services. The OIG identified major
internal control deficiencies for eight of the nine medical services contract
audits. The deficiencies included weaknesses in procedures or processes for
calculating discounts, reviewing and verifying invoices and billings, paying
bills, and managing the overall administration of the contracts. Finding 2
and Appendix X of this report contain more details about the results of these
audits.




                                      9
Audit of BOP Pharmacy Services

      In a November 2005 report on pharmacy services within the BOP, the
OIG reported on the BOP’s efforts to: (1) reduce increasing costs of its
prescription medications; (2) ensure adequate controls and safeguards over
prescription medications; and (3) ensure its pharmacies complied with
applicable laws, regulations, policies, and procedures.13 The OIG found
numerous deficiencies, including the:

       •    BOP’s cost-benefit analysis of its prescription medication program
            contained errors and incorrect assumptions that could result in
            increased prescription medication costs rather than savings;

       •    BOP needed to improve efforts to reduce prescription medication
            costs associated with waste;

       •    BOP was not adequately accounting for and safeguarding
            prescription medications;

       •    BOP lacked adequate internal controls for purchasing prescription
            medications, including ordering, receiving, and paying; and

       •    BOP pharmacies did not always comply with applicable policies and
            procedures for dispensing and administering prescription
            medications.

      The OIG made 13 recommendations for improving the administration
of the BOP’s pharmacy services. The recommendations sought to ensure
that:

       •    a cost-benefit analysis is conducted for all cost savings initiatives,

       •    institutions accurately account for and safeguard prescription
            medications,

       •    institutions implement controls over ordering and receiving
            prescription medications, and

       •    institutions comply with applicable laws and BOP policies.


       13
          Department of Justice, Office of the Inspector General, The Federal Bureau of
Prisons Pharmacy Services, Audit Report Number 06-03 (November 2005).



                                          10
      The BOP agreed with the audit recommendations. The BOP
implemented corrective action for each recommendation and the OIG closed
the audit report based on the BOP’s corrective actions.

Inspection of Inmate Health Care Costs in the BOP

     In November 1996, the OIG reported on factors contributing to
inmates' health care costs and the BOP's initiatives to contain these costs.14
The OIG also reported on the BOP's corrective actions in response to the
Department of Justice's FY 1992 Management Control Report.15 The OIG
found the following.

       •    The BOP had implemented numerous inmate health care cost
            containment initiatives to combat rising costs and to meet the
            health care demands of a growing inmate population.

       •    The BOP's initiatives kept per capita costs from rising significantly.

       •    The BOP’s costs for community provider services, medical guard
            escort services, and salaries continued to increase in spite of
            containment efforts; and the BOP needed to take additional actions
            to control some costs.

The OIG recommended that the BOP:

       •    ensure that appropriate institutions are utilizing contract guard
            services,

       •    instruct the wardens to review their mid-level practitioner and
            nurse staffing and restructure where appropriate, and

       •    pursue the proposal of charging inmates a co-payment fee for
            medical services.


       14
          Department of Justice, Office of the Inspector General, Inmate Health Care Costs
in the Bureau of Prisons, Inspections Report Number I-97-01 (November 1996).
       15
           The Federal Managers Financial Integrity Act of 1982 (Act) required the head of
each executive agency to prepare a statement indicating that the agency’s systems of
internal accounting and administrative control either fully or do not fully comply with the
requirements of the Act. If the control systems do not fully comply with the Act, the agency
head is required to include a report, called a Management Control Report, identifying any
material weaknesses in the agency's systems of internal accounting and administrative
control and the plans and schedule for correcting the weakness.



                                          11
      The BOP generally agreed with the recommendations. The BOP also
took corrective action on each recommendation and the OIG closed the
inspection report based on the BOP’s corrective actions.

Government Accountability Office Reports

GAO Testimony Regarding BOP Medical Cost Containment

       In April 2000, GAO staff testified to Congress that the BOP had
initiated cost containment efforts such as restructuring medical staffing,
obtaining discounts through bulk purchases, leveraging resources through
cooperative efforts with other governmental entities, and privatizing medical
services. The BOP also had placed tele-medicine in eight facilities and
planned to equip all the BOP facilities during FY 2000.16

       The GAO staff also testified that planned cost-saving measures
required legislative action. These measures consisted of a $2 fee for each
health care visit requested by a prisoner (as a deterrent to unnecessary
visits), and a Medicare-based cap on payments to community hospitals that
treat inmates.17 The GAO recommended that the BOP negotiate more cost-
effective contracts with community hospitals that could require bidders to
propose a “Medicare federal rate” adjusted by markups or discounts, which
was expected to simplify the comparison of prices under consideration.18

Report on Inmates Access to Health Care

      In a February 1994 report, the GAO reported on the adequacy of the
BOP’s medical services and the effectiveness of its medical service’s quality
assurance program.19 The GAO reviewed care for inmates with special
medical needs, the BOP’s quality assurance systems, qualification of BOP
physicians and of other health care providers used by the BOP, and the


       16
          Tele-medicine is a method of providing health care from a remote location using
technology such as video conferencing modified to include peripheral devices that produce
images of diagnostic quality.
       17
         The BOP implemented the $2 fee for inmate health care visits as discussed in
more detail on page 20 of this report.
       18
          The “Medicare federal rate” is a common or standard benchmark rate for specific
medical services identified in Medicare diagnosis-related groups.
       19
          U.S. General Accounting Office, BUREAU OF PRISONS HEALTH CARE, Inmates’
Access to Health Care Is Limited by Lack of Clinical Staff, GAO/HEHS-94-36 (February
1994), 1.


                                          12
BOP’s consideration of cost effective alternatives to meet rising needs for
medical services. The GAO found the following.

      •   Inmates with special needs, including women, psychiatric patients,
          and patients with chronic illnesses, were not receiving all of the
          health care services they needed because of staffing shortages.

      •   Quality assurance programs identified actual and potential quality-
          of-care problems, but did not always include corrective action.

      •   Physician assistants in the BOP lacked generally required education
          and certification and were not adequately supervised.

      •   The BOP was planning a major hospital acquisition program without
          fully assessing whether inmates’ medical needs justified the
          acquisition and without planning how to recruit and retain the
          clinical staff necessary to operate these facilities.

      The GAO recommended that the BOP:

      •   prepare a needs assessment of the medical services required by
          inmates and determine the medical services it can efficiently and
          effectively provide in-house;

      •   determine the most cost-effective approaches to providing
          appropriate health care to current and future inmate populations;

      •   revise the BOP’s hiring standards for physician assistants to
          conform to current community standards of training and
          certification; and

      •   re-emphasize to the wardens of medical referral centers the
          importance of taking corrective action on identified quality
          assurance problems.

      While the BOP did not agree with the GAO’s conclusion regarding the
medical care it is able to provide to inmates in the facilities GAO visited, the
BOP agreed with the GAO’s specific findings. The BOP agreed to take
corrective action on first two recommendations. However, the BOP believed
that the intent of the GAO’s remaining two recommendations was being
dealt with through existing systems and plans. The GAO did not fully agree
with the BOP’s position on the last two objectives and indicated in the report
that the BOP still needed to take additional actions on these issues.



                                     13
OIG Audit Objectives and Approach

      The OIG initiated this audit to determine whether the BOP:
(1) appropriately contained health care costs in the provision of necessary
medical, dental, and mental health care services; (2) effectively
administered its medical services contracts; and (3) effectively monitored its
medical services providers.

      We performed audit work at BOP headquarters and at the following
BOP institutions: the USP Atlanta (Georgia), USP Lee (Virginia), FMC
Carswell (Texas), FCC Terra Haute (Indiana), and FCC Victorville (California).
In addition, we surveyed the 88 BOP locations where we did not perform on-
site work. The details of our testing methodologies are presented in the
audit objectives, scope, and methodology contained in Appendix I.

       This audit report contains 3 finding sections. The first finding
discusses the BOP’s efforts to contain the growth of health care costs and to
deliver necessary health care to inmates. The second finding discusses the
BOP’s administration of medical services contracts. The third finding
discusses the BOP’s efforts to monitor its medical services providers, both
in-house and contract staff.




                                    14
                   FINDINGS AND RECOMMENDATIONS

      1. HEALTH CARE DELIVERY AND COST IMPACT

      The BOP has implemented multiple cost containment strategies
      over the past several years to provide health care to inmates in
      a more effective and efficient manner. However, the BOP
      generally did not maintain analytical data to assess the impact
      that the individual initiatives had on health care costs. Yet, our
      audit found that the BOP has kept the growth of inmate health
      care costs at a reasonable level compared to national health care
      cost data reported by the Departments of Health and Human
      Services and Labor. With respect to inmate health care, we
      found that BOP institutions did not always provide recommended
      preventive medical services to inmates. We also found that BOP
      institutions did not consistently provide medical services
      recommended by BOP guidelines to inmates.

Improving the Delivery of Health Care to Inmates

        Since FY 2000, the BOP has implemented or developed at least
20 initiatives designed to improve the administration, management, and
delivery of health care to inmates, and to reduce or contain rising health
care costs. As of December 2007, the BOP had fully implemented 11
initiatives, while the remaining 9 were in progress. The following sections
summarize 10 of the BOP’s initiatives and discuss their cost impact.
Appendix II contains a complete list of the initiatives identified by the BOP
and a brief description of each initiative.

Medical Designations Program

      BOP officials assign each inmate a medical classification or care level
based on the inmate’s individual health condition. Care levels range from
Care Level 1 for the healthiest inmates to Care Level 4 for inmates with the
most serious medical conditions.

      •   Care Level 1 inmates are less than 70 years old and are generally
          healthy but may have limited medical needs that can be easily
          managed by clinician evaluations every 6 months. Sub-specialty
          care is limited in that it is not regularly required and is completed in
          less than 3 months. This care level includes inmates with stable
          mental-health conditions requiring chronic care appointments and
          individual psychology or health services contacts no more than once
          every 6 months. The acute services required, such as crisis


                                      15
         intervention, are less than 3 months duration, occur no more than
         every 2 years, and can be resolved without hospitalization.

     •   Care Level 2 inmates are stable outpatients with chronic illnesses
         requiring at least quarterly clinician evaluations. These inmates
         independently perform daily living activities. The care level includes
         inmates with mental health conditions that can be managed
         through chronic care clinics or individual psychology or health
         services contacts no more frequently than monthly to quarterly.
         The acute services required, such as crisis intervention, are less
         than 3 months duration, occur no more than every 2 years, and can
         be resolved without hospitalization.

     •   Care Level 3 inmates are fragile outpatients with medical
         conditions that require daily to monthly clinical contact. These
         inmates may have chronic or recurrent mental illnesses or ongoing
         cognitive impairments that require daily to monthly psychiatric
         health services or psychology contacts to maintain outpatient
         status. These inmates may also require assistance in performing
         some activities of daily living, but do not require daily nursing care.
         Inmates in this care level may periodically require hospitalization to
         stabilize the inmate’s medical or mental health condition.

     •   Care Level 4 inmates have acute medical or chronic mental health
         conditions resulting in severe impairments to physical and cognitive
         functioning. These inmates require services at Medical Referral
         Centers (MRC), such as the BOP’s Federal Medical Centers (FMC),
         and may require varying degrees of nursing care.

        In addition to assigning each inmate a care level based on overall
health, effective in 2004 the BOP also assigned a medical designation to
each institution. The medical designation corresponds with the medical
classification of the inmates that the institution is staffed and equipped to
handle. Appendix V shows the care level designation for each BOP
institution. Designating institution care levels has three advantages for the
BOP. First, it allows the BOP to establish guidelines for the number and mix
of medical staff to assign to each facility consistent with the care level
population at each facility. Second, it allows the BOP to evaluate every
inmate for appropriateness of placement and to initiate movement of
inappropriately housed inmates through routine transfers rather than waiting
until the inmate experiences a crisis requiring direct air or ground
transportation at a higher cost. Third, it allows the BOP to consolidate
inmates with similar medical conditions at facilities where appropriate
services and providers are available.


                                     16
       To coordinate its placement of inmates in institutions commensurate
with their care levels, the BOP developed the following phased
implementation plan.

      •   Phase I – classify individual inmates as Care Level 1, 2, 3, or 4.

      •   Phase II – designate institutions as Care Level 1, 2, 3, or 4, and
          establish beds and staffing at each institution.

      •   Phase III – realign health care staff as needed.

      •   Phase IV – final implementation to include movement of inmates to
          the appropriate care level institutions.

       As of October 1, 2007, the BOP was in Phase IV of the implementation
plan. According to a BOP management official, all Care Level 3 inmates who
could be moved from Care Level 1 facilities had been moved. Some inmates
could not be moved for custody reasons, such as an inmate that must be
housed in a maximum security facility. According to this BOP official, such
exceptions were rare. As of June 2007, the BOP was in the process of
identifying and prioritizing the movement of Care Level 3 inmates out of
Care Level 2 facilities. According to the BOP official, approximately 1,200
Care Level 3 inmates remained to be moved. The BOP plans to complete
Phase IV by December 2008.

Medical Staff Restructuring

        During FY 2005, the BOP established staffing guidelines for Care Level
1, 2, and 3 institutions. Since the existing staffing of the institutions did not
always match the care level staffing guidelines, the BOP had to move
medical staff throughout the BOP to implement the guidelines. Institutions
that had staff in positions contrary to the guidelines were required to either
move the staff to another facility that needed them or reassign the staff to
another authorized position in the facility. According to a BOP management
official, this process resulted in approximately 144 staff members in the
Health Services Units throughout the BOP being transferred to another
facility or reassigned to another position. This process also freed up a
number of positions that were returned to the BOP’s Health Services Division
and subsequently redistributed to institutions that were understaffed.




                                     17
Tele-medicine

       Tele-medicine involves the remote delivery of health care using
telecommunications technologies. For example, a psychiatrist may provide
psychiatric services via video conferencing equipment to inmates throughout
the BOP. From September 1996 to December 1997, the BOP participated in
a demonstration project to test the use of tele-medicine in three of its
institutions. Based on the success of the demonstration project, during
FY 2000, the BOP purchased videoconferencing equipment for every facility.
Since that time the BOP has purchased videoconferencing equipment for
each new institution. The BOP primarily uses tele-medicine to provide
psychiatry and radiology services. A BOP management official told us that in
the future the BOP plans to expand the use of tele-medicine to other
disciplines, including orthopedics, wound care, physical therapy, social
services, nutritional counseling, psychology, dentistry, cardiology,
dermatology, podiatry, obstetrics and gynecology, and oncology. As of
September 2007, the BOP had not developed a specific schedule for the
expansion. The BOP believes that tele-medicine can make medical services
more readily available while also containing and even reducing medical
costs.

Electronic Medical Records

        Through automation of inmate medical records, the BOP expects to
reduce the paper records being produced, decrease the number of lost
records, diminish the need to fax records from place to place, and improve
the review and analysis of medical data. In March 2006, the BOP began
actively using its Bureau Electronic Medical Record (BEMR) system. The
initial BEMR system included the capability to: (1) track comprehensive
medical history and physical examination information, (2) schedule inmate
medical visits when required, and (3) record medical-related supplies and
equipment issued to inmates. The BOP subsequently added a pharmacy
module to the system (BEMRx) to manage the medications provided to
inmates.

        As of October 30, 2007, the BOP had deployed the BEMR system to 63
institutions, of which 24 included the BEMRx pharmacy module. The BOP
plans to deploy the electronic medical records system to the rest of its
facilities by September 30, 2008. The BOP also plans that the completed




                                   18
BEMR electronic medical records system will include access to the tele-
radiology archive and the Laboratory Information System.20

Medical Claims Adjudication

       The BOP developed an initiative to target medical claims adjudication
to ensure that medical claims are properly paid and that the BOP complies
with the requirements of the Prompt Payment Act. Past OIG audits of BOP
medical contracts identified systemic contract-administration deficiencies
and erroneous contractor billings. In response to those findings, in
April 2004 the BOP began researching the use of third-party medical claims
processing services. In October 2004, the BOP received a presentation by
the Department of Veterans Affairs (VA) regarding the medical claims
processing services it provides to other government agencies. From
February 2005 to December 2005, the VA’s Financial Services Center
demonstrated the viability of the VA services in adjudicating (“testing”) the
accuracy of medical payment vouchers previously paid at nine BOP
institutions. The VA’s Financial Services Center determined that the BOP
had overpaid as much as $325,000 for the payments tested.

       After the VA test, the BOP developed a Statement of Work defining
requirements for medical claims adjudication services. In July 2006, the
BOP issued a Request for Information asking interested vendors to submit
information about the medical claims processing services they could provide
for the BOP. The vendor responses indicated that the services sought are
readily available and can be acquired through contracting actions. Beginning
in July 2006, the BOP refined its requirements and finalized the Statement of
Work in September 2007. The BOP expects to award a contract for medical
claims adjudication services early in calendar year 2008.

Medical Reference Laboratory

      Medical Reference Laboratories (MRL) perform laboratory tests of
patient specimens. A doctor or nurse usually collects the specimen and
sends it to the MRL for testing. The MRL then performs the requested tests
on the specimen and returns the test results to the requestor. In 2001, the
BOP established a mandatory MRL system at the following federal medical
centers:



       20
          The tele-radiology archive stores digital radiographic images and associated
interpretations without the risk of damage or loss applicable to film-based radiographs. The
Laboratory Information System stores laboratory test results which can be retrieved by BOP
personnel much quicker and easier than having the results mailed or faxed to them.


                                          19
     •   United States Medical Center for Federal Prisoners, Springfield,
         Illinois;

     •   Federal Medical Center, Rochester, Minnesota; and

     •   Federal Medical Center, Butner, North Carolina.

      This initiative was designed to contain or reduce health care costs by
having medical staff at non-medical center institutions collect and ship
specimens to one of the three MRLs where the laboratory tests could be
performed by BOP staff at a lower cost than through individual contracts for
laboratory services at each BOP institution.

Medical Equipment

       The BOP also implemented an initiative in 1997 requiring that a senior
official at BOP headquarters approve all purchases of medical equipment
with a single item value of more than $1,000. The BOP subsequently raised
the approval threshold to $5,000. To obtain approval, the requesting
institution must submit a Major Equipment Justification and include evidence
that the institution researched alternatives to find the best value for the
equipment being acquired. This helps ensure that BOP institutions are not
frivolous with equipment requests and spending. Under the initiative, the
BOP also consolidates like purchases submitted for approval, which permits
better pricing on bulk purchases through one of the Department of Defense’s
Defense Supply Centers. The Defense Supply Centers primarily purchase
items such as food, clothing and textiles, pharmaceuticals, medical supplies,
construction items, and other equipment to support the U.S. military. The
centers also use their purchasing power to obtain such items for other
federal agencies at a lower cost.

Inmate Co-payment

       In October 2005, the BOP began requiring inmates to pay a $2 co-
payment fee for certain types of medical evaluations. The BOP does not
charge indigent inmates a co-payment fee. The BOP also does not charge
inmates for certain medical services such as visits related to a chronic
medical condition, preventive health visits, or evaluations related to
pregnancy. The BOP designed the initiative to reduce the number of
unnecessary inmate-initiated medical visits. A BOP analysis of data for the
first 6 months of implementation showed a 33-percent reduction in the
number of inmate-initiated medical visits as compared to the 6-month period
prior to implementation.



                                    20
Medical Coverage

       Prior to January 2005, the BOP required 24-hour on-site medical
coverage at all institutions. In January 2005, the BOP discontinued the
requirement and instead required each institution to have a plan in place for
providing emergency and urgent care services when needed. According to
BOP Program Statement P6031.01 Patient Care, the plan should include a
team of first responders trained to use the automatic external defibrillator
and perform cardiopulmonary resuscitation. According to a BOP
management official, this change allowed institutions to reassign staff to the
day shift when inmates require the most medical care. This BOP official said
that the reduction in premium pay for the overnight periods resulted in
significantly reduced staffing costs.

Staffing Provider Teams

       The BOP traditionally provided health care to inmates based on a
“military” model using the concept of sick call and same day treatment.
Under this concept, inmates were evaluated by an available provider that
day. According to BOP officials, this led to inmates “practitioner shopping”
where they would go from provider to provider for treatment of the same
complaints. In 2005, the BOP began implementing the Patient Care Provider
Team concept where inmates are assigned to a primary provider team that
manages both the chronic and episodic care of the inmate. The BOP
designed this approach to improve the consistency of treatment and
eliminate the ability of the inmate to consume valuable staff resources by
practitioner shopping. According to a BOP management official,
implementation of this concept has reduced duplicate diagnostic tests,
consultations, and treatments, thereby reducing overall medical costs.

Cost Impact of the BOP’s Health Care Initiatives

      One of the primary purposes of the BOP’s health care initiatives was to
reduce or contain health care costs. However, the BOP could not provide us
with cost benefit analyses for its 20 health care initiatives. Therefore, we
were unable to assess the cost benefits of BOP initiatives on an individual
basis. We were, however, able to analyze the BOP’s overall inmate medical
costs during our review period.

Efforts to Measure Cost Benefits of BOP Health Care Initiatives

        For the 20 health care initiatives listed in Appendix II, we asked BOP
officials for any cost-benefit analyses to justify implementation of the
initiatives and any post-implementation analyses to determine their cost


                                     21
impact. Although the initiatives usually had a primary or secondary purpose
of reducing or containing health care costs, the BOP could not provide
documentation of any preliminary cost-benefit analyses or any post-
implementation analyses to identify costs reduced or contained.

      BOP management officials believed that preliminary cost-benefit
analyses had been performed for many of the initiatives, but the analyses
would have been done by BOP staff previously responsible for the initiatives
and the documentation of the analyses was no longer available. As for
post-implementation analyses, BOP management officials told us that the
BOP does not collect and maintain cost-related data that would allow it to
analyze the cost-effectiveness of its individual health care initiatives.

        While we are encouraged by the BOP’s efforts to develop new
initiatives to improve health care for inmates and to reduce and contain
health care costs, we believe the BOP should collect cost-related data for
each initiative and analyze the collected data to determine whether the
initiatives are providing the anticipated cost benefits. Without such
analyses, the BOP may expend funds on initiatives that are not cost-
effective.

Cost Impact of the BOP’s Health Care Initiatives

       Absent cost data for individual health care initiatives, we analyzed the
overall effect of the BOP’s initiatives on total medical costs. For calendar
years (CY) 2000 through 2006, we compared the BOP’s per capita health
care costs to the national average per capita cost for medical expenses as
reported by the Department of Health and Human Services' (HHS) National
Health Statistics Group and to the Consumer Price Index (CPI) for Medical
Care published by the Department of Labor’s (DOL) Bureau of Labor
Statistics. As shown in the following graph, we found that although the BOP
experienced growth in health care costs in excess of the HHS national
average and DOL CPI for some of the earlier years of our review period, the
BOP’s growth rates since 2002 have declined significantly while the growth
rates in the HHS national average and the DOL CPI have not.




                                     22
      Comparison of the Growth Rates of Health Care Costs for BOP, HHS, and
         DOL Health Care Data for Calendar Years 2000 through 200621


                     9%
                     8%
                G    7%
                r    6%
                o
                     5%
                w                                                                BOP
                t    4%
                h                                                                HHS
                     3%
                     2%                                                          DOL
                R
                a    1%
                t    0%
                e   -1%
                    -2%
                           2000 - 2001 - 2002 - 2003 - 2004 - 2005 -
                            2001    2002   2003     2004   2005    2006
                                        Calendar Years
            Source: BOP Office of Research and Evaluation, BOP Budget Execution Branch,
            Department of Health and Human Services, and Department of Labor


      We recognize that the BOP’s, HHS’s, and DOL’s per capita health care
medical costs are not exactly comparable. The BOP’s medical per capita
costs include costs for services not included in the HHS’s and the DOL’s per
capita medical costs and vice versa. For instance, the BOP’s medical per
capita costs include costs for medical guard escort services, airlift
expenditures, and costs for replacement equipment, while the HHS’s and the
DOL’s per capita medical costs do not include these items. In contrast, the
HHS’s and the DOL’s medical per capita costs include cost for health
insurance, home health care, and over-the-counter drugs, while the BOP’s
per capita medical costs do not include these items. Even though the costs
are not fully comparable between the three measures, we believe the cost
measures are sufficiently similar for comparison purposes and show that the
BOP appears to be controlling the growth in health care costs.


       21
           The BOP’s, the Department of Health and Human Services’ (HHS) and the
Department of Labor’s (DOL) per capita health care medical costs are not fully comparable.
The BOP’s medical per capita costs include costs for services not included in HHS’s and the
DOL’s per capita medical costs and vice versa. Even though the costs are not fully
comparable between the three measures, we believe the cost measures are sufficiently
similar for comparison purposes. The HHS national average cost data was obtained from
the HHS report, National Health Expenditures Aggregate, Per Capita Amounts, Percent
Distribution, and Annual Percent Change by Source of Funds: Calendar Years 2005 – 1960
(January 2007). An updated report showing cost data for 2006 was not available.



                                               23
Providing Medical Services to Inmates

      In addition to analyzing the BOP’s efforts to contain health care costs,
we also evaluated whether the BOP was providing inmates with expected
preventive medical services. Both our audit testing and reviews by the
BOP’s Program Review Division found that BOP institutions do not always
provide expected preventive medical services to inmates.

OIG Testing

       As discussed in the Introduction, the BOP established 16 Clinical
Practice Guidelines providing guidance to its institutions concerning health
care services for inmates. The BOP Medical Director considered the
guidelines to be “best medical practices” and told us that while the
guidelines have not been incorporated into the BOP’s program statements as
policy, he expects BOP institutions to provide these services to inmates.22
The Medical Director also informed us that institutions have discretion to
depart from the guidelines on a case-by-case basis. However, institutions
must request and receive approval from the Medical Director to not
implement a specific guideline requirement.

       To determine whether institutions were providing these medical
services to inmates, we selected and tested services listed in the BOP’s
Preventive Health Care Clinical Practice Guideline. We chose this particular
BOP guideline because:

       •    It addressed care for all inmates, instead of only inmates with
            specific illnesses;

       •    It included diagnostic procedures for 9 of the 11 chronic conditions
            addressed in the other 15 guidelines;

       •    It contained clearly defined medical services that could be
            reasonably tested;

       •    Health promotion and disease prevention is a primary objective of
            the BOP’s efforts to contain costs; and

       •    The BOP Medical Director told us that our testing of the preventive
            health care guideline would provide useful information to the BOP


       22
          The BOP publishes its mandatory policies and procedures in program statements.
The BOP also publishes clinical practice guidelines that contain specific procedures and tests
that the BOP expects its providers to follow when providing medical care to inmates.


                                           24
          because its per capita cost of providing health care should be
          reduced by implementing a good preventive health program, and
          he expects the institutions to provide the services in the guideline.

      We identified 30 specific preventive health care services in the BOP’s
Preventive Health Care Clinical Practice Guideline with clearly defined
requirements that allowed for testing whether the services were provided.
Appendix III shows the 30 services we tested, which included whether:
(1) inmates received a measles, mumps, and rubella vaccine, (2) inmates
received a hepatitis A vaccine, (3) inmates received a cholesterol check in
the last 5 years, (4) female inmates received a chlamydia test, and
(5) female inmates received a bone density screening test.

     To perform our testing of the 30 medical services, we selected a
sample of 1,110 of the 14,026 inmates assigned to 5 BOP facilities as of
March 24, 2007, as shown in the table below. Appendix IV contains an
explanation of our sampling methodology.

                          Inmate Population and Inmates Sampled

                                                         Inmate Population
                                                               as of         Inmates
                      BOP Facility                        March 24, 2007     Sampled
 USP Atlanta (Georgia)                                         2,494            251
 USP Lee (Virginia)                                            1,808            133
 Federal Correctional Complex Terra Haute (Indiana)            3,343            249
 Federal Medical Center Carswell (Texas)                       1,677            127
 Federal Correctional Complex Victorville (California)         4,704            350
   Totals                                                     14,026          1,110
Source: OIG sample from BOP inmate population data

      For each inmate sampled, we reviewed the inmate’s medical record
and determined whether the inmate received the 30 preventive services, as
applicable. The 30 services were not applicable to all inmates sampled
because certain services applied only to female inmates, the services applied
only to inmates over a certain age, and the services applied only if the
inmate had certain risk factors. To validate our testing, we asked a Health
Services Unit official at each of the facilities tested to confirm our results and
ensure that we had not overlooked the provision of any service.

      As shown in the following two charts, the combined results for all
5 locations showed that, for 16 of the 30 services tested, 90 percent or more
of the inmates received the preventive service as appropriate. For the
remaining 14 services, more than 10 percent of the sampled inmates did not




                                          25
receive the medical service.23 For example, 94 percent of the inmates who
should have received a cardiovascular risk calculation had not received one
in the last 5 years as required by BOP policy. Additionally, 87 percent of the
sampled inmates needing a measles, mumps, and rubella vaccine had not
received this service.

                           Overall Results of the OIG’s Testing of
                           Medical Services Provided to Inmates24


                                      Inmates                       Yes         No
      Medical Service Tested           Tested
1. Inmate medical history
provided by inmate at intake          1,044                              99%                            1%

2. Medical assessment completed       1,044                              99%                            1%
by medical practitioner at intake
3. New inmate tested for
tuberculosis or previous test for
                                      1,043                              99%                            1%
transferred inmate confirmed,
within 48 hours of intake
4. Inmate received rapid plasma
regain test during intake screening    403                              92%                        8%
to test for syphilis
5. Female inmate tested for
                                        25            36%                            64%
chlamydia
6. Female inmate received a
measles/mumps/rubella vaccine          128                         81%                        19%

7. Inmate received a complete
                                      1,044                             95%                         4%
physical within 14 days of intake
8. Inmate received a
pneumococcal vaccine                   93                          74%                       23%

9. Inmate received an annual
                                       210                        71%                        29%
influenza vaccine
10. Inmate born after 1956 received
                                       932      13%                           87%
a measles/ mumps/rubella vaccine
11. Inmate received a tetanus
vaccine in the last 10 years          1,042             50%                           49%

12. Inmate received a hepatitis A
                                       263                  57%                        42%
vaccine
13. Inmate received a hepatitis B
                                       343                              90%                        9%
test or vaccine

14. Inmate received a hepatitis C
                                       267                              91%                        8%
test




       23
          The percentages in the chart are based on the number of inmates for whom the
service was applicable.
       24
        Some percentages in the chart total less than 100 percent because
documentation was not available to determine if the test was performed for some inmates.


                                                 26
                                     Inmates                        Yes         No
       Medical Service Tested         Tested
15. Inmate received an HIV-1 test     381                            93%                           6%


16. Inmate received an HIV-2 test     130                                 98%                           2%

17. Inmate received a tuberculosis
test in the past year                 869                                 98%                           2%

18. Inmate received a chronic care
                                      339                                 98%                           2%
evaluation in the last 6 months
19. Inmate received a cholesterol
                                      678                     71%                            29%
check in the last 5 years

20. Inmate received a cardiovascular         6%                           94%
risk calculation in the last 5 years 402

21. Inmate received a fasting plasma
                                     324                        84%                           12%
glucose test in the last 3 years

22. Inmate received a current
                                     1,043                           96%                            4%
blood pressure check
23. Inmate received a current
                                     1,036 12%                            88%
body mass index calculation
24. Inmate received a fecal
occult blood test                     189              46%                            54%

25. Inmate received a vision
screening test                         58                             93%                          7%

26. Inmate received a hearing
                                       35               51%                            49%
screening test
27. Inmate received an
abdominal ultrasound test              6                              100%

28. Female inmate received a
papanicolaou test (PAP smear)         142                             99%                               1%

29. Female inmate received a
                                       89                             100%
current mammogram
30. Female inmate received a
bone density screening test            8               38%                           62%



Source: OIG testing of BOP medical records


        We could not determine if some services were provided because
information was either not recorded or was missing from the inmates’ medical
records. Appendix VII contains our test results at each of the five BOP
facilities. For each BOP location tested, the following chart presents the
percentages of inmates not receiving a calculation for cardiovascular risk. As
the chart shows, inmates at all five facilities rarely received this service.




                                                  27
                                 Percent of Applicable Inmates not Receiving a
                                    Current Cardiovascular Risk Calculation
                 Inmates
                  Tested
                   82        100%                                         USP Atlanta

                   45         98%                                         FMC Carswell

                   46         98%                                         USP Lee

                   98                82%                                  FCC Terre Haute

                  131         98%                                         FCC Victorville

                        100          75         50           25       0
                                            Percent

               Source: OIG testing of BOP medical records


       Medical staff at three of the five institutions told us that they usually
did not perform this service because they considered the service
unnecessary or they use an alternate method to evaluate the inmate for this
condition. Medical staff at another institution told us they did not perform
this service because of staffing inadequacies and scheduling constraints.
Officials at the other institution, FMC Carswell, declined to provide us with an
explanation for not performing these services, stating that BOP headquarters
would respond to the finding after we issued our report.

      We also found a large inconsistency among the institutions in providing
other medical services. For example, as shown in the chart below, we found
that the percentage of applicable inmates not receiving a cholesterol check
within the past 5 years ranged from 68 percent at USP Lee to 8 percent at
FMC Carswell. This disparity indicates a need for better BOP headquarters
oversight and guidance of the extent to which institutions implement
expected services.

                                   Percent of Applicable Inmates not
                              Receiving a Cholesterol Check in Last 5 Years
                Inmates
                 Tested
                 135                                        29%          USP Atlanta

                  72                                               8% FMC Carswell

                  69                      68%                            USP Lee

                 187                                              13% FCC Terre Haute

                 215                                      36%            FCC Victorville


                       100          75       50             25       0
                                           Percent


             Source: OIG testing of BOP medical records



                                                     28
     In another example, as shown in the following chart, we found that the
percentage of applicable inmates not receiving a tetanus vaccine in the past
10 years ranged from 72 percent at USP Lee to 5 percent at USP Atlanta.

                                      Percent of Applicable Inmates not
                               Receiving a Tetanus Vaccine within Past 10 Years
                  Inmates
                   Tested
                    191                                         5% USP Atlanta

                   127                                      19%       FMC Carswell

                   133                72%                             USP Lee

                    248                     60%                       FCC Terre Haute

                   345                 68%                            FCC Victorville


                         100     75        50          25         0
                                         Percent

               Source: OIG testing of BOP medical records


      Additional inconsistencies between the five institutions can be seen by
reviewing our results in Appendix VII. These include large inconsistencies
among the institutions in performing tests for chlamydia, hepatitis C, HIV,
vision, and hearing; and providing vaccines for pneumonia; influenza; and
measles, mumps, and rubella.

     We asked officials at each of the five institutions for an explanation of
why some services were not provided to a significant number of inmates.
The explanations provided by institution officials are discussed below.

      USP Atlanta. USP Atlanta officials did not give us an explanation for
why inmates were not provided a cholesterol test and a fasting glucose test,
but gave the following explanations for not supplying other medical services
to inmates.

      •   Influenza vaccine – Officials told us that the vaccine was not always
          available.

      •   Measles, Mumps, and Rubella vaccine – Officials said they believed
          that the requirement only applied to women.

      •   Cardiovascular risk calculation – Officials told us that they used
          alternative methods for determining cardiovascular risk.

      •   Body Mass Index calculation – Officials said they considered this
          calculation unnecessary.


                                              29
      •   Fecal Occult Blood test – Officials told us that the inmates share the
          responsibility for completion of this test and that generally the
          inmates fail to return the test cards.

      •   Hearing Screening – Officials said that there was no occupational
          risk at the institution, and they overlooked the requirement for
          screening inmates age 65 and over.

       Health Services Unit management officials at USP Atlanta said they
viewed the Preventive Health Care Clinical Practice Guideline as a
recommended, but not mandatory, regimen of health care practices and had
identified certain tests or procedures that they did not consider necessary
and therefore did not perform routinely. The USP Atlanta had not requested
and received a waiver from the BOP Health Services Division to deviate from
any of the guidelines.

      USP Atlanta had not yet implemented BOP’s Primary Care Provider
Teams (PCPT), and this may have contributed to expected medical services
not being provided. Under the PCPT model, each inmate is assigned to a
medical team of health care providers and support staff who are responsible
for managing the inmate’s health care needs. The PCPT model is designed
to provide inmates with better and more consistent medical care because
the inmate is examined by the same provider team each time the inmate
requires medical attention. The inmate should be less likely to miss some
services because the provider team would be familiar with the services
previously provided the inmate. According to the BOP’s Preventive Health
Care Clinical Practice Guideline, the most efficient and cost-effective way to
implement the guideline is to assign appropriate responsibilities to each
PCPT member. However, USP Atlanta officials told us that as a result of
limited staffing they have been unable to establish the Primary Care Provider
Teams.

       After we performed audit tests at USP Atlanta, we met with the BOP’s
Medical Director and other management officials from the BOP’s Health
Services Division to clarify the BOP’s expectations for institutional
compliance with the Preventive Health Care Clinical Practice Guideline. BOP
management officials told us that because of frequent changes in the
guidelines and the lengthy process to change or update BOP policy in its
program statements, they did not incorporate the clinical practice guidelines
into the BOP’s program statements. However, the Medical Director told us
that he considers the clinical practice guidelines to be “best medical
practices” and he expects the institutions to follow the guidelines when
providing medical care to inmates. The Medical Director said that institution
officials could use discretion and professional judgment when determining


                                     30
whether to follow the guidelines on a case-by-case basis. However, the
Medical Director told us that if institution officials decide not to follow a
guideline on an institution-wide basis, then the institution officials must
request and receive his approval to do so. The USP Atlanta had not done so.

      USP Lee. USP Lee medical officials told us that they did not provide
routine tests and vaccines because of the cost of the procedures and the
overall good health of USP Lee’s Care Level 1 population. USP Lee officials
said that they rely heavily on the inmates’ responsibility for improving their
health and seeking preventive health care. As was the case at USP Atlanta,
medical officials at USP Lee also had not fully implemented the PCPT and did
not use the Preventive Health Care Model. Medical personnel at USP Lee
told us that they had not fully implemented the PCPT because USP Lee was a
Care Level 1 facility and its staff was limited.

      FCC Terre Haute. FCC Terre Haute medical officials told us that they
did not provide routine tests and vaccines because of staffing inadequacies
and scheduling constraints. The medical officials at FCC Terre Haute also
had not fully implemented the PCPT because of staffing shortages and did
not use the Preventive Health Care Model.

       FMC Carswell. FMC Carswell medical officials declined our requests
for an explanation of why certain services were not provided to inmates.
The officials said that BOP headquarters would provide a response after we
issued our report. Medical officials at FMC Carswell had implemented PCPT.
Officials told us while staff members and inmates were assigned to provider
teams, nurses had to assist on multiple teams because of the limited
number of nurses on staff. As a result of our audit, staff at FMC Carswell
identified areas for improvement, such as providing a chlamydia test to all
females who were under 25 years of age. This institution began providing
the chlamydia test in accordance with the Clinical Practice Guideline
immediately following our site visit.

       FCC Victorville. FCC Victorville medical officials told us that they did
not provide routine tests and vaccines because it was too costly due to its
large inmate population. For instance, because of the high cost for vaccines,
FCC Victorville generally provided vaccines such as tetanus to inmates with
open injuries rather than every 10 years as required by the guideline.
Medical officials at FCC Victorville also had not fully implemented the PCPT.
Medical staff had assigned inmates to a mid-level practitioner, but staffing of
provider teams was not complete. As a result of our audit, staff at Victorville
began implementing additional practices, such as bone density screening for
female inmates, in accordance with the Preventive Health Clinical Practice
Guideline.


                                    31
Testing by the BOP’s Program Review Division

       The BOP’s Program Review Division also has identified instances where
institutions did not provide required medical services to inmates. The
Program Review Division performs reviews at BOP institutions, generally on
a 3-year cycle, to determine whether the institutions are in compliance with
a variety of BOP policies. As part of these reviews, the teams determine
whether the institution provided certain required medical services to
inmates.

       From FYs 2004 through 2006, the BOP’s Program Review Division
conducted 110 reviews at 88 locations. Of the 110 reviews, 40 reviews (36
percent) identified a total of 25 required medical services that institutions
did not always provide to inmates. The following table shows the number of
institutions that did not provide certain services.


                                                         Number of
                                                     Institutions Where
                Medical Service not Provided           Problem Found
        1.  Inmates with chronic care conditions
               were not monitored as required.              16
        2. Some inmates were not monitored for
               psychotropic medical side effects.           11
        3. The Hepatitis-B vaccine was not
               offered to inmates in a high-risk
               work detail.                                  8
        4. Inmates did not receive adequate
               dental screening.                             7
        5. Inmates did not receive a
               gynecological examination.                    6
        6. HIV positive inmates did not receive
            counseling.                                      5
        7. Inmates admitted at a local hospital
            were not adequately monitored by a
            medical doctor.                                  5
        8. Inmates did not receive a timely intake
            physical.                                        3
        9. HIV positive inmates did not receive
            recommended vaccine.                             3
        10. Inmates did not receive a baseline
            liver function test before isoniazid
            treatment.                                       2




                                    32
                                                                Number of
                                                            Institutions Where
               Medical Service not Provided                   Problem Found
        11. Inmate physicals were missing vital
            signs.                                                  2
        12. Inmates taking TB medications were
            not monitored for side effects.                         2
        13. Tests ordered by physicians were not
            completed.                                              2
        14. Isoniazid treatment for latent
            tuberculosis was not extended when
            treatment was missed.                                   2
       Source: OIG analysis of BOP program review reports


Potential Effect of Not Providing Services

      For a variety of reasons, inmates should be provided the medical
services that BOP policies require or that BOP management expects. If
expected medical services are not provided, an inmate’s medical condition
may worsen and the BOP may be faced with much higher medical treatment
costs for an extended period of time.

         During FYs 2004 through 2006, the BOP received 12,960 medical-
related complaints. The BOP granted relief for 1,970 of these complaints.
Over the same period, 6,030 medical-related complaints were appealed to
the BOP’s regional offices and 2,987 complaints were appealed to BOP
headquarters. The BOP granted relief for 202 and 9 of these complaints,
respectively.

          For the same 3-year period, decisions were made on 233 medical-
related lawsuits and appeals against the BOP. Of the 233 lawsuits and
appeals, 221 were dismissed, 1 was decided favorably for the BOP, and 11
were settled out of court for a total of $2,036,790. The 11 settlements
involved 3 claims of wrongful deaths and 8 claims of inadequate, improper,
or negligent medical care. In a recent case, an inmate died 6 days after his
first chronic care visit to a BOP medical provider. The BOP’s mortality review
for this case indicated that the inmate did not receive appropriate medical
care during his incarceration. Specifically, upon intake at the facility on
November 27, 2006, the inmate was referred to the chronic care clinic based
on a history of severe scoliosis and chronic low back pain. However, the
inmate was not seen in the chronic care clinic until 5 months later on
April 27, 2007. A follow-up Electrocardiogram (EKG) was performed on
May 1, 2007, and noted to be abnormal. However, the EKG results were not
reviewed by a medical doctor until May 3, 2007, the day the inmate died of
a heart attack.


                                          33
Conclusion

        The BOP has implemented numerous health care initiatives aimed at
reducing or containing health care costs. We were able to evaluate the
BOP’s overall health care costs, and we found that the BOP has done well in
effectively controlling the overall rate of increase in its per capita health care
costs, particularly when compared to national health care cost data reported
by the Departments of Health and Human Services and Labor. However, the
BOP did not maintain cost data to measure the effect of its individual
initiatives on specific and overall medical service costs. Therefore, we could
not determine the cost effectiveness of BOP health care initiatives on an
individual basis. We recommend that the BOP begin collecting and analyzing
cost data for its medical services to determine the effectiveness of each of
its initiatives in controlling and reducing the costs of specific medical services
and overall inmate health care. Without such analysis, the BOP cannot
determine which initiatives are most effective and which are not producing
desired results.

       Additionally, we found that BOP institutions did not always provide
inmates with the medical services expected by BOP management and
identified in BOP guidance. Our review, as well as evaluations performed by
the BOP’s Program Review Division, identified medical services that BOP
institutions did not always provide to inmates. The BOP Medical Director
stated that he expects the institutions to provide these medical services to
inmates.

      The failure to correct these deficiencies could lead to higher costs for
providing health care, decreases in the quality of health care provided,
exacerbation of inmate medical conditions, medical-related complaints and
lawsuits from inmates, and BOP liability for lack of adequate medical care.

      We recommend that the BOP review the required medical services that
the OIG and the BOP’s Program Review Division determined were not
provided consistently to inmates and decide whether the BOP still considers
these services necessary. If the BOP deems any of the services
unnecessary, it should remove them from the guidelines that recommend
the services be provided. For services that the BOP determines are
necessary, the BOP should develop a mechanism to ensure its institutions
are consistently complying with BOP policy concerning these medical
services.




                                      34
Recommendations

We recommend that the BOP:

1.   Establish procedures for collecting and evaluating data for each current
     and future health care initiative to assess whether individual initiatives
     are cost-effective and producing the desired results.

2.   Review the medical services that the OIG and the BOP’s Program
     Review Division identified as not always provided to inmates and
     determine whether those medical services are necessary, or whether
     the medical service requirement should be removed from the clinical
     practice guidelines.

3.   Issue clarifying guidance to the institutions regarding the medical
     services that BOP decides are necessary for BOP medical providers to
     perform.




                                     35
This page intentionally left blank.




            36
      2. BOP CONTRACT ADMINISTRATION

      Prior OIG audits of BOP medical contracts have identified
      multiple contract-administration deficiencies, such as inadequate
      review and verification of contractor invoices and inadequate
      supporting documentation for billings. Several of these
      deficiencies appeared to be systemic. The deficiencies primarily
      resulted from inadequate or non-existent guidance or procedures
      regarding critical management controls over these contracts.
      After these previous audits, the BOP took action to address
      individual deficiencies at the institutions we audited. However,
      in this audit we found that other BOP institutions lacked
      appropriate controls in the same areas identified by our prior
      contract audits, which indicates the existence of systemic
      weaknesses that are not being adequately addressed by the
      BOP.

      From August 2004 through March 2007, the OIG issued the following
nine audit reports on BOP medical contracts. Appendix X contains
summaries of these audits.

                            OIG Audits of BOP Medical Contracts
                             August 2004 through March 2007

                                                                           Month and
               Report Title and Number                    Institution     Year Issued
 The Bureau of Prisons’ Contract with the Parkview
 Medical Center for the Acquisition of Medical                              August
                                                          FCI Florence
 Services (J40604c-030),                                                     2004
 Audit Report GR-60-04-008
 Correctional Medical Services’ Compliance with the
                                                                          September
 Federal Bureau of Prisons’ Contract J21451c-009,         FCI Fort Dix
                                                                            2004
 Audit Report GR-70-04-009
 The Federal Bureau of Prisons’ Contract with Medical
 Development International for the Acquisition of
                                                                           February
 Medical Services at its Leavenworth, Kansas            USP Leavenworth
                                                                             2005
 Facilities (Contract No. DJB40804003),
 Audit Report GR-60-05-003
 The Federal Bureau of Prisons’ Medical Services
 Contract with Wayne Memorial Hospital, Jesup,                               April
                                                           FCI Jesup
 Georgia (Contract J30703c-020),                                             2005
 Audit Report GR-40-05-006
 The Federal Bureau of Prisons’ Contract Number
                                                                             June
 DJB21602-004 with Salem Community Hospital in             FCI Elkton
                                                                             2005
 Salem, Ohio, Audit Report GR-50-05-012




                                          37
                                                                        Month and
              Report Title and Number                   Institution    Year Issued
 The Federal Bureau of Prisons’ Medical Services
 Contract with Hospital Corporation of America -
                                                       FCI Englewood   March 2006
 HealthONE, L.L.C., Contract No. J40303c-146,
 Audit Report GR-60-06-006
 The University of Massachusetts Medical School and
 UMass Memorial Health Care, Incorporated’s
 Compliance with the Federal Bureau of Prisons’         FMC Devens     March 2006
 Contract DJB20507032,
 Audit Report GR-70-06-006
 The Federal Bureau of Prisons’ Medical Services
 Contract with John C. Lincoln Health Network
                                                        FCI Phoenix    August 2006
 Contract No. DJB60803144,
 Audit Report GR-60-06-009
 The Bureau of Prisons’ Management of the Medical
 Services Contract with Medical Development
                                                        FCC Butner     March 2007
 International, Butner, North Carolina, Contract No.
 DJB10611-00, Audit Report GR-40-07-003
Source: OIG Audit Reports


       Eight of the nine OIG contract audits identified major internal control
deficiencies. The deficiencies included management control weaknesses
pertaining to calculating medical service discounts, reviewing and verifying
invoices and billings, paying bills, and managing the overall administration of
the contracts. Based on the results of these audits, the following
weaknesses appeared to be systemic.

       •   Six of the contract audits found weaknesses in verifying and
           reviewing the accuracy of invoices for medical services provided by
           the contract providers.

       •   Five of the contract audits found weaknesses in obtaining
           supporting documentation for contractor billings.

       •   Four of the contract audits found errors in the Medicare or
           diagnostic-related groups discount rates.

       •   Three of the contract audits found that the contractor did not
           provide the services stated in the contract, and the contractor’s
           performance reports were either inaccurate or submitted in an
           untimely fashion.

    The OIG contract audits identified about $12.3 million in questionable
payments to the contractors. The audits usually found that the identified




                                         38
weaknesses were attributable to the lack of written procedures and other
internal controls.

      As of November 2007, the BOP’s Program Review Division said that
corrective actions had been implemented for all recommendations in seven
of the nine contract audits. For the other two audits, the BOP agreed to take
corrective actions on our recommendations, and those actions were either
completed or in progress as of November 2007.

       In response to six of the nine audits, the BOP strengthened
management controls by establishing written procedures for processing and
monitoring contract medical claims. However, these actions were limited to
correcting the deficiencies only at the institutions where the deficiencies
were found. We found no indication that the corrective actions on the
systemic weaknesses found in these audits were shared with other BOP
institutions. Further, as discussed on page 19, in response to OIG findings
on BOP’s payment of medical claims, the BOP began an initiative in 2004
designed to ensure medical claims are properly paid. However, the BOP
does not expect to award a contract for medical claims adjudication services
until early in calendar year 2008. We found no indication that the BOP
issued any interim guidance agency-wide to address the problems the OIG
found with paying medical claims.

      To address the OIG audit findings nationally, BOP officials told us that
the following actions have been taken.

      •   The BOP’s Field Acquisition Office staff visit institutions about 2 to 3
          months after the award of a comprehensive medical contract to
          provide contract orientation, bill verification training, and a contract
          administration briefing.

      •   The BOP issued a memorandum to its regional directors and chief
          executive officers in February 2005 to heighten awareness of
          recurring findings in OIG audits. The BOP included a Contract
          Administration Checklist with the memorandum, but stated that use
          of the checklist was optional.

      •   The BOP provided training to almost 200 BOP institution contracting
          staff at Advanced Procurement Training classes that covered
          comprehensive medical contracts, contract administration guidance,
          and recurring findings in OIG audits.

     As part of this larger audit of BOP medical services we tested other
BOP institutions for controls related to the deficiencies identified in our nine


                                      39
individualized BOP contract audits. Internal control is a major part of
managing an organization. It includes the plans, methods, and procedures
used to meet missions, goals, and objectives and, in doing so, supports
performance-based management. Internal controls on all transactions and
other significant events need to be clearly documented, and the
documentation should be readily available for examination. The
documentation should appear in management directives, administrative
policies, or operating manuals and may be in paper or electronic form. In
addition, the documentation and records should be properly managed and
maintained.

       We interviewed BOP officials at the five BOP institutions where we
conducted fieldwork during this audit and sent survey questionnaires to the
remaining 88 BOP institutions. Through the interviews and surveys we
inquired if BOP institutions had established internal control procedures for
their comprehensive medical services contracts, including:

      •   reviewing contractor invoices for accuracy,

      •   ensuring contractor invoices are supported by adequate
          documentation,

      •   ensuring that invoice discounts are properly applied,

      •   ensuring that contractor performance reports are complete and
          accurate, and

      •   ensuring that contractor timesheets are verified by a BOP
          employee.

      If the institutions responded that procedures were established, we
asked whether the procedures were in writing. Despite the training
conducted and the guidance issued by the BOP, we found that up to seven
BOP institutions lacked critical controls for certain contract administration
functions. We also found that approximately half the institutions with critical
controls had not documented the procedures associated with the controls.
Our analysis of survey responses found that 77 of the 88 BOP institutions
surveyed had comprehensive medical service contracts. Generally, officials
at each institution responded that they had established internal control
procedures for administering their institution’s contracts. However, we
found that about half the institutions had not formalized these procedures in
written policy for the controls we tested, as noted in the chart below.




                                     40
                 Controls Established by BOP Institutions for
                  Comprehensive Medical Services Contracts

                                            Number of Institutions
                                                       Procedures     Percent of
         Contract           Procedures                 Established   Established
      Administration            not        Procedures    but not     Procedures
         Function           Established    Established   Written     not Written
 Reviewing contractor
 invoices for accuracy           1             76          39           51%
 Ensuring contractor
 invoices are supported
 by documentation                3             74          36           49%
 Ensuring invoice
 discounts are properly
 applied                         7             70          34           49%
 Ensuring contractor
 performance reports are
 complete and accurate           2             75          35           47%
 Ensuring contractor
 timesheets are verified
 by a BOP employee               2             75          43           57%
Source: BOP responses to OIG survey questionnaire

       The lack of written procedures increases the risk that appropriate
controls will not be fully and consistently implemented, especially when staff
assignments and duties change. In the nine individual contract audits,
failure to effectively implement the five controls had multiple effects. For
example, in one audit of a major medical services contract, the OIG found
that the BOP did not adequately review contractor invoices for accuracy,
ensure contractor invoices were supported by documentation, and assure
contractor timesheets were verified by a BOP employee. As a result of these
weaknesses, the audit identified $2,428,345 in questioned costs related to:

      •   instances in which invoices contained transactions that were not
          within the billings’ service period;

      •   transactions for which the contractor billed the BOP at a rate higher
          than specified in the contract;

      •   transactions in which the contractor billed the BOP for a
          cardiologist’s reading of echocardiography results, which was not
          covered by the contract;

      •   transactions for timesheets that were either miscalculated,
          overstated, understated, or unsupported;




                                      41
      •   transactions where the hours billed for contractor employees were
          greater than the hours recorded in the institution’s contractor time
          logs;

      •   transactions where the hours billed were for contractor employees
          whose names did not appear in the contractor time logs; and

      •   inadequate support for billings for “on call” services provided under
          the contract.

       Similar weaknesses were noted in the other contract audits. In short,
if controls are not established, documented, and applied BOP-wide to
address these contract administration functions, the BOP could experience
similar negative effects on its medical contracts all across the BOP, such as
paying contractor invoices that contain unallowable or unsupported costs.

Conclusion

       This audit, along with prior OIG audits of individual BOP medical
contracts, found that BOP institutions lacked adequate management controls
to ensure the effective administration of critical medical service contract
functions. The absence of such controls appears to stem from BOP
headquarters not identifying systemic weaknesses and implementing the
necessary policies and internal control procedures to remedy the issues. We
found in our individual BOP medical contract audits that the lack of
management controls resulted in the BOP making questionable payments to
contractors. In total, the OIG contract audits identified about $12.3 million
in questionable payments to the contractors. We believe our findings in this
review and in the individual audits on BOP medical contract administration
illustrate the likelihood that similar weaknesses exist in medical contracts in
other BOP institutions that we have not audited. We recommend that the
BOP strengthen controls by providing guidance and procedures to its
institutions to help ensure that systemic deficiencies are corrected
throughout the BOP.

Recommendation

We recommend that the BOP:

4.   Strengthen management controls to ensure proper administration of
     BOP medical contracts by providing guidance and procedures to all BOP
     institutions for:




                                     42
•   reviewing contractor invoices for accuracy,

•   ensuring contractor invoices are supported by adequate
    documentation,

•   ensuring that invoice discounts are properly applied,

•   ensuring that contractor performance reports are complete and
    accurate, and

•   ensuring that contractor timesheets are verified by a BOP employee.




                                43
This page intentionally left blank.




            44
       3. MONITORING BOP HEALTH CARE PROVIDERS

       The BOP monitors its health care providers by performing
       program reviews of institution operations, reviewing medical
       provider skills and qualifications and providing authorization
       documents based on the review results, and requiring
       institutions to accumulate and submit to BOP headquarters data
       on health-related performance measures. However, while the
       BOP corrected deficiencies at the specific institutions where its
       program reviews found weaknesses, it did not develop and issue
       guidance to correct systemic deficiencies found during the
       reviews. Additionally, we determined that the BOP allowed some
       health care providers to practice medicine without valid
       authorizations. Also, health care providers did not have their
       practices peer reviewed to ensure the quality of their medical
       care as required by BOP policy. Moreover, while BOP institutions
       accumulated and reported data on health-related performance
       measures, the methods used to do so were inconsistent and the
       data was not analyzed to evaluate the performance of BOP
       institutions.

      The BOP uses numerous mechanisms to monitor its health care
providers. Some of the mechanisms include:

       •    conducting internal program reviews to determine whether each
            institution is properly implementing BOP policies, including policies
            related to inmate health care;

       •    granting clinical privileges and establishing practice agreements and
            protocols based on health care providers’ qualifications, knowledge,
            skills, and experience;25

       •    conducting peer reviews of health care providers to assess the
            competency of the providers; and

       •    requiring each institution to accumulate and report performance
            data on a quarterly basis for specific health-related areas.

       The primary purpose of these monitoring mechanisms is to help
ensure the quality and efficiency of health care delivered to inmates by
identifying and correcting deficiencies in the provision of health care, and in

       25
          Clinical privileges and practice agreements authorize the specific clinical or dental
duties that health care providers may provide to BOP inmates.


                                            45
authorizing duties for health care providers commensurate with their skills
and capabilities.

The BOP’s Program Review Results

      Program Statement P1210.23, Management Control and Program
Review Manual, requires that the BOP’s Program Review Division perform a
comprehensive review of each program or operation at each BOP institution
in accordance with published program review guidelines. The program
reviews are generally conducted once every 3 years, or more frequently if
the reviews identify overall performance that is less than a certain level.
Program Review Guideline G6000I.04, Health Services, provides the specific
review steps for the Program Review Division to complete when performing
a program review of the health services function at BOP institutions.

        From FYs 2004 to 2006, the Program Review Division conducted
110 program reviews of health care at 88 BOP locations. We reviewed the
resulting reports and determined that the Program Review Division
consistently identified deficiencies related to inmate health care. As
discussed in Finding 1 of this report, 40 of the 110 reviews found medical
services deficiencies.

       In response to these reviews, the Program Review Division required
institutions to certify completion of corrective actions addressing the
deficiencies it identified. The Program Review Division also prepared
quarterly program summary reports that identified the most frequent
deficiencies found during the program reviews. The Division provided the
summary reports to all BOP Chief Executive Officers, including the BOP
Health Services Division Medical Director. However, a senior Health Services
Division official told us that the BOP probably would not change policy when
program reviews find problems in a certain area, but it may provide training
to improve staff knowledge and compliance. The official said the Division
relies on the BOP Regional Offices and institutions to correct the problems.

      We analyzed the 40 BOP reviews and found that 25 different medical
services were not provided to inmates and that 14 of the 25 deficiencies
were identified for multiple institutions. For example, as shown in the table
on page 32, the Program Review Division found inmates with chronic care
conditions that were not monitored at 16 BOP institutions as required by
BOP policy. Also, the reviews found inmates that were not monitored for
psychotropic medical side effects at 11 institutions.




                                    46
      We recommend that the BOP use the program summary reports to
develop or clarify guidance to correct systemic deficiencies identified during
the internal program reviews.

The BOP’s Credential Verification, Privileges, and Practice
Agreement Program

      In providing inmate health care, BOP institutions employ or contract
for the following health care providers.

      •   Licensed independent practitioners are medical providers
          authorized by a current and valid state license to independently
          practice medicine, dentistry, optometry, or podiatry.

      •   Non-independent practitioners are graduate physician assistants
          (certified or non-certified), dental assistants, dental hygienists,
          nurse practitioners, and unlicensed medical graduates.

      •   Other practitioners are those not included in the above categories
          and include clinical nurses and emergency medical technicians.

       The BOP’s Program Statement P6027.01 provides guidance for
implementing the BOP’s Health Care Provider Credential Verification,
Privileges, and Practice Agreement Program. Under this program, the BOP:
(1) grants clinical privileges to licensed independent practitioners based on
the practitioner’s qualifications, knowledge, skills, and experience;
(2) establishes practice agreements between its licensed independent
practitioners and its non-independent practitioners, such as mid-level
practitioners; (3) establishes protocols that must be followed by other health
care providers, such as clinical nurses and emergency medical technicians;
and (4) performs peer reviews of all providers who function under clinical
privileges or practice agreements.

Privileges, Practice Agreements, and Protocols

      The BOP grants clinical privileges to its in-house and contracted
practitioners. Clinical privileges are the specific duties that a health care
provider is allowed to provide to BOP inmates. The following authority is
assigned to grant institution specific clinical privileges.

      •   The BOP Medical Director grants privileges for institution physicians
          designated as the Clinical Director, including a physician who is
          appointed as Acting Clinical Director while the permanent position is
          vacant. The BOP Medical Director also grants privileges for Clinical


                                     47
          Specialty Consultants and Chief Dental Officers. The Medical
          Director delegated privilege-granting authority for the Chief of
          Psychiatry at BOP institutions to the BOP’s Chief Psychiatrist.

      •   The institution’s Clinical Director grants privileges for other licensed
          independent practitioners who deliver medical health care at the
          institution, including contractors, consultants, and those involved in
          tele-health.

      •   The BOP Chief Dental Officer grants privileges for all institution
          Chief Dental Officers.

      •   The institution Chief Dental Officer grants privileges for institution
          dentists.

       BOP policy states that clinical privileges can be granted for a period of
not more than 2 years, and that newly employed physicians can be granted
privileges for a period of not more than 1 year. Independent practitioners
are prohibited from practicing medicine within the BOP until they have been
granted privileges to do so by an authorized BOP official.

      The individual institutions establish practice agreements between
licensed independent practitioners and non-independent practitioners.
Practice agreements delegate specific clinical or dental duties to non-
independent practitioners under a licensed independent practitioner’s
supervision and are valid for no more than 2 years. Non-independent
practitioners include graduate physician assistants, nurse practitioners, and
unlicensed medical graduates who must be directly supervised by a licensed
independent practitioner. BOP policy prohibits non-independent
practitioners from providing health care within the BOP until a practice
agreement has been established.

      The BOP’s other health care providers, such as clinical nurses and
emergency medical technicians, must work under protocols approved by
licensed independent practitioners. A protocol is a plan for carrying out
medical-related functions such as a patient’s treatment regimen.

      To determine whether the BOP maintained current privileges, practice
agreements, and protocols for each of its practitioners, we sent survey
questionnaires to 88 BOP institutions. We asked BOP staff at each location
to provide the date and a copy of the latest: (1) privilege-granting
document for licensed independent practitioners, (2) practice agreement for
non-independent practitioners, and (3) protocol for other health care
providers. We analyzed the BOP responses to identify instances when the


                                      48
appropriate authorization document was either not provided to new medical
providers or not renewed for existing medical providers. We identified 134
practitioners who did not have current privileges, practice agreements, or
protocols as shown in the following table.

                      BOP Medical Practitioners without Current
                     Privileges, Practice Agreements, or Protocols

                                   Practitioners       Practitioners         Percent
              Type of               Requiring            without             without
           Authorizing             Authorizing         Authorizing         Authorizing
             Document               Document            Document            Document
       Privileges                       680                 72                11%
       Practice Agreement               466                 42                 9%
       Protocol                         390                 20                 5%
        Totals                        1,536                134                 9%
      Source: Responses by BOP institution officials to OIG survey questionnaire


       We also found that 28 of the 42 practitioners without a current
practice agreement had medical service privileges authorized. These
practitioners were non-independent practitioners who should not require
privileges based on the BOP’s policy. While there may be rare instances
where it is appropriate to grant non-independent practitioners privileges
instead of practice agreements, the large number of practitioners incorrectly
authorized indicates that BOP institution officials did not have a good
understanding of BOP policies regarding medical practitioner authorization.
We also noted a similar situation for 9 of the 20 practitioners without current
protocols. These nine practitioners had been granted privileges or were
given practice agreements instead of protocols as required by BOP policy. In
addition, the BOP’s response to our survey questionnaires showed that 267
practitioners were provided multiple levels of authority. For example, 146
practitioners were provided both practice agreements and privileges. Again,
we believe this indicates that BOP staffs at the institutions do not
consistently understand BOP authorization policies.

       Based on the responses we received from BOP institution officials
regarding why the practitioners did not have current privileges, practice
agreements, or protocols, we believe that confusion exists among the
officials as to which type of authorization different health care providers
should receive.

       Allowing practitioners to provide medical care to inmates without
current privileges, practice agreements, or protocols increases the risk that
the practitioners may provide medical services without having the
qualifications, knowledge, skills, and experience necessary to correctly
perform the services. As a result, the BOP could be subjected to liability


                                             49
claims by inmates if improper medical services are provided by these
practitioners.

       The BOP should ensure that practitioners are properly authorized to
provide medical care to inmates. To accomplish this, it is essential that the
BOP establish privileges, practice agreements, or protocols for all
practitioners, as applicable. The BOP must also reevaluate and renew the
privileges, practice agreements, and protocols in a timely manner.
Moreover, the BOP must emphasize the importance of valid privileges,
practice agreements, or protocols and not allow practitioners without current
authorizations to practice medicine in BOP institutions.

Peer Reviews

      BOP policy requires that BOP health care providers have a periodic
peer review. A peer is defined as another provider in the same discipline
(physician, dentist, mid-level practitioner, or others) who has firsthand
knowledge of the provider’s clinical performance. Using a sample of the
provider’s primary patient load, the peer reviewer should evaluate the
professional care the provider has given and comment on the provider’s:

     •   actual clinical performance;

     •   appropriate utilization of resources;

     •   participation in, and results of, performance improvement activity;

     •   clinical judgment; and

     •   technical skills.

       BOP health care providers who are privileged or working under a
practice agreement must have at least one peer review every 2 years. Each
Clinical Director, Chief Dental Officer, and Clinical Psychiatrist must also
have a peer review at least once every 2 years.

       In our survey questionnaire sent to 88 BOP institutions, we asked the
BOP to provide the date of the last peer review for all providers who were
privileged or working under practice agreements. For the 891 such
providers, the responses to the questionnaire indicated that 430
(48 percent) had not received a peer review within the past 2 years.

     We asked BOP officials about the lack of peer reviews. The officials
responsible for more than half of the non-current peer reviews did not


                                    50
provide an explanation. The officials responsible for the remaining non-
current peer reviews cited the following reasons.

      •   The officials rely on the contractors to do peer reviews.

      •   The officials believed that the peer review requirement did not
          apply to mid-level practitioners, dental assistants, or dental
          hygienists.

      •   The officials relied on other types of performance reviews instead of
          doing the required peer reviews.

      Without current peer reviews, the BOP has a higher risk of not
detecting circumstances where providers may not be giving adequate
medical care to inmates. If inadequate professional care goes undetected,
the providers may not receive the training or supervision needed to improve
the delivery of medical care. Moreover, inadequate care by a practitioner
without a current peer review also increases the risk of BOP liability arising
from any formal complaints or medical malpractice suits filed by inmates.

The BOP’s Health Care Performance Measures

      The BOP has also established national performance measures for
health care, including annual targets or goals, for management of:
(1) hypertension, (2) cholesterol, (3) diabetes, (4) HIV, (5) tuberculosis,
(6) asthma, (7) breast cancer, (8) cervical cancer, and (9) pregnancy.
Appendix VIII shows how each performance measure is calculated and the
target percentage, or goal, that BOP established each performance measure.

       A BOP official told us that the BOP had not established written
procedures to be followed by institutions in accumulating and submitting
performance measure data to headquarters. According to the official, the
institutions have been asked since 2004 to submit quarterly reports
containing data for the performance measures to BOP’s Health Services
Division. However, the official noted that compliance to this request was
voluntary.

     In our survey questionnaire, we asked institution officials if they had
completed the performance measure calculations for the nine performance
measures for calendar year 2004 through the first quarter of calendar year
2007. The following table details the 99 responses from officials at the 88
BOP locations.




                                     51
             Performance Measure                      BOP Response26
            Calculations Completed                          Not         No
               for Calendar Year           Yes     No    Applicable  Response
                     2004                  59      28       10           2
                     2005                  77      14        4           4
                     2006                  87      11        0           1
                     2007 (1st Quarter)    90       7        1           1
        Source: BOP responses to OIG survey questionnaires


       Based on the responses, institutions completing the performance
measure calculation increased each year since 2004. We followed up with
BOP officials for institutions that did not complete performance measure
calculations and the officials usually could not provide an explanation for
why the measures were not completed and said that the person who was
responsible for completing the calculations was no longer at the institution.
Officials who did provide an explanation usually attributed not completing
the performance measures to staffing shortages.

       In our survey, we also asked the BOP to provide a copy of the
performance measure reports completed. We analyzed performance
measure reports and found that BOP institutions often did not meet the
target levels established for the nine target goals. For the 9 health care
performance measures we tested, we found that the institutions reported
performance below the target level for more than 20 percent of the quarters
reported for 7 of the 9 performance measures as shown in the following
table.

                                                             Number of     Percentage
                               Number of        Number of     Quarters     of Quarters
        Performance            Reporting         Quarters      Below          Below
           Measure            Institutions      Reported       Target         Target
   Clinical Management
                                    79             728          153            21%
   of Hypertension
   Clinical Management
                                    79             723          437            60%
   of Lipid Level
   Clinical Management
   of Diabetes – HbA1C              79             729          285            39%
   Level
   Clinical Management
   of HIV/ Ribonucleic              79             723          184            25%
   Acid Level


       26
           The 99 total responses to our survey questions was more than the 88 BOP
locations surveyed because 6 of the locations surveyed submitted separate responses for
the 17 BOP institutions at the locations. Performance measures were not applicable for
some institutions primarily because the institutions are new and were not active for the
years tested.


                                           52
                                                            Number of   Percentage
                               Number of        Number of    Quarters   of Quarters
       Performance             Reporting         Quarters     Below        Below
         Measure              Institutions      Reported      Target       Target
  Completion of
                                   79              602         169         28%
  Isoniazid Treatment
  Asthma Related
  Hospitalization or               79              601         51           8%
  Mortality
  Breast Cancer
                                   13              131         27          21%
  Screening
  Cervical Cancer
                                   13              131         27          21%
  Screening
  Pregnancy Test at
                                   13              131         13          10%
  Intake
 Source: OIG analysis of BOP performance data


       We asked a BOP official at the Health Services Division if the division
staff review the performance reports submitted and take action to help the
institutions improve their performance and reach target levels. The official
informed us that the Office of Quality Management staff receive the
performance reports, perform a trend analysis of the results, and summarize
the results in the Office of Quality Management’s Annual Report. However,
the official also told us that institution participation in reporting the
performance measures is voluntary and they do not develop agency-wide
corrective actions when the performance is below target levels. We
concluded that unless BOP officials more closely monitor the performance
data submitted and take actions to help the institutions improve
performance in areas not meeting target levels, the institutions will likely
continue to not provide the expected level of health care to inmates.

       The BOP official also stated that instructions have not been provided to
the institutions on how to properly accumulate and report data related to the
performance measures. Consequently, a BOP Health Services Division
official said that the institutions are inconsistent in how they accumulate and
report performance data. We were informed by this official that the BOP is
developing a training program to educate institution staff on how to properly
accumulate and report performance data. According to the Chief of the
BOP’s Quality Management Section, a meeting was held in December 2007
with the institution Health Services Administrators to discuss collecting of
national performance measure data. Another meeting is planned for January
2008 to discuss with Regional Medical Directors any adjustments needed to
the performance measurement system.




                                           53
Conclusion

       The BOP monitors its health care providers through various methods
such as performing program reviews of institution operations, reviewing
medical provider skills and qualifications and providing authorization
documents based on the review results, and requiring institutions to
accumulate and submit to BOP headquarters data on health-related
performance measures. We found that the BOP has corrected deficiencies at
the institutions where deficiencies were found, but it does not generally
develop and issue guidance to correct systemic deficiencies found during the
reviews. We believe that unless BOP-wide guidance is issued for systemic
deficiencies identified through program reviews, deficiencies existing at other
BOP institutions likely will remain uncorrected.

      We also found that the BOP allowed health care providers to practice
medicine without valid authorizations. Allowing practitioners to provide
medical care to inmates without current privileges, practice agreements, or
protocols increases the risk that the practitioners may provide medical
services without having the qualifications, knowledge, skills, and experience
necessary to correctly perform the services. In addition, the BOP could be
subjected to liability claims by inmates if improper medical services are
provided by these practitioners.

       In addition, providers have not had their medical practices evaluated
by a peer as required by BOP policy. Without a current peer review the BOP
has a higher risk of providers giving inadequate professional care to inmates.
Also, if inadequate professional care goes undetected, the providers may not
receive the training or supervision needed to improve the delivery of medical
care.

       Institutions report performance measure data to BOP’s Office of
Quality Management, which performs trend analyses of the results and
summarizes the results in its annual report. However, a senior official told
us that the BOP does not develop agency-wide corrective actions when the
performance is below target levels. We believe it is essential that the BOP
take corrective actions when performance is below targets to help ensure
that inmates are provided adequate medical care.




                                    54
Recommendations

We recommend that the BOP:

5.   Develop a process to use the program summary reports prepared by the
     Program Review Division to develop or clarify agency-wide guidance on
     systemic deficiencies found during program reviews.

6.   Ensure initial privileges, practice agreements, or protocols are
     established for all practitioners, as applicable.

7.   Ensure privileges, practice agreements, and protocols are revaluated
     and renewed in a timely manner.

8.   Ensure that practitioners are not allowed to practice medicine in BOP
     institutions without current privileges, practice agreements, or
     protocols.

9.   Ensure that peer reviews of all providers are performed within the
     prescribed timeframes.

10. Until the training program on accumulating and reporting performance
    data is implemented, issue guidance to all institutions on how to
    accumulate and report data for the health care performance measures
    to ensure consistency in the way institutions collect and report
    performance data. Once the training program is fully developed, ensure
    that appropriate institution staff receive the training.

11. Establish a process for reviewing the health care performance measures
    reported by institutions that includes actions that will be taken when
    institutions are not meeting the target performance levels.




                                     55
This page intentionally left blank.




              56
                STATEMENT ON COMPLIANCE WITH
                    LAWS AND REGULATIONS

       The Federal Managers Financial Integrity Act of 1982 requires agencies
to establish and maintain internal controls to provide assurance that agency
funds are safeguarded against waste, loss, unauthorized use, or
misappropriation. The Office of Management and Budget Circular No. A-123,
Management’s Accountability and Control defines management’s
responsibilities related to internal control. The BOP’s controls for providing
necessary medical care to inmates are established primarily by BOP program
statements and clinical practice guidelines. To obtain reasonable assurance
that the BOP complied with laws and regulations that, if not complied with,
could have a material effect on the BOP’s provision of health care to
inmates, we tested the BOP’s compliance with BOP’s guidelines for providing
inmate health care contained in the following BOP program statements and
clinical practice guidelines.

      •   P1210.023 Management Control and Program Review

      •   P6010.02, Health Services Administration

      •   P6013.01, Health Services Quality Improvement

      •   P6027.01, Health Care Provider Credential Verification, Privileges,
          and Practice Agreement Program

      •   P6031, Patient Care

      •   P6190.03, Infectious Disease Management

      •   P6270.01, Medical Designations and Referral Services for Federal
          Prisoners

      •   Preventive Health Care Clinical Practice Guideline

      Except for instances of noncompliance identified in the Findings and
Recommendations section of this report, we did not identify any other
instances of noncompliance with the policies we tested.




                                     57
This page intentionally left blank.




            58
                     STATEMENT ON INTERNAL CONTROLS

      In planning and performing our audit of the BOP's Efforts to Manage
Inmate Health Care, we considered the BOP's internal controls for the
purpose of determining our auditing procedures. The evaluation was not
made for the purpose of providing assurance on the internal control
structure as a whole; however, as shown below, we noted certain matters
that we consider reportable conditions under generally accepted government
auditing standards.27

Finding I

       •    The BOP did not maintain documentation of any preliminary cost-
            benefit analyses or post-implementation analyses to identify costs
            reduced or contained for its health care initiatives.

       •    The BOP’s institutions did not always provide recommended
            preventative medical services to inmates.

Finding II

       •    The BOP institutions had not established controls to ensure that
            contract administration deficiencies found during OIG audits of
            medical contracts at other BOP institutions were corrected.

       •    The BOP had not addressed agency-wide the systemic deficiencies
            found during OIG audits of BOP medical contracts.

Finding III

       •    The BOP had not addressed agency-wide the systemic deficiencies
            found during the Program Review Division’s program reviews at
            BOP institutions.

       •    The BOP had not established effective controls to ensure that BOP
            health care providers were provided privileges, practice
            agreements, or protocols as required by BOP policy.




       27
           Reportable conditions involve matters coming to our attention relating to
significant deficiencies in the design or operation of the internal control structure that, in our
judgment, could adversely affect the ability of the BOP to administer health care to inmates.


                                             59
     •   The BOP had not established effective controls to ensure that BOP
         health care providers received an internal peer review as required
         by BOP policy.

     •   The BOP had not established an effective system for monitoring
         institution progress against performance measures and taking
         actions when performance was below target levels.

      Because we are not expressing an opinion on the BOP's overall internal
control structure, this statement is intended solely for the information and
use of the BOP in managing inmate health care.




                                   60
            ACRONYMS AND ABBREVIATIONS

Act            Federal Managers Financial Integrity Act of 1982
AIDS           Acquired Immunodeficiency Syndrome
BEMR           Bureau Electronic Medical Records
BEMRx          Bureau Electronic Medical Records Pharmacy Module
BOP            Federal Bureau of Prisons
CD             Clinical Director
CMS            Correctional Medical Services
COSTEP         Commissioned Officer Student Training Extern Program
CPI            Consumer Price Index
CY             Calendar Year
DOL            Department of Labor
FCC            Federal Correctional Complex
FCI            Federal Correctional Institute
FDC            Federal Detention Center
FMC            Federal Medical Center
FPC            Federal Prison Camp
FSC            Financial Services Center
FSL            Federal Satellite Low
FTC            Federal Transfer Center
FY             Fiscal Year
GAO            Government Accountability Office
HbA1C          Hemoglobin A1C test
HealthONE      Hospital Corporation of America-HealthONE, L.L.C.
HHS            Department of Health and Human Services
HIV            Human Immunodeficiency Virus
HSD            BOP’s Health Services Division
HSU            Health Services Unit
MCC            Metropolitan Correctional Center
MDC            Metropolitan Detention Center
MDI            Medical Development International
MED            Medium Security
MRC            Medical Referral Centers
MRI            Magnetic Resonance Imaging
MRL            Medical Referral Laboratory
MRSA           Methicillin-Resistant Staphylococcus Aureus
OIG            Office of the Inspector General
PAP            Papanicolaou Test
PCPT           Primary Care Provider Team
PHS            Public Health Service
PMC            Parkview Medical Center
TB             Tuberculosis
UMass          Joint venture between the University of Massachusetts
               Medical School and UMass Memorial Health Care,
               Incorporated
USMCFP         United States Medical Center for Federal Prisoners



                              61
USP   United States Penitentiary
VA    Department of Veterans Affairs
WMH   Wayne Memorial Hospital




                     62
                                                                 APPENDIX I

            Audit Objectives, Scope, and Methodology

Objectives

      The objectives of this audit were to determine whether the BOP:
(1) appropriately contained health care costs in the provision of necessary
medical, dental, and mental health care services; (2) effectively
administered its medical services contracts; and (3) effectively monitored its
medical services providers.

Scope and Methodology

      We performed the audit in accordance with Government Auditing
Standards and included tests and procedures necessary to accomplish the
objectives. We performed the audit from January 16, 2007, to
November 14, 2007. We conducted fieldwork at the following locations:

      BOP Headquarters                     Washington, D.C.
      USP Atlanta                          Atlanta, Georgia
      FMC Carswell                         Forth Worth, Texas
      USP Lee                              Jonesville, Virginia
      FCC Terre Haute                      Terre Haute, Indiana
      FCC Victorville                      Victorville, California

Health Care Costs

      To determine whether the BOP appropriately contained health care
costs we:

      •   obtained and analyzed health care cost data from FYs 2000 to
          2007 to identify long-term trends in costs;

      •   identified the major BOP cost containment initiatives since
          FY 2000;

      •   reviewed each BOP initiative to identify the original implementation
          plan, budget, and anticipated impact on costs and then assessed
          the implementation of each initiative; and

      •   evaluated the cumulative effect of the initiatives on health care
          costs.



                                     63
Medical Care Services Provided

      We initially determined that the BOP’s Preventive Health Care Clinical
Practice Guideline included the appropriate provisions to use in testing the
BOP’s overall inmate health care. We selected this guideline as the basis for
our testing because it:

     •   addressed care for all inmates, instead of just inmates with specific
         illnesses;

     •   included the diagnostic procedures for all but 2 of the chronic
         conditions addressed in the other 15 guidelines;

     •   contained definitive and finite medical services that could be tested
         for completion, while testing of services in the other 15 guidelines
         would require medical expertise; and

     •   is a primary objective of the BOP in its efforts to contain costs and
         promote health and prevent disease.

        From the medical procedures listed in the guideline, we developed a
list of 30 medical procedures to test. We selected a preliminary statistical
sample of 251 inmates at USP Atlanta, because our sample was
representative of the inmates incarcerated there. We reviewed the medical
records of the inmates in our sample and determined if they received the
applicable service required based on age or medical need. To validate our
testing, we asked a USP Atlanta Health Service Unit official to verify the
results of our review to ensure that we had not overlooked any reference to
the provision of any medical service tested. Our preliminary test results
showed that inmates did not receive all the necessary health care services,
and we expanded our testing to include other BOP institutions.

      For our expanded audit testing, we selected 859 additional inmates at
4 additional BOP locations within 4 of the BOP’s regions. Including the
preliminary sample reviewed at USP Atlanta, our sample consisted of 1,110
inmates at 5 BOP locations in 5 BOP regions. Appendix IV explains our
sampling methodology. The sample size we tested at each location is shown
in the following table.




                                     64
                                                             Sample
                       Location of Institutions                Size
               USP Atlanta                                      251
               USP Lee                                          133
               FCC Terre Haute                                  249
               FMC Carswell                                     127
               FCC Victorville                                  350
                 Total                                       1,110
              Source: OIG sample from BOP inmate population data

Medical Services Contractor Oversight

      To determine whether the BOP effectively administered its medical
services contracts we:

     •   reviewed previous OIG audits of comprehensive BOP medical
         services contracts and identified similar conditions and causes of
         contract administration deficiencies existing at multiple BOP
         institutions;

     •   interviewed personnel at five BOP institutions and determined if the
         causes for the deficiencies also existed at those BOP facilities;

     •   used a questionnaire to survey all other BOP institutions to
         determine if the causes for the deficiencies also existed at those
         institutions; and

     •   determined whether the BOP developed and issued policies and
         procedures to address any systemic deficiencies.

      To determine whether the BOP effectively monitored its medical
services providers we:

     •   evaluated the BOP’s review process for monitoring contractor
         performance at the national, regional, and institutional levels;

     •   determined whether the five BOP institutions selected for testing
         had implemented adequate monitoring processes of their health
         care providers;

     •   surveyed BOP institutions through a questionnaire to determine if
         they had implemented adequate monitoring processes for health
         care providers;



                                      65
•   assessed whether the BOP’s monitoring system for health care is
    capable of detecting the types of deficiencies identified in this and
    prior OIG audits; and

•   determined whether the BOP performed trend analyses of its
    program review findings to identify systemic deficiencies and issued
    BOP-wide guidance to address the weaknesses.




                                66
                                                                       APPENDIX II

BOP Initiatives since FY 2000 to Improve the Effectiveness
           and Efficiency of Inmate Health Care

Initiative                       Description
1. Medical Designations          This initiative involves: (1) assigning each inmate a care
   Program                       level from 1 to 4, with 1 being the healthiest inmates and
                                 4 being inmates with the most significant medical
                                 conditions; (2) assigning each BOP institution a care level
                                 designation from 1 to 4 based on the care level of inmates
                                 the institution is staffed and equipped to handle;
                                 (3) staffing each institution based on its designated care
                                 level; and (4) moving inmates between institutions to
                                 match each inmate’s care level to the care level of the
                                 institution.
2. Medical Staff Restructuring   Under this initiative, the BOP established staffing
                                 guidelines for Care Level 1, 2, and 3 institutions. Because
                                 the existing staffing of the institutions did not always
                                 match the care level staffing guidelines, the BOP had to
                                 move medical staff throughout the BOP to implement the
                                 guidelines. Institutions that had staff in positions contrary
                                 to the guidelines were required to either move the staff to
                                 another facility or reassign the staff to another authorized
                                 position in the facility.
3. Tele-medicine                 This initiative involves the remote delivery of health care
                                 using telecommunications technologies, such as
                                 video-conferencing.
4. Electronic Medical Records    This initiative involves automating the medical records for
                                 inmates. The initial system included the capability to:
                                 (1) track comprehensive history and physical examination
                                 information, (2) schedule inmate medical visits when
                                 required, and (3) track medical-related supplies and
                                 equipment issued to inmates. The BOP subsequently
                                 added a pharmacy module to the system to manage the
                                 medications provided to inmates.
5. Medical Claims                This initiative is designed to ensure the BOP properly pays
   Adjudication                  medical claims and complies with requirements of the
                                 Prompt Payment Act. In April 2004, the BOP began
                                 researching the feasibility of using third-party medical
                                 claims processing services. The BOP developed a
                                 Statement of Work defining its requirements for medical
                                 claims adjudication services and in July 2006, the BOP
                                 issued a Request for Information asking interested
                                 commercial vendors to submit specific information about
                                 the claims processing services they provide. From July
                                 2006 to September 2007, the BOP refined its requirements
                                 and finalized the Statement of Work in September 2007.
                                 The BOP expects to award a contract for the medical
                                 claims adjudication services early in calendar year 2008.




                                        67
Initiative                        Description
6. Medical Reference Laboratory    In 2001, the BOP established a Medical Reference
                                  Laboratory (MRL) system at the: (1) United States Medical
                                  Center for Federal Prisoners, Springfield, Illinois;
                                   (2) Federal Medical Center, Rochester, Minnesota; and
                                   (3) Federal Medical Center, Butner, North Carolina. This
                                  initiative was designed to contain or reduce health care
                                  costs by enabling non-medical facilities within the BOP to
                                  collect and ship specimens to one of the three MRLs, where
                                  the laboratory tests could be performed at a lower cost
                                  than through individual contracts throughout the country.
7. Medical Equipment               The BOP implemented this initiative in 1997 requiring that
                                  a senior official at BOP headquarters approve all purchases
                                  of medical equipment with a single item value of more
                                  than $1,000. BOP subsequently raised the threshold to
                                  $5,000. To obtain approval, the requesting institution
                                  must submit a Major Equipment Justification and include
                                  evidence that the institution researched alternatives to find
                                  the best value for the equipment being acquired. This
                                  helps ensure that BOP institutions are not frivolous with
                                  equipment requests and spending. Under the initiative the
                                  BOP also consolidates like purchases submitted for
                                  approval, which permits better pricing on bulk purchases
                                  through one of the Department of Defense’s Defense
                                  Supply Centers. The Defense Supply Centers primarily
                                  purchase items such as food, clothing and textiles,
                                  pharmaceuticals, medical supplies, construction items, and
                                  other equipment to support the U.S. military. The centers
                                  also use their purchasing power to obtain such items for
                                  other federal agencies at a lower cost.
8. Inmate Co-payment              This initiative was implemented in October 2005 and
                                  required inmates to pay a $2 fee when requesting certain
                                  types of medical evaluations. The BOP does not charge
                                  indigent inmates a co-payment fee. The BOP also does not
                                  charge inmates for certain medical services such as visits
                                  related to a chronic medical condition, preventive health
                                  visits, or evaluations related to pregnancy. The initiative
                                  was designed to reduce the number of unnecessary inmate
                                  initiated medical visits. A BOP analysis of data for the first
                                  year of implementation showed a significant decrease in
                                  the number of inmate initiated medical visits.




                                          68
Initiative                     Description
9. Medical Coverage            In January 2005, the BOP discontinued the requirement for
                               24-hour on-site medical coverage at non-medical
                               institutions. Instead of 24-hour on-site medical coverage,
                               each institution is now required to have a plan in place for
                               providing emergency and urgent care services to inmates
                               consistent with American Correctional Association
                               standards. The plan should include a team of first
                               responders trained to use the automatic external
                               defibrillator and perform cardiopulmonary resuscitation as
                               clinically indicated. This change allowed institutions to
                               reassign staff to the day shift when inmates require the
                               most medical care. According to the BOP, the reduction in
                               premium pay for the 8-hour overnight period that is no
                               longer staffed resulted in significantly reduced staffing
                               costs.
10. Staffing Provider Teams    The BOP has traditionally provided health care to inmates
                               based on a “military” model utilizing the concept of sick
                               call and same-day treatment. Any available provider
                               evaluated an inmate, and this led to “practitioner
                               shopping” by the inmates, and inconsistency in the
                               approach to treatment of episodic complaints. In 2005,
                               the BOP began implementing the Patient Care Provider
                               Team concept, where inmates are assigned to a primary
                               provider team that manages both the chronic and episodic
                               care of the inmate. This approach is designed to improve
                               the consistency of treatment and eliminate the ability of
                               the inmate to consume valuable staff resources by going
                               from provider to provider for treatment for the same
                               complaint. According to the BOP, implementation of
                               provider teams has reduced duplicate diagnostic tests,
                               consultations, and treatments.
11. Federal Resource Sharing   This is an ongoing initiative through which the BOP has
                               existing contracts with the Department of Veterans Affairs
                               to obtain local medical services at the facility level, such as
                               laboratory services, tele-medicine, HIV tests, and others.
                               The initiative is designed to contain or reduce costs for
                               these medical services by taking advantage of the
                               “economies of scale” available through the Department of
                               Veterans Affairs that are not available to the BOP or
                               private sector laboratories.




                                       69
Initiative                        Description
12. Health Promotion              In 2000, the BOP had a three-person team in its Health
                                  Services Division that worked on Health Promotion and
                                  Disease Prevention initiatives. In recent years, the BOP
                                  disbanded this team and the functions of promoting health
                                  within the inmate population were realigned to appropriate
                                  groups within the Health Services or other divisions. In
                                  2005, the Health Services Division issued its Preventive
                                  Health Care Clinical Practice Guidelines outlining risk-based
                                  screening for inmates to identify and monitor those at risk
                                  for developing serious medical conditions such as diabetes,
                                  sequels of HIV infection, and heart disease. This initiative
                                  is designed to promote better health among inmates
                                  beginning at admission to the facility and continuing
                                  throughout the inmate’s incarceration. This guideline was
                                  revised in April 2007.
13. Consolidation Pilot Project   This project was conducted in FY 2000 at three BOP
   with the United States         institutions and was designed to determine the financial,
   Marshals Service               personnel, medical, and other resources that would be
                                  necessary for the BOP to assume responsibility for medical
                                  services for the United States Marshals Service’s inmates
                                  housed in BOP facilities. The project was deemed
                                  successful and expanded to include the following BOP
                                  institutions: all existing Federal Medical Centers (FMC) in
                                  June 2000; the Brooklyn Metropolitan Detention Center
                                  (MDC) in May 2005; and the Guaynabo MDC, Fort Devens
                                  FMC, Seagoville FCI, and Atlanta FCI in October 2006. The
                                  Marshals Service reimburses the BOP for expenses incurred
                                  by the BOP for providing community-based medical care to
                                  the U.S. Marshals Service’s prisoners housed at BOP
                                  institutions.
14. National Cardiopulmonary      This initiative is designed to provide cardiopulmonary
   Resuscitation and Automated    resuscitation and automated external defibrillator training
   External Defibrillator         and certification to BOP health care staff through a
   Contract                       nationally negotiated contract with standardized pricing.
                                  The BOP approved and submitted a Request for
                                  Contracting Action in May 2007 and the BOP expects to
                                  award the contract early in calendar year 2008.
15. National Medical Air          This initiative is designed to provide a single nationwide
   Transportation Contract        contract for medical air transportation services for all BOP
                                  institutions at standardized and best-value pricing. During
                                  FY 2007, the BOP conducted market research and issued a
                                  Request for Information. The BOP plans to award the
                                  contract during FY 2008.
16. National Comprehensive        This initiative is designed to provide a contract for health
   Medical Contract and           care services for all of the BOP’s institutions at
   Preferred Provider             standardized and best-value pricing. At the end of
   Organization                   FY 2007, the BOP was conducting market research for this
                                  initiative.




                                         70
 Initiative                        Description
 17. Catastrophic Case             This initiative is designed to: (1) implement a catastrophic
    Management                     case management system to provide clinical oversight and
                                   intervention of complex and specialized care cases, and
                                   (2) provide funding reimbursement to the institutions to
                                   mitigate the fiscal impact those cases have on the
                                   institutions’ medical budgets. As of the end of FY 2007,
                                   the BOP had drafted preliminary procedures and protocols
                                   for internal review and comment. The BOP anticipates
                                   submitting this initiative to the BOP’s Executive Staff for
                                   consideration in FY 2008.
 18. Mobile Surgery                This initiative is designed to provide a national contract for
                                   mobile surgery services at standardized and best-value
                                   pricing. The contract is expected to provide on-site
                                   surgical services through a mobile surgical unit in lieu of
                                   sending inmates outside of the institutions for surgery.
                                   The BOP formed a workgroup during FY 2007 and identified
                                   three institutions in the Southeast Region to pilot this
                                   initiative. Further implementation will be predicated on the
                                   success of the pilot, status of existing medical services
                                   contracts, and the ability of the contractor to expand the
                                   services to other BOP institutions.
 19. Magnetic Resonance            This initiative is designed to provide a national contract for
    Imaging, Computerized Axial magnetic resonance imaging, computerized axial
    Tomography, and                tomography, and mammogram services at standardized
    Mammography                    and best-value pricing. The BOP began market research
                                   during FY 2007.
 20. Staffing and Recruiting       Through this initiative begun in FY 2007, the BOP is
                                   attempting to identify novel, unique, and unconventional
                                   strategies to recruit and retain health care workers, with
                                   the understanding that there is and will continue to be
                                   shortages of trained and qualified health care workers in
                                   the United States and worldwide.
Source: Data provided by BOP officials




                                            71
This page intentionally left blank.




            72
                                                                        APPENDIX III

     Medical Services Selected for Testing from the BOP’s
      Preventive Health Care Clinical Practice Guideline

             Medical Service                               Applicability
1. The Inmate History, Part 1 of Form       All inmates.
   360, was completed by the inmate
   during intake screening.
2. The Medical Assessment, Part 2 of        All inmates.
   Form 360 was completed by the
   medical practitioner during intake
   screening.
3. New inmates were tested for              All inmates.
   tuberculosis (TB), or transferred
   inmates were confirmed for TB testing
   within 48 hours of entering the
   institution.
4. Inmates were given a rapid plasma        All female inmates and male inmates
   reagin test during intake                with identified risk factors.
   screening to test for syphilis.
5. Inmates were given a test for            All females inmates under age 25 with
   chlamydia during intake screening.       identified risk factors.
6. Inmates were given a Measles,            All female inmates of child-bearing-age if
   Mumps, and Rubella vaccine during        not received as an adult.
   intake screening.
7. Inmates were given a complete            All inmates.
   physical examination within 14 days
   of arriving at the institution to
   include: (1) medical and mental
   assessments, (2) dental assessment,
   and (3) appropriate laboratory and
   diagnostic tests. Also, the completion
   of the physical examination was
   signed off on the Standard Form 88
   by the institution Clinical Director.
8. Inmates had received or refused a        All inmates age 65 or over and inmates
   current pneumococcal immunization.       under age 65 with identified risk factors.
9. Inmates had received or refused an       All inmates over age 50.
   annual influenza immunization.
10. Inmates had received or refused a       All inmates born after 1956.
    current Measles, Mumps, and Rubella
    vaccination.
11. Inmates had received or refused a       All inmates every 10 years.
     current tetanus vaccination.
12. Inmates had received or refused a       All inmates with identified risk factors.
     current Hepatitis A vaccine.
13. Inmates had received or refused a       All inmates with identified risk factors.
     current Hepatitis B test.
14. Inmates had received or refused a       All inmates with identified risk factors.
     current Hepatitis C test.


                                            73
            Medical Service                               Applicability
15. Inmates had received or refused an      All inmates with identified risk factors.
    HIV-1 test.
16. Inmates had received or refused an      All inmates with identified risk factors.
    HIV-2 test.
17. Inmates tested for TB annually (past    All inmates.
    positive determination or X-ray if
    confirmed past positive).
18. Inmates with chronic care conditions    All inmates with chronic care conditions.
    were evaluated every 6 months.
19. Inmates had their cholesterol and       All male inmates age 35 and over, all
    high-density lipoproteins checked       female inmates age 45 and over, and all
    once every 5 years.                     other inmates age 20 and over with
                                            identified risk factors.
20. Inmates had received a calculation of   All diabetic inmates age 40 and over, all
    their risk for cardiovascular disease   male inmates age 40 and over, and all
    every 5 years.                          female inmates age 45 and over.
21. Inmates had received a fasting          All inmates age 45 and over with
    plasma glucose test for diabetes        identified risk factors.
    every 3 years.
22. Inmates had been checked for            Annually - All inmates age 50 or over.
    hypertension by having their blood
    pressure checked either annually or     Every 3 Years – All inmates under age
    every 3 years, as applicable.           50.
23. Inmates had been checked for            Annually - All inmates age 50 or over.
    obesity by receiving a calculation of
    their body mass index either            Every 3 Years – All inmates under age
    annually or every 3 years, as           50.
    applicable.
24. Inmates had received a fecal occult     All inmates age 50 and over.
    blood test to check for colorectal
    cancer as recommended.
25. Inmates had received a vision           All inmates age 65 and over.
    screening as recommended.
26. Inmates had received a hearing          All inmates age 65 and over and all
    screening as recommended.               other inmates in an occupational risk
                                            assignment.
27. Inmates had received an abdominal       All male inmates with a history of
    ultrasound test to check for an         smoking and age 65 or over.
    abdominal aneurysm.
28. Inmates had received a papanicolaou     Annually - All female inmates under age
    test (Pap smear) to test for cervical   31.
    cancer either annually or every 3
    years, as applicable.                   Every 3 Years – All female inmates age
                                            31 to 65.




                                            74
            Medical Service                              Applicability
 29. Inmates received a mammogram to       Annually – Offered to all female inmates
     check for breast cancer either        and given to all female inmates age 40
     annually or every 2 years, as         and over with identified risk factors.
     applicable.
                                           Every 2 Years – All female inmates age
                                           40 and over without identified risk
                                           factors.
 30. Inmates received bone density         All female inmates age 60 to 64 with
     screening to check for osteoporosis   identified risk factors and all female
     as recommended.                       inmates age 65 and over.
Source: BOP Preventive Health Care Clinical Practice Guideline




                                          75
This page intentionally left blank.




            76
                                                              APPENDIX IV

                            Sample Methodology

      The population was defined as the Federal Prison inmates in multiple
federal facilities at five different locations. The defined population contained
14,026 inmates (sampling units) in multiple BOP facilities located in the
following five BOP locations.

      •   Atlanta, Georgia

      •   Carswell, Texas

      •   Lee County, Virginia

      •   Terre Haute, Indiana

      •   Victorville, California

       Considering that the inmate health care administration could vary from
location to location, we employed a stratified random sampling design to
provide effective coverage and to obtain precise estimates of the statistic.
In addition, the characteristics of the population that affect the test
questions are the inmate age, gender, and facility type. Incorporating these
additional variables into the sampling plan, a multi-stage stratified sample
design was employed. The primary strata was BOP facility locations. The
secondary strata was facility type. The last strata was age groups. The
sample allocation considered to different strata was proportional to the
population sizes. The details of sample sizes, sample allocation to different
locations, and the test result statistics are presented in the body of the
report.




                                     77
This page intentionally left blank.




            78
                                                                          APPENDIX V

                 BOP Institutions and Inmates Housed
                      As of November 29, 200728
                                                                 Care
                     Institution                   State         Level        Inmates
            1. ALDERSON FPC                          WV            2              1,141
            2. ALLENWOOD LOW FCI                     PA            2              1,388
            3. ALLENWOOD MED FCI                     PA            2              1,431
            4. ALLENWOOD USP                         PA            2              1,129
            5. ASHLAND FCI                           KY            2              1,233
              ASHLAND-CAMP                           KY            2                 325
            6. ATLANTA USP                           GA            2              2,108
              ATLANTA-CAMP                           GA            2                 506
            7. ATWATER USP                           CA            1              1,126
              ATWATER-CAMP                           CA            1                 129
            8. BASTROP FCI                           TX            2              1,218
              BASTROP-CAMP                           TX            2                 186
            9. BEAUMONT LOW FCI                      TX            2              1,861
            10. BEAUMONT MED FCI                     TX            2              1,707
            11. BEAUMONT USP                         TX            2              1,496
               BEAUMONT USP-CAMP                     TX            2                 538
            12. BECKLEY FCI                          WV            2              1,602
               BECKLEY-CAMP                          WV            2                 417
            13. BENNETTSVILLE FCI                    SC            2              1,650
               BENNETTSVILLE-CAMP                    SC            2                 139
            14. BIG SANDY USP                        KY            2              1,483
               BIG SANDY-CAMP                        KY            2                 130
            15. BIG SPRING FCI                       TX            2              1,616
               BIG SPRING-CAMP                       TX            2                 181
            16. BROOKLYN MDC                         NY            2              2,565

       28
          As of November 29, 2007, the BOP housed an additional 33,354 inmates in
privately managed, contracted, or other facilities. Some BOP locations incorporate more
than one BOP institution. For instance, the BOP has two facilities at its Ashland, Kentucky,
location: Ashland FCI and Ashland-CAMP.


                                           79
                                     Care
         Institution         State   Level   Inmates
17. BRYAN FPC                 TX      2          971
18. BUTNER FMC                NC      4          956
19. BUTNER LOW FCI            NC      3        1,308
20. BUTNER MED I FCI          NC      3          725
   BUTNER-CAMP                NC      3          314
21. BUTNER MED II FCI         NC      3        1,245
22. CANAAN USP                PA      2        1,513
   CANAAN-CAMP                PA      2          125
23. CARSWELL FMC              TX      4        1,540
   CARSWELL-CAMP              TX      4          257
24. CHICAGO MCC               IL      2          730
25. COLEMAN I USP             FL      2        1,627
26. COLEMAN II USP            FL      2        1,635
27. COLEMAN LOW FCI           FL      2        2,017
28. COLEMAN MED FCI           FL      2        1,727
   COLEMAN MED FCI-CAMP       FL      2          489
29. CUMBERLAND FCI            MD      2        1,160
   CUMBERLAND-CAMP            MD      2          297
30. DANBURY FCI               CT      2        1,248
   DANBURY-CAMP               CT      2          193
31. DEVENS FMC                MA      4          993
   DEVENS-CAMP                MA      4          121
32. DUBLIN FCI                CA      2        1,140
   DUBLIN-CAMP                CA      2          333
33. DULUTH FPC                MN      2          812
34. EDGEFIELD FCI             SC      2        1,647
   EDGEFIELD-CAMP             SC      2          542
35. EL RENO FCI               OK      2        1,115
   EL RENO-CAMP               OK      2          262
36. ELKTON FCI                OH      2        1,860
   ELKTON-FSL                 OH      2          581




                        80
                                        Care
          Institution           State   Level   Inmates
37. ENGLEWOOD FCI                CO      2          905
   ENGLEWOOD-CAMP                CO      2          158
38. ESTILL FCI                   SC      2        1,118
   ESTILL-CAMP                   SC      2          304
39. FAIRTON FCI                  NJ      2        1,437
   FAIRTON-CAMP                  NJ      2          113
40. FLORENCE ADMAX USP           CO      2          484
   FLORENCE USP-CAMP             CO      2          534
41. FLORENCE FCI                 CO      2        1,208
42. FLORENCE HIGH USP            CO      2          987
43. FORREST CITY FCI             AR      2        2,021
   FORREST CITY FCI-CAMP         AR      2          310
44. FORREST CITY MED FCI         AR      2        1,666
45. FORT DIX FCI                 NJ      2        2,051
   FORT DIX-CAMP                 NJ      2          413
46. FORT WORTH FCI               TX      3        1,754
47. GILMER FCI                  WV       2        1,708
   GILMER-CAMP                  WV       2          131
48. GREENVILLE FCI               IL      2        1,192
   GREENVILLE-CAMP               IL      2          315
49. GUAYNABO MDC                 RQ      2        1,357
50. HAZELTON USP                WV       2        1,651
   HAZELTON-CAMP                WV       2          130
   HAZELTON-FEMALE CAMP         WV       2          622
51. HERLONG FCI                  CA      1          923
   HERLONG-CAMP                  CA      1          122
52. HONOLULU FDC                 HI      2          641
53. HOUSTON FDC                  TX      2        1,010
54. JESUP FCI                    GA      2        1,101
   JESUP-CAMP                    GA      2          152
   JESUP-FSL                     GA      2          639


                           81
                                        Care
         Institution            State   Level   Inmates
55. LA TUNA FCI                  TX      2        1,060
   LA TUNA-CAMP                  TX      2          242
   LA TUNA-FSL (EL PASO)         TX      2          411
56. LEAVENWORTH USP              KS      2        1,602
   LEAVENWORTH-CAMP              KS      2          404
57. LEE USP                      VA      1        1,523
   LEE USP-CAMP                  VA      1          131
58. LEWISBURG USP                PA      2        1,531
   LEWISBURG-CAMP                PA      2          571
59. LEXINGTON FMC                KY      4        1,476
   LEXINGTON-CAMP                KY      4          297
60. LOMPOC FCI                   CA      2        1,538
61. LOMPOC USP                   CA      2        1,785
   LOMPOC USP-CAMP               CA      2          504
62. LORETTO FCI                  PA      2        1,305
   LORETTO-CAMP                  PA      2          150
63. LOS ANGELES MDC              CA      2          953
64. MANCHESTER FCI               KY      1        1,115
   MANCHESTER-CAMP               KY      1          513
65. MARIANNA FCI                 FL      2        1,215
   MARIANNA-CAMP                 FL      2          297
66. MARION USP                   IL      2          891
   MARION-CAMP                   IL      2          304
67. MCCREARY USP                 KY      2          511
   MCCREARY-CAMP                 KY      2          136
68. MCKEAN FCI                   PA      2        1,247
   MCKEAN-CAMP                   PA      2          320
69. MEMPHIS FCI                  TN      2        1,202
   MEMPHIS-CAMP                  TN      2          337
70. MIAMI FCI                    FL      2        1,100
   MIAMI FCI-CAMP                FL      2          385
71. MIAMI FDC                    FL      2        1,696


                           82
                                      Care
          Institution         State   Level   Inmates
72. MILAN FCI                  MI      2        1,479
73. MONTGOMERY FPC             AL      2          911
74. MORGANTOWN FCI            WV       2        1,118
75. NEW YORK MCC               NY      2          752
76. OAKDALE FCI                LA      2        1,338
77. OAKDALE FDC                LA      2          497
   OAKDALE FDC-CAMP            LA      2          152
78. OKLAHOMA CITY FTC          OK      2        1,541
79. OTISVILLE FCI              NY      2        1,094
   OTISVILLE-CAMP              NY      2          118
80. OXFORD FCI                 WI      2        1,084
   OXFORD-CAMP                 WI      2          206
81. PEKIN FCI                  IL      2        1,153
   PEKIN-CAMP                  IL      2          303
82. PENSACOLA FPC              FL      2          685
83. PETERSBURG FCI             VA      2        1,312
   PETERSBURG FCI-CAMP         VA      2          346
84. PETERSBURG MED FCI         VA      2        1,828
85. PHILADELPHIA FDC           PA      2        1,181
86. PHOENIX FCI                AZ      2        1,080
   PHOENIX-CAMP                AZ      2          325
87. POLLOCK USP                LA      1        1,494
   POLLOCK-CAMP                LA      1          133
88. RAY BROOK FCI              NY      2        1,220
89. ROCHESTER FMC             MN       4          873
90. SAFFORD FCI                AZ      1          804
91. SAN DIEGO MCC              CA      2          994
92. SANDSTONE FCI              MN      1        1,224
93. SCHUYLKILL FCI             PA      2        1,317
   SCHUYLKILL-CAMP             PA      2          308
94. SEAGOVILLE FCI             TX      2        1,908
   SEAGOVILLE-CAMP             TX      2          170


                         83
                                           Care
            Institution            State   Level   Inmates
95. SEATAC FDC                     WA       2          976
96. SHERIDAN FCI                    OR      2        1,355
     SHERIDAN-CAMP                  OR      2          499
97. SPRINGFIELD USMCFP             MO       4        1,117
98. TALLADEGA FCI                   AL      2          995
     TALLADEGA-CAMP                 AL      2          367
99. TALLAHASSEE FCI                 FL      2        1,249
100. TERMINAL ISLAND FCI            CA      3        1,063
101. TERRE HAUTE FCI                IN      3        1,226
      TERRE HAUTE FCI-CAMP          IN      3          399
102. TERRE HAUTE USP                IN      3        1,530
103. TEXARKANA FCI                  TX      2        1,444
      TEXARKANA-CAMP                TX      2          354
104. THREE RIVERS FCI               TX      1        1,157
      THREE RIVERS-CAMP             TX      1          362
105. TUCSON FCI                     AZ      3          778
106. TUCSON USP                     AZ      3          775
      TUCSON-CAMP                   AZ      3          123
107. VICTORVILLE MED I FCI          CA      2        1,513
108. VICTORVILLE MED II FCI         CA      2          965
      VICTORVILLE MED II-CAMP       CA      2          242
109. VICTORVILLE USP                CA      2        1,485
110. WASECA FCI                    MN       2        1,080
111. WILLIAMSBURG FCI               SC      1        1,622
      WILLIAMSBURG-CAMP             SC      1          140
112. YANKTON FPC                    SD      1          859
113. YAZOO CITY FCI                 MS      1        1,863
      YAZOO-CAMP                    MS      1          137
114. YAZOO CITY MED FCI             MS      1        1,474
  Total Inmates                                    166,794
Source: BOP website




                              84
                                                             APPENDIX VI

         Summary of BOP Program Statements Related
            to the Provision of Medical, Dental, and
                    Mental Health Services

      The BOP has developed and issued the following program statements
that provide BOP policy and guidance related to the provision of medical,
dental, and mental health services to BOP inmates.

P6010.02 Health Services Administration — requires the BOP to deliver
necessary health care to inmates effectively in accordance with proven
standards of care without compromising public safety concerns inherent to
the BOP’s overall mission.

P6013.01 Health Services Quality Improvement — requires the BOP to
establish an outcome-based quality improvement system in the health care
programs at every BOP institution.

P6031.01 Patient Care — requires the BOP to effectively deliver medically
necessary health care to inmates in accordance with proven standards of
care without compromising public safety concerns inherent to the agency’s
overall mission. The statement requires every BOP institution to establish a
Utilization Review committee chaired by the Clinical Director to review:

     •   outside medical, surgical, and dental procedures;
     •   requests for specialist evaluations, in-house or escorted trips to the
         specialist’s office;
     •   requests for “Limited Medical Value” treatments and procedures;
     •   retrospective review of all cases sent to the community hospital
         during hours when no health care provider was on duty at the
         institution;
     •   case considerations for extraordinary care;
     •   concurrent review of inpatients at community hospitals; and
     •   other services the primary care provider or the Clinical Director
         have recommended.

P6031.02 Inmate Copayment Program — provides that the BOP may
under certain circumstances charge an inmate under the BOP’s custody, a
fee for providing inmate health care services. However, inmates are not to
be denied access to necessary health care because of the inmate’s inability
to pay the copay fee.




                                    85
P6270.01 Medical Designations and Referral Services for Federal
Prisoners — specifies procedures and criteria for transporting inmates who
require medical care. The Central Office Medical Designator, Office of
Medical Designations and Transportation, makes medical designations,
referrals, and denials based on:

      •   urgency of need;
      •   cost-effectiveness;
      •   BOP institution capabilities;
      •   expected service period, including recuperation;
      •   current bed space availability;
      •   security; and
      •   consultation with BOP physicians at the sending and receiving
          institutions.

P6090.01 Health Information Management — provides guidance for
ensuring that accurate and complete health records and qualified health
record practitioners are available for delivering health services.

P6400.02 Dental Services — requires the BOP to stabilize and maintain
the oral health of inmates in BOP institutions. Dental care is to be
conservative, providing necessary treatment for the greatest number of
inmates within available resources. Dental care should be provided to
inmates by health care providers, who provide quality care consistent with
professional standards.

P6340.04 Psychiatric Services — requires the BOP to provide psychiatric
services that address the physical, medical, psychological, social, vocational
and rehabilitative needs of inmates in the BOP’s custody who suffer from
mental illnesses and disorders.

P6360.01 Pharmacy Services — requires the BOP to provide inmates
access to quality, necessary, cost-effective pharmaceutical care.

P6370.01 Laboratory Services — provides guidance to ensure that
laboratory services will be regularly available to meet the needs of inmates
at all BOP institutions.

P6541.02 Over-the-Counter Medications — establishes a program
allowing inmates improved access to over-the-counter medications. The
statement provides that inmates may buy over-the-counter medications that
are available at the institution commissary. Inmates may also obtain over-
the-counter medications at sick call if the inmate does not already have the
medication and if: (1) health services staff determine that the inmate has


                                    86
an immediate medical need which must be addressed before his or her
regularly scheduled commissary visit, or (2) the inmate does not have funds
to purchase the medication at the commissary.

P6027.01 Health Care Provider Credential Verification, Privileges,
and Practice Agreement Program — provides that each Health Services
Unit will ensure that professional credentials for all health care providers
inside the institution are verified at the primary source (the issuer of the
credential). Providers include BOP staff, Public Health Services (PHS) staff,
part-time staff, contract and consultant staff, and those who provide a
diagnosis or treatment using tele-health.

P6021.04 Commissioned Officer Student Training Extern Program
(COSTEP) — encourages all BOP institutions to actively consider the
COSTEP Program of the PHS as a viable recruitment supplement. The
objectives of using COSTEPs are:

      •   eligible COSTEP students will be recruited for health care work in
          BOP facilities, and

      •   some COSTEP students will return to careers in the BOP after
          graduation.

P6190.03 Infectious Disease Management — provides that the BOP will
manage infectious disease in the confined environment of a correctional
setting through a comprehensive approach which includes testing,
appropriate treatment, prevention, education, and infection control
measures.

P6070.05 Birth Control, Pregnancy, Child Placement and Abortion —
establishes guidance for BOP institutions to provide inmates with medical
and social services related to birth control, pregnancy, child placement, and
abortion.

P6590.07 Alcohol Surveillance and Testing Program — requires the
BOP to maintain a surveillance program to deter and detect the illegal
introduction or use of alcohol in its institutions.

P6080.01 Autopsies — provides that the Warden of a BOP institution may
order an autopsy and related scientific or medical tests to be performed
when:

      •   in the event of homicide, suicide, fatal illness or accident, or
          unexplained death, the Warden determines that the autopsy or test


                                     87
          is necessary to detect a crime, maintain discipline, protect the
          health or safety of other inmates, remedy official misconduct, or
          defend the United States or its employees from civil liability arising
          from the administration of the facility; or

      •   the Warden obtains the written consent of a person (coroner, next-
          of-kin, the decedent’s consent in the case of tissue removed for
          transplanting) authorized to permit the autopsy or post-mortem
          operation under the law of the State in which the facility is located.

P6311.04 Plastic Surgery and Identification Records — provides that
the BOP does not ordinarily perform plastic surgery on inmates to correct
preexisting disfigurements (including tattoos) on any part of the body. In
circumstances where plastic surgery is a component of a presently medically
necessary standard of treatment (for example, part of the treatment for
facial lacerations or for mastectomies due to cancer) or it is necessary for
the good order and security of the institution, the necessary surgery may be
performed.

6010.01 Psychiatric Treatment and Medications, Administrative
Safeguards for — provides guidelines for providing administrative
safeguards for psychiatric treatment and medication.

P6060.08 Urine Surveillance and Narcotic Identification — requires
that BOP institutions must establish programs of urine testing for drug use
to monitor specific groups or individual inmates who are considered as high
risk for drug use, such as those in community activities, those with a history
of drug use, and those inmates specifically suspected of drug use.




                                      88
                                                                                     APPENDIX VII

            Results of the OIG’s Testing of the Provision
               of Medical Care at BOP Institutions29
                         United States Penitentiary – Atlanta
                                      Inmates                           Yes          No
     Medical Service Tested            Tested
1. Inmate medical history provided      191                               99%                                     1%
by inmate at intake
2. Medical assessment completed
                                        191                               96%                                     3%
by medical practitioner at intake
3. New inmate tested for
tuberculosis or previous test for
                                        191                               97%                                     3%
transferred inmate confirmed,
within 48 hours of intake
4. Inmate received a rapid plasma
regain test during intake screening     34                                94%                                6%
to test for syphilis
5. Female inmate tested for                          Test not applicable for any inmates at this facility
                                         0
Chlamydia
6. Female inmate received a
measles/ mumps/rubella vaccine           0           Test not applicable for any inmates at this facility

7. Inmate received a complete
                                        191                               94%                                5%
physical within 14 days of intake
8. Inmate received a pneumococcal
vaccine                                 31                               90%                                7%

9. Inmate received an annual
                                        46                              83%                           17%
influenza vaccine
10. Inmate born after 1956 received
                                        167     7%                             93%
a measles/ mumps/ rubella vaccine
11. Inmate received a tetanus
vaccine in the last 10 years            191                                94%                               5%

12. Inmate received a hepatitis A
                                        30                                  97%
vaccine
13. Inmate received a hepatitis B
                                        50                                  96%                                  2%
test or vaccine

14. Inmate received a hepatitis C
                                        45                                  98%
test

15. Inmate received an HIV-1 test       77                                    100%


16. Inmate received an HIV-2 test        4                                    100%

17. Inmate received a tuberculosis
                                        171                                 99%                                   1%
test in the past year
18. Inmate received a chronic care
                                        64                                95%                                    3%
evaluation in the last 6 months



       29
        Some percentages in the charts total less than 100 percent because
documentation was not available to determine if the test was performed for some inmates.


                                                 89
                        United States Penitentiary – Atlanta

                                      Inmates                        Yes          No
      Medical Service Tested           Tested
19. Inmate received a cholesterol
check in the last 5 years              135                     70%                             29%

20. Inmate received a cardiovascular
risk calculation in the last 5 years    82                                 100%

21. Inmate received a fasting plasma
glucose test in the last 3 years        67             45%                        34%

22. Inmate received a current blood
                                       190                           95%                                 5%
pressure check
23. Inmate received a current body
                                       190 4%                               96%
mass index calculation
24. Inmate received a fecal occult
blood test                              34      12%                         88%

25. Inmate received a vision
                                         5                                 100%
screening test
26. Inmate received a hearing
                                         5                                 100%
screening test
27. Inmate received an abdominal
                                         0        Test not applicable for any inmates at this facility
ultrasound test
28. Female inmate received a
                                         0        Test not applicable for any inmates at this facility
papanicolaou test (PAP smear)
29. Female inmate received a
                                         0        Test not applicable for any inmates at this facility
current mammogram
30. Female inmate received a bone
                                         0        Test not applicable for any inmates at this facility
density screening test




                                                 90
                           United States Penitentiary – Lee


                                      Inmates                      Yes        No
      Medical Service Tested           Tested
1. Inmate medical history provided
                                       133                            99%                                   1%
by inmate at intake
2. Medical assessment completed
by medical practitioner at intake      133                            99%                                   1%

3. New inmate tested for
tuberculosis or previous test for
transferred inmate confirmed,          133                            99%                                   1%
within 48 hours of intake
4. Inmate received a rapid plasma
regain test during intake screening     58                            91%                              7%
to test for syphilis
5. Female inmate tested for
                                        0       Test not applicable for any inmates at this facility
Chlamydia
6. Female inmate received a
measles/ mumps/rubella vaccine          0       Test not applicable for any inmates at this facility

7. Inmate received a complete
                                       133                           90%                               9%
physical within 14 days of intake
8. Inmate received a pneumococcal
vaccine                                 2              50%

9. Inmate received an annual
                                        8              50%                              50%
influenza vaccine
10. Inmate born after 1956 received
                                       127                               99%
a measles/ mumps/ rubella vaccine
11. Inmate received a tetanus
vaccine in the last 10 years           133       27%                           72%

12. Inmate received a hepatitis A
                                        43       26%                           72%
vaccine
13. Inmate received a hepatitis B
test or vaccine                         40                   68%                            30%

14. Inmate received a hepatitis C
test                                    30                     73%                            23%

15. Inmate received an HIV-1 test       53                     74%                             25%


16. Inmate received an HIV-2 test       4                       75%

17. Inmate received a tuberculosis
                                       105                            96%                                   3%
test in the past year
18. Inmate received a chronic care
evaluation in the last 6 months         21                         86%                           10%




                                                91
                           United States Penitentiary – Lee

                                      Inmates                    Yes        No
      Medical Service Tested           Tested
19. Inmate received a cholesterol
check in the last 5 years               69       30%                             68%

20. Inmate received a cardiovascular
risk calculation in the last 5 years    46                               98%

21. Inmate received a fasting plasma
glucose test in the last 3 years        5                 60%                              40%

22. Inmate received a current blood
                                       133                         90%                                 10%
pressure check
23. Inmate received a current body
mass index calculation                 133 1%                            99%

24. Inmate received a fecal occult
blood test                              17                     71%                           29%

25. Inmate received a vision                    Test not applicable for any inmates at this facility
                                         0
screening test
26. Inmate received a hearing
                                         1                             100%
screening test
27. Inmate received an abdominal
                                         0      Test not applicable for any inmates at this facility
ultrasound test
28. Female inmate received a
                                         0      Test not applicable for any inmates at this facility
papanicolaou test (PAP smear)
29. Female inmate received a
                                         0      Test not applicable for any inmates at this facility
current mammogram
30. Female inmate received a bone
                                         0      Test not applicable for any inmates at this facility
density screening test




                                                92
                   Federal Correctional Complex – Terra Haute

                                      Inmates                        Yes          No
      Medical Service Tested           Tested
1. Inmate medical history provided
                                       248                               100%
by inmate at intake
2. Medical assessment completed by
medical practitioner at intake         248                                 100%

3. New inmate tested for
tuberculosis or previous test for
                                       248                              99%
transferred inmate confirmed,
within 48 hours of intake
4. Inmate received a rapid plasma
regain test during intake screening     48                             98%                                    2%
to test for syphilis
5. Female inmate tested for
                                        0         Test not applicable for any inmates at this facility
Chlamydia
6. Female inmate received a
measles/ mumps/rubella vaccine          0         Test not applicable for any inmates at this facility

7. Inmate received a complete
                                       248                               98%                                  1%
physical within 14 days of intake
8. Inmate received a pneumococcal
vaccine                                 21                            91%                                9%

9. Inmate received an annual
                                        51                           86%                            14%
influenza vaccine
10. Inmate born after 1956 received
                                       223   1%                            99%
a measles/ mumps/ rubella vaccine
11. Inmate received a tetanus
vaccine every 10 years                 248           40%                               60%

12. Inmate received a hepatitis A
                                        86              48%                              52%
vaccine
13. Inmate received a hepatitis B
                                        75                            91%                                9%
test or vaccine

14. Inmate received a hepatitis C
                                        69                            96%                                 4%
test

15. Inmate received an HIV-1 test       89                               99%                                  1%

16. Inmate received an HIV-2 test       70                               99%                                  1%

17. Inmate received a tuberculosis
test in the past year                  215                             98%                                    2%

18. Inmate received a chronic care
evaluation in the last 6 months        102                               100%




                                                93
                  Federal Correctional Complex – Terra Haute

                                      Inmates                        Yes          No
      Medical Service Tested           Tested
19. Inmate received a cholesterol
check in the last 5 years              187                     87%                                   13%

20. Inmate received a cardiovascular
risk calculation in the last 5 years    98      18%                              82%

21. Inmate received a fasting plasma
glucose test in the last 3 years     120                                   95%                           5%

22. Inmate received a current blood
                                       248                           98%                                   2%
pressure check
23. Inmate received a current body
                                       248            36%                              64%
mass index calculation
24. Inmate received a fecal occult
blood test                              55                           80%                           20%

25. Inmate received a vision
                                        21                                 100%
screening test
26. Inmate received a hearing
                                        18                         78%                            22%
screening test
27. Inmate received an abdominal
ultrasound test                         4                                100%

28. Female inmate received a
                                        0         Test not applicable for any inmates at this facility
papanicolaou test (PAP smear)
29. Female inmate received a
                                        0         Test not applicable for any inmates at this facility
current mammogram
30. Female inmate received a bone
                                        0         Test not applicable for any inmates at this facility
density screening test




                                                 94
                          Federal Medical Center – Carswell

                                      Inmates                     Yes          No
      Medical Service Tested           Tested
1. Inmate medical history provided
                                       127                              100%
by inmate at intake
2. Medical assessment completed
by medical practitioner at intake      127                              100%

3. New inmate tested for
tuberculosis or previous test for
                                       127                              100%
transferred inmate confirmed,
within 48 hours of intake
4. Inmate received rapid plasma
regain test during intake screening    126                         91%                             9%
to test for syphilis
5. Female inmate tested for
                                        24           38%                             62%
Chlamydia
6. Female inmate received a
measles/ mumps/rubella vaccine         116                       80%                             19%

7. Inmate received a complete
                                       127                              100%
physical within 14 days of intake
8. Inmate received a pneumococcal
vaccine                                 14             50%                             50%

9. Inmate received an annual
                                        39                 59%                             41%
influenza vaccine
10. Inmate born after 1956 received
                                       117                   80%                                 20%
a measles/ mumps/ rubella vaccine
11. Inmate received a tetanus
vaccine in the last 10 years           127                       80%                             19%

12. Inmate received a hepatitis A
                                        25      24%                            76%
vaccine
13. Inmate received a hepatitis B
test or vaccine                         87                         97%                                 3%

14. Inmate received a hepatitis C
                                        37                       84%                             16%
test

15. Inmate received an HIV-1 test       48                         92%                             8%


16. Inmate received an HIV-2 test       1                              100%

17. Inmate received a tuberculosis                                 100%
                                       111
test in the past year
18. Inmate received a chronic care
                                        84                             100%
evaluation in the last 6 months




                                                95
                          Federal Medical Center – Carswell

                                      Inmates                          Yes         No
      Medical Service Tested           Tested
19. Inmate received a cholesterol
check in the last 5 years               72                               92%                              8%

20. Inmate received a cardiovascular
risk calculation in the last 5 years    45    2%                             98%

21. Inmate received a fasting plasma
glucose test in the last 3 years        74                                93%                             7%

22. Inmate received a current blood
                                        127                               100%
pressure check
23. Inmate received a current body
                                        127     23%                              77%
mass index calculation
24. Inmate received a fecal occult
blood test                              29                 52%                             48%

25. Inmate received a vision
                                        26                               96%                               4%
screening test
26. Inmate received a hearing
                                         5         20%                             80%
screening test
27. Inmate received an abdominal
                                         0         Test not applicable for any inmates at this facility
ultrasound test
28. Female inmate received a
papanicolaou test (PAP smear)          123                              99%                                    1%

29. Female inmate received a current
mammogram                               77                                100%

30. Female inmate received a bone
density screening test                   6                 50%                           50%




                                                   96
                    Federal Correctional Complex – Victorville

                                      Inmates                  Yes         No
      Medical Service Tested           Tested
1. Inmate medical history provided
                                       345                          99%                            1%
by inmate at intake
2. Medical assessment completed by
                                       345                           99%                           1%
medical practitioner at intake

3. New inmate tested for
tuberculosis or previous test for
transferred inmate confirmed,          344                           100%
within 48 hours of intake
4. Inmate received rapid plasma
reagin test during intake screening    137                      91%                       9%
to test for syphilis
5. Female inmate tested for
Chlamydia                               1                           100%

6. Female inmate received a
measles/ mumps/rubella vaccine          12                     83%                      17%

7. Inmate received a complete
                                       345                     92%                        5%
physical within 14 days of intake
8. Inmate received a pneumococcal
vaccine                                 25              60%                       36%

9. Inmate received an annual
                                        66              61%                       38%
influenza vaccine
10. Inmate born after 1956 received
                                       298   6%                     94%
a measles/ mumps/ rubella vaccine
11. Inmate received a tetanus
vaccine every 10 years                 345        32%                       68%

12. Inmate received a hepatitis A
                                        79                    79%                       19%
vaccine

                                        91                     89%                       9%

14. Inmate received a hepatitis C
                                        86                      93%                           5%
test

15. Inmate received an HIV-1 test      114                      95%                           4%


16. Inmate received an HIV-2 test       51                          100%

17. Inmate received a tuberculosis
test in the past year                  267                     98%                                 2%

18. Inmate received a chronic care
evaluation in the last 6 months         68                      99%                                1%




                                                97
                    Federal Correctional Complex – Victorville

                                      Inmates                  Yes         No
      Medical Service Tested           Tested
19. Inmate received a cholesterol
                                        215              64%                             36%
check in the last 5 years
20. Inmate received a cardiovascular
risk calculation in the last 5 years    131 2%                       98%

21. Inmate received a fasting plasma
glucose test in the last 3 years        58                      95%                            5%

22. Inmate received a current blood
                                        345                    96%                             4%
pressure check
23. Inmate received a current body
                                        338                      100%
mass index calculation
24. Inmate received a fecal occult
blood test                              54      20%                    80%

25. Inmate received a vision
                                         6              50%                        50%
screening test
26. Inmate received a hearing
                                         6        33%                        67%
screening test
27. Inmate received an abdominal
                                        2                        100%
ultrasound test
28. Female inmate received a
papanicolaou test (PAP smear)           19                      95%                            5%

29. Female inmate received a current
                                        12                       100%
mammogram
30. Female inmate received a bone
                                         2                       100%
density screening test




                                                98
                                                                 APPENDIX VIII

        The BOP’s Health Care Performance Measures

                                                                            Target
      Description            Numerator              Denominator           Percentage
Clinical Management   Number of                 Number of patients
of Hypertension       hypertensive patients     being treated for
                      on medication             hypertension with
                                                                          2004 - 70%
                      evaluated this            medication, for a
                                                                          2005 – 70%
                      reporting quarter with    minimum of 6 months,
                                                                          2006 – 70%
                      a blood pressure          who are evaluated this
                                                                          2007 – 70%
                      reading of less           reporting quarter
                      <140/< 90
                      millimeters of mercury
Clinical Management   Number of patients on     Number of patients on     2004 - 65%
of Lipid Level        lipid reduction           lipid reduction           2005 – 50%
                      medication, with a        medication for a          2006 – 50%
                      history of                minimum of 6 months,      2007 – 65%
                      cardiovascular risk or    who have lipids
                      two cardiac risk          measured this
                      factors, with a low       reporting quarter and
                      density lipoprotein       meet requirements
                      level < 100 milligrams    listed in the
                      reported this reporting   numerator statement
                      quarter
Clinical Management   Number of diabetic        Number of diabetic        2004 - 65%
of Diabetes – HbA1C   patients on insulin or    patients on insulin or    2005 – 65%
Level                 oral medication with      oral medication for a     2006 – 65%
                      an HbA1C level            minimum of 6 months       2007 – 65%
                      measured 8% or less,      with HbA1C level
                      as a result of a test     measured this
                      this reporting quarter    reporting quarter
Clinical Management   Number of inmates on      Number of inmates on      2004 - 60%
of HIV/ Ribonucleic   antiretroviral therapy    antiretroviral therapy    2005 – 60%
Acid Level            with HIV/ Ribonucleic     with known HIV/           2006 – 60%
                      Acid levels < 50          Ribonucleic Acid          2007 – 85%
                      cps/ml, as confirmed      standard level of <
                      by ultra-sensitive        400 cps/ml who have
                      method this reporting     had the ultra-sensitive
                      quarter                   method test this
                                                reporting quarter < 50
                                                cps/ml, as confirmed
                                                by ultra-sensitive
                                                method this reporting
                                                quarter




                                       99
                                                                            Target
     Description            Numerator                Denominator          Percentage
Completion of          Number of inmates on     Number of inmates         2005 – 90%
Isoniazid Treatment    treatment for Latent     previously started on     2006 – 90%
                       Tuberculosis Infection   treatment for Latent      2007 – 90%
                       who have completed       Tuberculosis Infection
                       bi-weekly isoniazid      who should have
                       therapy during this      completed treatment
                       reporting quarter        within this reporting
                                                quarter
Asthma-related         Number of patients       Number of patients        2005 – 100%
Hospitalization or     diagnosed with           diagnosed with            2006 – 100%
Mortality              asthma, who are          asthma, who are           2007 – 98%
                       taking chronic asthma    taking chronic asthma
                       medication, and who      medication, and who
                       were not hospitalized,   were in the institution
                       or did not expire from   this reporting quarter
                       asthma this reporting
                       quarter
Breast Cancer          Number of females        Number of females         2004 - 50%
Screening              screened by              who require               2005 – 50%
                       mammography this         mammography               2006 – 50%
                       reporting period         screening this            2007 – 50%
                                                reporting period
Cervical Cancer        Number of female         Number of female          2004 - 50%
Screening              patients who received    patients who would        2005 – 50%
                       screening by PAP this    require screening by      2006 – 50%
                       reporting period         PAP                       2007 – 50%
Pregnancy Testing at   Number of new intake     Number of new female      2004 - 90%
Intake                 females tested for       intakes (pre-             2005 – 90%
                       pregnancy this           menopausal) arriving      2006 – 90%
                       reporting period         in the institution this   2007 – 90%
                                                reporting period




                                       100
                                                            APPENDIX IX

                      Types of BOP Institutions

      The BOP operates institutions at five different security levels in order
to confine offenders in an appropriate manner. The security levels are based
on such features as the presence of external patrols, towers, security
barriers, or detection devices; the type of housing within the institution;
internal security features; and the staff-to-inmate ratio. Each institution is
given a security designation of either minimum, low, medium, high, or
administrative.

Minimum Security

       Minimum security institutions, also known as Federal Prison Camps
(FPC), have dormitory housing, a relatively low staff-to-inmate ratio, and
limited or no perimeter fencing. These institutions are work-oriented and
program-oriented. Many of these institutions are located adjacent to larger
institutions or on military bases, where inmates help serve the labor needs
of the larger institution or base.

Low Security

      Low security Federal Correctional Institutions (FCI) have double-
fenced perimeters, mostly dormitory or cubicle housing, and strong work
and program components. The staff-to-inmate ratio in these institutions is
higher than in minimum security facilities.

Medium Security

       Medium security FCIs have strengthened perimeters often with double
fences and electronic detection systems, mostly cell-type housing, a wide
variety of work and treatment programs, an even higher staff-to-inmate
ratio than low security FCIs, and even greater internal controls.

High Security

      High security institutions, also known as United States Penitentiaries
(USP), have highly-secured perimeters featuring walls or reinforced fences,
multiple-occupant and single-occupant cell housing, the highest staff-to-
inmate ratio, and close control of inmate movement.




                                   101
Correctional Complexes

      A number of BOP institutions belong to Federal Correctional Complexes
(FCC). At FCCs, institutions with different missions and security levels are
located in close proximity to one another. FCCs increase efficiency through
the sharing of services, enable staff to gain experience at institutions that
have many security levels, and enhance emergency preparedness by having
additional resources within close proximity.

Administrative

      Administrative facilities are institutions with special missions, such as
the detention of pretrial offenders; the treatment of inmates with serious or
chronic medical problems; or the containment of extremely dangerous,
violent, or escape-prone inmates. Administrative facilities include
Metropolitan Correctional Centers (MCC), Metropolitan Detention Centers
(MDC), Federal Detention Centers (FDC), and Federal Medical Centers
(FMC), as well as the Federal Transfer Center (FTC), the Medical Center for
Federal Prisoners (MCFP), and the Administrative-Maximum (ADX) USP.
Administrative facilities are capable of holding inmates in all security
categories.

Satellite Camps

A number of BOP institutions have a small, minimum-security camp adjacent
to the main facility. These camps, often referred to as satellite camps,
provide inmate labor to the main institution and to off-site work programs.
FCI Memphis has a non-adjacent camp that serves similar needs.

Satellite Low Security

The BOP has two FCIs that have a small, low-security satellite facility
adjacent to the main institution. The BOP also has one FCI that has a low-
security facility affiliated with, but not adjacent to, the main institution.




                                    102
                                                                        APPENDIX X

    Department of Justice, Office of the Inspector General
           Audits of BOP Medical Contracts from
            August 2004 through March 2007

      From August 2004 through March 2007, the OIG issued nine audit
reports on BOP contracts for medical services. The OIG reported on major
internal control deficiencies for eight of the nine medical services contract
audits. Deficiencies included weak procedures or processes for calculating
discounts, reviewing and verifying invoices and billings, paying bills, and
managing the overall administration of the contracts. As of November 2007,
the BOP’s Program Review Division said that corrective actions had been
implemented for all recommendations in seven of the nine contract audits.
For the other two audits (Correctional Medical Services at Fort Dix, New
Jersey and Medical Development International at FCC Butner, North
Carolina), the BOP agreed to take corrective actions on the OIG’s
recommendations, and those actions were either completed or in progress as
of November 2007. The OIG’s findings and recommendations for the nine
audits are summarized below.

Parkview Medical Center

       In an August 2004 audit report on the BOP’s contract with the
Parkview Medical Center (PMC), the OIG reported on the purchase of
inpatient and outpatient facility and physician services for inmates at the
Federal Correctional Complex in Florence, Colorado.30 The OIG found that:
(1) PMC did not provide documentation to support billings for pharmacy
items, (2) PMC billed for prescription drugs that were not on the BOP’s
approved formulary, (3) PMC did not provide the required Summary Paid
Billing Analysis Reports to the BOP each quarter, and (4) the BOP could
improve contract administration by better analyzing contract modifications
prior to the acceptance of new terms.

       The OIG recommended the BOP:

       •    remedy $424,638 in questioned costs paid to the PMC for
            unsupported pharmacy items,


       30
          Department of Justice, Office of the Inspector General, The Bureau of Prisons’
Contract with the Parkview Medical Center for the Acquisition of Medical Services (J40604c-
030), Audit Report GR-60-04-008 (August 2004).



                                          103
       •    remedy the $94,774 in questioned costs paid to the PMC for drugs
            not listed in an applicable BOP formulary,

       •    implement controls to ensure the PMC submits the Quarterly
            Summary Paid Billing Analysis Report on time, and

       •    analyze future contract modifications to accurately determine the
            effect on the contract prior to acceptance.

Correctional Medical Services

     In a September 2004 report on the BOP’s contract with Correctional
Medical Services (CMS), the OIG reported on the acquisition of
comprehensive medical services for inmates at the FCI facility at Fort Dix,
New Jersey.31

       The OIG found that: (1) CMS did not schedule and provide outpatient
institutional and physician services within the time allowed by the contract
after receiving a request from the FCI, (2) the BOP had obtained services
outside the contract because CMS could not provide agreed-upon services,
(3) CMS did not provide a Quality Assurance and Improvement Program and
quarterly Summary Paid Billing Analysis Reports to the BOP, (4) CMS did not
provide replacement non-Medicare personnel in a timely manner, (5) CMS
charged for duplicative services and for services cancelled by the BOP, and
(6) CMS billed for Magnetic Resonance Imaging (MRI) services after the MRI
portion of the contract had expired.

       The OIG recommended the BOP:

       •    ensure that CMS provides outpatient institutional and physician
            services in accordance with the terms and conditions of the
            contract,

       •    remedy the $9,321,106 paid to the CMS because the government
            awarded the contract based on services in the CMS’s proposal that
            the CMS did not have the capability to deliver,

       •    acquire biomedical services from the CMS at the prices set forth in
            the contract,



       31
          Department of Justice, Office of the Inspector General, Correctional Medical
Services’ Compliance with the Federal Bureau of Prisons’ Contract J21451c-009, Audit
Report GR-70-04-009 (September 2004).


                                          104
       •    ensure that the CMS provides a Quality Assurance and
            Improvement Program and the Summary Paid Billing Analysis
            Reports in accordance with the contract,

       •    remedy the $1,600 in duplicative orthopedic examination costs paid
            to the CMS,
       •    remedy the $7,096 paid to the CMS for services cancelled by the
            BOP, and

       •    remedy the $31,620 that the CMS billed for MRI services after the
            MRI portion of the contract had expired.

Medical Development International at the United States Penitentiary
and Federal Prison Camp in Leavenworth, Kansas

       In a February 2005 report on the BOP’s contract with Medical
Development International (MDI), the OIG reported on the acquisition of
medical services for the United States Penitentiary and Federal Prison Camp
in Leavenworth, Kansas.32 The OIG found that: (1) MDI did not obtain
certification of residency forms from all medical providers as required by the
contract, (2) the BOP Contracting Officer’s Technical Representative did not
submit contractor monitoring reports on a quarterly basis as required, and
(3) the BOP Contracting Officer’s Technical Representative did not use the
BOP’s rating guidelines on monitoring reports submitted.

       The OIG recommended the BOP:

       •    obtain the required residency certification forms for all medical
            personnel who provide off-site care for inmates, and

       •    require the Contracting Officer’s Technical Representative to submit
            contractor monitoring reports in a timely manner and use the rating
            guidelines when evaluating the contractor’s performance.

Wayne Memorial Hospital

      In an April 2005 report on the BOP’s contract with the Wayne Memorial
Hospital (WMH), the OIG reported on the acquisition of comprehensive


       32
          Department of Justice, Office of the Inspector General, The Federal Bureau of
Prisons’ Contract with Medical Development International for the Acquisition of Medical
Services at its Leavenworth, Kansas Facilities (Contract No. DJB40804003), Audit
Report GR-60-05-003 (February 2005).



                                         105
inmate medical services provided by WMH to inmates at FCI, Jesup.33 The
OIG found that: (1) WMH did not always provide Inmate Discharge
Summary Reports in a timely manner, (2) FCI Jesup obtained medical
services from providers outside the contract when the contractor was able to
provide some of those services, (3) WMH billed and was paid for medical
services that were calculated using incorrect billing practices, (4) WMH billed
and was paid for medical services that were not supported with adequate
documentation, and (5) FCI Jesup paid for medical services with billings that
were unsupported.

       The OIG recommended the BOP:

       •    ensure the contract accurately specifies services that are to be
            provided and other specific terms and conditions of the contract,

       •    ensure the contractor provides Inmate Discharge Summary Reports
            in a timely manner,

       •    remedy more than $76,000 charged to the contract because the
            contractor used incorrect rates when it prepared the billing
            statements or because adequate documentation was not
            maintained to support the billing statements, and

       •    ensure the FCI strengthens its controls for reviewing and processing
            invoices for payment.

Salem Community Hospital

      In a June 2005 report on the BOP’s Contract with the Salem
Community Hospital, the OIG reported on the acquisition of comprehensive
medical services for inmates at FCI Elkton facility in Salem, Ohio.34 The OIG
found that: (1) the Salem Community Hospital overcharged for services it
provided during the first 8 months of the contract by using incorrect rates to
calculate invoice discounts, (2) the Salem Community Hospital made
additional errors in the discounts charged and in the time charges for


       33
          Department of Justice, Office of the Inspector General, The Federal Bureau of
Prisons’ Medical Services Contract with Wayne Memorial Hospital, Jesup, Georgia (Contract
J30703c-020), Audit Report GR-40-05-006 (April 2005).

       34
           Department of Justice, Office of the Inspector General, The Federal Bureau of
Prisons’ Contract Number DJB21602-004 with Salem Community Hospital in Salem, Ohio,
Audit Report GR-50-05-012 (June 2005).



                                         106
operating and recovery room services, and (3) FCI Elkton had no formal
written procedures for reviewing and verifying the accuracy of its invoices.

   The OIG recommended the BOP:

       •    direct FCI Elkton to remedy $744 in overcharges paid to Salem
            Community Hospital,

       •    direct FCI Elkton to ensure the Salem Community Hospital
            implemented control procedures to ensure charges and discounts
            on invoices were correctly calculated,

       •    direct FCI Elkton to review and revise its review procedures to
            ensure invoices approved for payment were accurate, and

       •    direct FCI Elkton to formalize its invoice review procedures in
            writing.

Hospital Corporation of America-HealthONE

      In a March 2006 report on the Medical Services contract with the
Hospital Corporation of America-HealthONE, L.L.C. (HealthONE), the OIG
reported on the acquisition of comprehensive medical services for inmates at
the FCI Englewood facility in Littleton, Colorado.35 The OIG found that:
(1) HealthONE did not submit quarterly Summary Paid Billing Analysis
Reports to FCI Englewood as required, (2) the BOP Contracting Officer’s
Technical Representative could not provide documentation supporting the
information reported in the quarterly contractor performance reports,
(3) FCI Englewood had no written procedures for monitoring and reviewing
of the contractor’s billing process, and (4) FCI Englewood had no
documentation supporting a review process for exercising each option of the
contract.

      The OIG recommended the BOP:

       •    document the criteria used to assess contractor performance and
            document the quantitative results of the evaluations,

       •    prepare quarterly statistical reports as required,


       35
          Department of Justice, Office of the Inspector General, The Federal Bureau of
Prisons’ Contract with Hospital Corporation of America-HealthONE, L.L.C., Contract No.
J40303c-146, Audit Report GR-60-06-006 (March 2006).



                                         107
      •    document procedures for verifying the accuracy of the invoices for
           supplies and services, and

      •    ensure the contractor submitted quarterly Summary Paid Billing
           Analysis Reports.

University of Massachusetts Medical School and the UMass Memorial
Health Care, Inc.

       In a March 2006 report on the medical services contract with the
University of Massachusetts Medical School and the UMass Memorial Health
Care, Inc. (collectively UMass), the OIG reported on the contractor’s
compliance with the contract for providing medical services to inmates at
FMC Devens in Ayer, Massachusetts.36 The OIG found that: (1) UMass did
not consistently provide services at the location most advantageous to the
government, (2) UMass lacked a detailed electronic database containing
individual charges which prevented tests of the charges, (3) the FMC was
not able to independently verify contract charges based on the Medicare
hospital inpatient prospective payment system, and (4) the contract
contained terms and requirements that were unreasonable or imprecisely
written and were ignored by both parties.

      The OIG recommended the BOP:

      •    require the contractor to provide detailed data on all contract
           charges electronically and use this data to analyze and manage
           contractor performance and costs;

      •    develop and implement management tools to ensure services were
           consistently provided at the location most advantageous to the
           government;

      •    develop the capability to independently verify contractor charges for
           inpatient hospital services based on the Medicare inpatient
           prospective payment system; and

      •    improve contract administration by requiring the contractor to
           adhere to all terms and conditions of the contract, and when


      36
          Department of Justice, Office of the Inspector General, The University of
Massachusetts Medical School and UMass Memorial Health Care, Incorporated’s Compliance
with the Federal Bureau of Prisons’ Contract DJB20507032, Audit Report GR-70-06-006
(March 2006).



                                       108
           appropriate, amend the contract to ensure all contract terms were
           reasonable, clear, and enforceable.

John C. Lincoln Health Network

       In an August 2006 report on the medical services contract with the
John C. Lincoln Health Network, the OIG reported on the acquisition of
hospital facility services for the United States Penitentiary and the Federal
Prison Camp in Phoenix, Arizona (FCI Phoenix).37 The OIG found that:
(1) FCI Phoenix had not formalized in writing the procedures or policies for
monitoring and reviewing contractor billings, (2) FCI Phoenix’s payments to
the contractor were not processed in a manner consistent with the Prompt
Payments Act, (3) the BOP Contracting Officer’s Technical Representative did
not maintain adequate supporting documentation for performance reports,
and (4) the BOP Contracting Officer did not review the performance reports
in a timely manner.

      The OIG recommended the BOP:

      •    finalize draft procedures for monitoring contractor billing and
           performance,

      •    identify procedural hindrances to full compliance with the Prompt
           Payments Act,

      •    implement new procedures for documenting supporting justification
           for evaluative rankings in performance reports,

      •    implement a policy to define and require a timely review of
           performance reports by the Contracting Officer, and

      •    ensure that the Contracting Officer either maintained or had
           accessed to a comprehensive listing of all contract expenditures to
           assist in contract monitoring.

Medical Development International at FCC Butner and FMC Butner

      In a March 2007 report on another BOP contract with MDI, the OIG
reported on the acquisition of comprehensive medical services provided to


      37
          Department of Justice, Office of the Inspector General, The Federal Bureau of
Prisons’ Contract with the John C. Lincoln Health Network, Contract No. DJB60803144, Audit
Report GR-60-06-009 (August 2006).



                                         109
inmates at FCC Butner and FMC Butner in Butner, North Carolina.38 The OIG
found that: (1) the BOP’s procedures for reviewing and approving billing
rates were weak; (2) MDI’s invoices contained transactions that were not
within the service period being billed; (3) MDI billed the BOP for some
transactions at a rate higher than specified in the contract; (4) MDI billed
the BOP for some services not covered by the contract; (5) the BOP did not
sign off on the timesheets submitted by the contractor; (6) MDI submitted
timesheets that were either miscalculated, overstated, understated or not
supported; (7) MDI billed for transactions where the hours billed were
greater than the hours recorded in the institutions’ sign-in and out logs; (8)
MDI billed for transactions where the hours billed were for MDI contractors
whose names did not appear in the sign-in and sign-out logs; and (9) MDI
did not provide adequate support for billing statements for “on call” services
provided under the contract.

       The OIG recommended the BOP:

       •    remedy the $2,428,345 in questioned costs;

       •    implement various internal controls to ensure the BOP paid for
            services allowed by the contract, actually provided by the
            contractor, and at rates contained in the contract;

       •    improve contract administration to ensure the contractor adhered to
            all terms of the contract; and

       •    include specific terms and requirements for the billing of personnel
            services in the pricing and billing sections for future medical
            services contracts.




       38
         Department of Justice, Office of the Inspector General, The Bureau of Prisons’
Management of the Medical Services Contract with Medical Development International,
Butner, North Carolina, Contract No. DJB10611-00, Audit Report Number GR-40-07-003
(March 2007).



                                         110
                                     APPENDIX XI

The BOP’s Response to the Draft Audit Report




                   111
112
113
114
115
This page intentionally left blank.




           116
                                                              APPENDIX XII

     Office of the Inspector General, Audit Division, Analysis
     and Summary of Actions Necessary to Close the Report

       We provided the draft report to the BOP for review and requested
written comments. The BOP’s written response is included as Appendix XI of
this report. The BOP agreed with all of our recommendations and proposed
corrective action appropriate to resolve the recommendations. However, in
its only comment on the extensive content of the draft report, the BOP
objected to a sentence on page 55 reading “The BOP institutions did not
provide necessary medical care to inmates.” This sentence was included in
the draft report as a very brief summary of Finding 1, which is also
referenced on page 55. In response to the BOP’s statement, we reviewed
our draft report’s language on page 55 and revised it to summarize more
precisely Finding 1. The revised statement on 55 now reads “The BOP’s
institutions did not always provide recommended preventative medical
services to inmates.”

     We provide below our analysis of the BOP’s response to the
recommendations.

1.    Resolved. We recommended the BOP establish procedures for
      collecting and evaluating data for each current and future health care
      initiative to assess whether individual initiatives are cost-effective and
      producing the desired results. The BOP agreed and stated that it will
      establish protocols for collecting and evaluating data. The
      recommendation can be closed when we review the procedures the BOP
      establishes to assess the cost effectiveness of its initiatives.

2.    Resolved. We recommended the BOP review the medical services that
      the OIG and the BOP’s Program Review Division identified as not always
      provided to inmates and determine whether those medical services are
      necessary, or whether the medical service requirement should be
      removed from the Clinical Practice Guidelines. The BOP agreed with the
      recommendation. It stated that in January 2008, it reviewed all of its
      Clinical Practice Guidelines and identified certain guidelines for revision.
      The BOP also stated that it will highlight its Program Review Division’s
      quarterly reports in on-line training sessions, with the first session
      taking place in April 2008. We request that the BOP provide us with a
      list of guidelines identified for revision and the time frame for
      accomplishing the revisions. The recommendation can be closed when
      we review revisions to the Clinical Practice Guidelines.


                                      117
3.   Resolved. We recommended the BOP issue clarifying guidance to the
     institutions regarding the medical services that the BOP decides are
     necessary for BOP medical providers to perform. The BOP agreed and
     stated that by April 2008 it will issue guidance to its institutions
     underscoring the importance of the Clinical Practice Guidelines. The
     recommendation can be closed when we review the BOP’s clarifying
     guidance.

4.   Resolved. We recommended the BOP strengthen management controls
     to ensure proper administration of BOP medical contracts by providing
     guidance and procedures to all BOP institutions. The BOP agreed and
     stated that by April 2008 it will issue guidance to all Bureau Contracting
     Officers and Health Services Administrators regarding medical contract
     administration procedures. The recommendation can be closed when
     we review the BOP’s guidance.

5.   Resolved. We recommended the BOP develop a process to use the
     program summary reports prepared by the Program Review Division to
     develop or clarify agency-wide guidance on systemic deficiencies found
     during program reviews. The BOP agreed and stated that it will issue
     guidance regarding systemic deficiencies found during program reviews
     through periodic on-line training sessions, the first of which will begin in
     May 2008. The recommendation can be closed when we receive
     documentation showing the BOP has developed a process and issued
     guidance.

6.   Resolved. We recommended the BOP ensure initial privileges, practice
     agreements, or protocols are established for all practitioners, as
     applicable. The BOP agreed and stated that by April 1, 2008, it will
     issue guidance clarifying to institutions the importance of ensuring that
     applicable privileges, practice agreements, protocols, and peer reviews
     are handled in a timely manner, and the potential consequences of
     failure to do so. While we agree that clarified guidance is, in part,
     appropriate to address this recommendation, it is not clear to us how
     the issuance of clarified guidance alone will ensure the establishment of
     privileges, practice agreements, and protocols. We believe that
     ensuring the establishment of these items requires a mechanism such
     as testing during program reviews, submission of periodic certification
     statements, submission of periodic reports by institutions, or some other
     appropriate verification technique. We request that the BOP explain
     how the implementation of the clarified guidance will be verified. The




                                     118
     recommendation can be closed when we review the BOP’s clarifying
     guidance and documentation for the verification mechanism.

7.   Resolved. We recommended that the BOP ensure privileges, practice
     agreements, and protocols are reevaluated and renewed in a timely
     manner. The BOP agreed and stated that the guidance it plans in
     response to Recommendation 6 will also address this recommendation.
     As with Recommendation 6, we agree that clarified guidance is, in part,
     appropriate to address this recommendation, but it is not clear to us
     how the issuance of clarified guidance alone will ensure that privileges,
     practice agreements, and protocols are reevaluated and renewed in a
     timely manner. We believe a verification technique also is needed for
     this recommendation, and we request that the BOP explain how the
     implementation of the clarified guidance will be verified. The
     recommendation can be closed when we review the BOP’s clarifying
     guidance and documentation for the verification mechanism.

8.   Resolved. We recommended the BOP ensure that practitioners are not
     allowed to practice medicine in BOP institutions without current
     privileges, practice agreements, or protocols. The BOP agreed and
     stated that the guidance it plans in response to Recommendation 6 will
     also address this recommendation. As with Recommendation 6, we
     agree that clarified guidance is, in part, appropriate to address this
     recommendation, but it is not clear to us how the issuance of clarified
     guidance alone will ensure that practitioners are not allowed to practice
     absent current privileges, practice agreements, or protocols. We believe
     a verification technique also is needed for this recommendation, and we
     request that the BOP explain how the implementation of the clarified
     guidance will be verified. The recommendation can be closed when we
     review the BOP’s clarifying guidance and documentation for the
     verification mechanism.

9.   Resolved. We recommended the BOP ensure that peer reviews of all
     providers are performed within the prescribed time frames. The BOP
     agreed and stated that the guidance it plans in response to
     Recommendation 6 will also address this recommendation. As with
     Recommendation 6, we agree that clarified guidance is, in part,
     appropriate to address this recommendation, but it is not clear to us
     how the issuance of clarified guidance alone will ensure that peer
     reviews are performed within the prescribed time frames. We believe a
     verification technique also is needed for this recommendation, and we
     request that the BOP explain how the implementation of the clarified
     guidance will be verified. The recommendation can be closed when we



                                    119
    review the BOP’s clarifying guidance and documentation for the
    verification mechanism.

10. Resolved. We recommended to the BOP that, until the training
    program on accumulating and reporting performance data is
    implemented, it issue guidance to all institutions on how to accumulate
    and report data for the health care performance measures to ensure
    consistency in the way institutions collect and report performance data.
    We also recommended that, once the training program is fully
    developed, the BOP ensure that appropriate institution staff receives the
    training. The BOP agreed and stated that by May 1, 2008, it will issue
    guidance to all institutions on how to accumulate and report data for the
    health care performance measures to ensure consistency in the way
    institutions collect and report performance data. Data collections and
    reporting will also be addressed in on-line training. The
    recommendation can be closed when we review the BOP’s guidance to
    institutions and receive documentation showing that appropriate
    institution staff have received the on-line training.

11. Resolved. We recommended the BOP establish a process for reviewing
    the health care performance measures reported by institutions that
    includes actions that will be taken when institutions are not meeting the
    target performance levels. The BOP agreed and stated that it issued a
    memorandum on February 12, 2008, to all Bureau Wardens, notifying
    them of changes to the national performance measures and reiterating
    the policy requirement to collect and report these measures. An on-line
    training session for institution Health Services staff was conducted
    February 13, 2008, to discuss the changes and the reporting
    requirements. The BOP stated that the Health Services Division’s Office
    of Quality Management will be collecting and reviewing this data
    semiannually and reporting to the Regional Medical Directors when
    institutions are not meeting the expected target levels. The BOP stated
    that Regional Medical Directors will ensure that national performance
    measures are addressed at each institution under their oversight. The
    BOP further stated that Regional Medical Directors will assess target
    level failures, provide recommendations for improvement, and follow-up
    during Clinical Director peer reviews. The recommendation can be
    closed when we review the February 12, 2008, memorandum and
    documentation for the on-line training conducted on February 13, 2008,
    showing the subjects covered.




                                   120
